 U.S. Department of Housing and Urban Development
    Office of Inspector General




Semiannual Report
   to Congress




     April 1, 2008, through September 30, 2008
Profile of Performance
                                        Audit profile of performance
                         for the period April 1, 2008, through September 30, 2008
    Results                                                        This reporting period                 FY 08 totals
    Recommendations that funds be put to better use                      $75,395,363                   $1,297,214,463
    Recommended questioned costs                                        $157,090,205                    $300,872,100
    Collections from audits                                              $59,634,565                     $81,386,829
    Administrative sanctions                                                   15                              21


                                     Investigation profile of performance
                         for the period April 1, 2008, through September 30, 2008
    Results                                                        This reporting period                 FY 08 totals
    Funds put to better use                                              $39,111,188                     $69,667,391
    Recoveries/receivables                                               $60,621,689                     $81,182,624
    Indictments/informations                                                  578                            1,180
    Convictions/pleas/pretrial diversions                                     525                             969
    Civil actions                                                              50                              76
    Administrative sanctions1                                                 587                            1,009
    Personnel actions                                                          20                              46
    Arrests2                                                                  770                            1,524
    Search warrants                                                            22                             119
    Subpoenas issued                                                          613                            1,026


                                       Hotline profile of performance
                         for the period April 1, 2008, through September 30, 2008
    Results                                                        This reporting period                 FY 08 totals
    Funds put to better use                                              $2,695,138                       $5,051,806
    Recoveries/receivables                                                $123,784                         $254,864



1
  Personnel actions include reprimands, suspensions, demotions, or terminations of the employees of Federal, State, or local
governments or of Federal contractors and grantees, as the result of Office of Inspector General (OIG) activities. In addition,
this reporting category includes actions by Federal agencies to suspend, debar, or exclude parties from contracts, grants, loans,
and other forms of financial or nonfinancial transactions with the government, based on findings produced by OIG.
2
    Included in the arrests is our focus on the nationwide Fugitive Felon Initiative.
  Inspector General’s Message
                                             The U.S. Department of Housing and Urban Development Office of
                                        Inspector General (HUD OIG) is proud to present its Semiannual Report
                                        to the Congress for the second half of fiscal year 2008. I am very thankful
                                        to all the HUD OIG employees--auditors, agents, attorneys, and support
                                        staff--for their excellent production on behalf of the taxpayers of the United
                                        States. We have been deeply immersed in the issues, specifically activities
                                        affecting the housing industry. We at HUD OIG are grateful to the Congress
                                        for the passage of the new Housing and Economic Recovery Act (HERA)
                                        of 2008 that increased the penalties for fraud involving the Federal Housing
                                        Administration (FHA). We now have the tools to continue our pursuit of
                                        corrupt corporate executives, as well as failed and troubled lending
                                        institutions.

                                          During this reporting period, we had $67.9 million in funds put to
                                      better use, questioned costs of $154.8 million, and $60.5 million in
                                      recoveries and receivables while closing 584 cases. This exceptional work
    has had an impact on fraud and the misuse of taxpayer dollars, and it is with gratitude that I acknowledge the
    HUD OIG staff who worked so hard to achieve these results and their associated deterrent effect.

         With the enormous expansion of the FHA mortgage limit in the new HERA of 2008, this essential program
    has expanded into urban markets that have not seen FHA activity, sometimes for decades. Another particular
    interest and concern is the expansion in the use of FHA's home equity conversion mortgages (HECM)--better
    known in the media as reverse mortgages--and the new opportunities that have arisen for fraud aimed at senior
    citizens. The expansion of HECM and the impact of the subprime mortgage situation on the overall health of
    FHA have drawn our investigative and audit resources to this issue. We continue to audit at-risk lenders, and
    we have expanded our participation in mortgage fraud task forces across the country.

        The collapse of the subprime mortgage market and resultant increase in FHA loan activity have also impacted
    the Government National Mortgage Association (Ginnie Mae). Total outstanding Ginnie Mae mortgage-
    backed securities increased from $428 to $577 billion during fiscal year 2008. Due to the increased risk this
    poses to the Department, we have directed additional audit and investigative resources toward Ginnie Mae
    programs.

        Our high-profile audits and investigations have once again paralleled the Department's strategic initiatives.
    HUD OIG staff continue to work with the Department to improve its effectiveness and as a result, have
    developed and implemented better and more effective audit recommendations. HUD OIG Office of
    Investigation agents have also enhanced their association with the Department as a new source or indicator for
    new investigative avenues.

        During this reporting period, our audits recommended that HUD take appropriate actions to ensure that
    FHA-approved lenders comply with Federal requirements for FHA loans located in flood hazard areas. We
    recommended that HUD appropriately sanction violations of the Real Estates Settlement and Procedures Act
    and make referrals to the Mortgagee Review Board, making lenders pay back loans for which HUD underwriting




Inspector General’s Message                                                                                        iii
     requirements were not followed. We further recommended that HUD develop and implement adequate
     oversight of and controls over the appraiser review process to address weaknesses, and we provided comments
     to HUD, requesting that it assess risk while implementing the FHASecure program, which is intended to assist
     subprime or high-risk borrowers harmed by questionable loan terms.

         Our investigating agents have been hard at work as well. A cross-section of the types of cases pursued
     during the reporting period included uncovering and prosecuting a loan origination scam that caused more
     than $2.3 million in losses to HUD, a civil case against an FHA lender that netted HUD $4.6 million, and
     prosecuting a real estate scheme involving identity fraud and false Social Security numbers that caused HUD
     losses in excess of $1.5 million in three States.

         We do all of this while maintaining our vigilance in hurricane-related and flood-related disaster relief,
     post-September 11 redevelopment efforts, Section 8 rental subsidy fraud, and any activity involving waste or
     abuse in HUD programs or operations.

        It is with obvious and justifiable pride that I thank the staff of HUD OIG for their tireless work.




        Kenneth M. Donohue
        Inspector General




iv                                                                                         Inspector General’s Message
                                            Audit reports issued by program
                                                        Other programs               Single-family
                                  Hurricane                  9%
                                relief oversight                                        housing
                                       2%                                                22%


                                                                                                      Multifamily
                  Community                                                                            housing
                  planning and                                                                           4%
                  development
                      21%
                                                                                                 Public and Indian
                                                                                                      housing
                                                                                                       42%


                                     Monetary benefits identified by program
                                                          Other      Single-family
                                       Hurricane         programs       housing
                                     relief oversight       1%                     Multifamily
                                                                          2%
                                            2%                                      housing
                                                                                      5%




                 Community
                 planning and
                                                                                                     Public and Indian
                 development
                                                                                                          housing
                     41%
                                                                                                           49%


                            Monetary benefits identified in millions of dollars

        $120.0
                                                          $114.0          $95.4
        $100.0

         $90.0

         $80.0

         $60.0

         $40.0
                                            $11.4
         $20.0           $6.0                                                             $4.4             $1.4
          $0.0
                    Single-family      Multifamily        Public &    Community       Hurricane         Other
                       housing          housing            Indian     planning and      relief         programs
                                                          housing     development     oversight




Audit Charts                                                                                                             v
                 Investigative cases opened by program area (total: 652)
                                  Other programs
                 Single-family       6% (37)               Community planning
                    housing                                 and development
                   12% (75)                                    18% (120)

                                                                          Multifamily
                                                                           housing
                                                                           9% (60)



     Public and Indian
          housing
        55% (360)




             Investigative recoveries by program area (total: $60,621,689)

                                         Other       Community planning
                                      0% ($38,345)    and development
                                                     19% ($11,333,932)

                                                                          Multifamily housing
                                                                           5% ($2,892,389)




       Single-family                                                      Public and Indian
          housing                                                              housing
           52%                                                            14% ($8,513,166)
      ($37,843,857)




vi                                                                              Investigation Charts
 Acronyms List
 AFGE           American Federation of Government Employees
 AIGA           Assistant Inspector General for Audit
 AIGI           Assistant Inspector General for Investigation
 ARIGA          Assistant Regional Inspector General for Audit
 ASAC           Assistant Special Agent in Charge
 CDBG           Community Development Block Grant
 CPD            Office of Community Planning and Development
 DHAP           Disaster Housing Assistance Program
 DHS            U.S. Department of Homeland Security
 DOJ            U.S. Department of Justice
 EIV            Enterprise Income Verification
 FEMA           Federal Emergency Management Agency
 FFI            Fugitive Felon Initiative
 FFMIA          Federal Financial Management Improvement Act of 1996
 FHA            Federal Housing Administration
 FHAP           Fair Housing Assistance Program
 FHEO           Office of Fair Housing and Equal Opportunity
 FISMA          Federal Information Security Management Act
 FSS            Family Self-Sufficiency
 GAO            U.S. Government Accountability Office
 Ginnie Mae     Government National Mortgage Association
 GPRA           Government Performance Results Act
 HECM           Home equity conversion mortgages
 HERA           Housing and Economic Recovery Act (HERA) of 2008
 HOME           HOME Investment Partnerships Program
 HUD            U.S. Department of Housing and Urban Development
 IAA            Interagency agreement
 IG             Inspector General
 IOI            Identity of interest
 IRS            Internal Revenue Service
 IT             Information technology
 NAHASDA        Native American Housing Assistance and Self-Determination Act of 1996
 NAHRO          National Association of Housing and Redevelopment Officials
 NCDF           National Center for Disaster Fraud



Acronyms List                                                                           vii
  OA       Office of Audit
  OI       Office of Investigation
  OIG      Office of Inspector General
  OMB      Office of Management and Budget
  PFCRA    Program Fraud Civil Remedies Act
  PHA      Public housing agency
  PIH      Office of Public and Indian Housing
  REAP     Resource Estimation and Allocation Process
  RESPA    Real Estate Settlement Procedures Act
  RIGA     Regional Inspector General for Audit
  SA       Special Agent
  SAC      Special Agent in Charge
  SBA      Small Business Administration
  SEMAP    Section Eight Management Assessment Program
  SFA      Senior Forensic Auditor
  SHP      Supportive Housing Program
  SSA      Senior Special Agent
  SSA      Social Security Administration
  SSN      Social Security number
  TEAM     Total Estimation and Allocation Mechanism
  U.S.C.   United States Code
  USMS     United States Marshals Service
  USPS     United States Postal Service
  VA       U.S. Department of Veterans Affairs




viii                                                     Acronyms List
  Table of Contents
  Executive Highlights                                                              1
  Chapter 1 - HUD’s Single Family Housing Programs                                  7
         Audits                                                                     8
         Investigations                                                            16
  Chapter 2 - HUD’s Public and Indian Housing Programs                             27
         Audits                                                                    28
         Investigations                                                            45
  Chapter 3 - HUD’s Multifamily Housing Programs                                   61
         Audits                                                                    62
         Investigations                                                            65
  Chapter 4 - HUD’s Community Planning and Development Programs                    71
         Audits                                                                    72
         Investigations                                                            81
  Chapter 5 - Hurricane Relief Oversight                                            87
         Introduction and Background                                                89
         Audits                                                                     92
         Investigations                                                             94
         Inspections and Evaluations                                               102
  Chapter 6 - Other Significant Audits and Investigations/OIG Hotline              105
         Audits                                                                    106
         Inspections and Evaluations                                               109
         Investigations                                                            110
         OIG Hotline                                                               111
  Chapter 7 - Outreach Efforts                                                     113
  Chapter 8 - Review of Policy Directives                                          127
         Enacted Legislation Related to Single-Family Housing                      128
         Proposed Rules                                                            128
  Chapter 9 - Audit Resolution                                                     129
         Audit Reports Issued before Start of Period with No Management Decision   130
         Significant Revised Management Decisions                                  131
         Significant Management Decision with Which OIG Disagrees                  133
         Federal Financial Management Improvement Act of 1996                      133
  Appendix 1 - Audit Reports Issued                                                135
  Appendix 2 - Tables                                                              143
  Appendix 3 - Index                                                               163
  HUD OIG Operations Telephone Listing                                             167




Table of Contents                                                                        ix
    Reporting Requirements
    The specific reporting requirements as prescribed by the Inspector General Act of 1978, as amended by the
    Inspector General Act of 1988, are listed below:
    Source/Requirement                                                                                       Pages
    Section 4(a)(2)-review of existing and proposed legislation and regulations.                                 128
    Section 5(a)(1)-description of significant problems, abuses, and deficiencies relating to            1-112, 128
    the administration of programs and operations of the Department.
    Section 5(a)(2)-description of recommendations for corrective action with respect to                       7-112
    significant problems, abuses, and deficiencies.
    Section 5(a)(3)-identification of each significant recommendation described in                Appendix 2, Table B
    previous semiannual report on which corrective action has not been completed.
    Section 5(a)(4)-summary of matters referred to prosecutive authorities and the                             7-112
    prosecutions and convictions that have resulted.
    Section 5(a)(5)-summary of reports made on instances in which information or                         No Instances
    assistance was unreasonably refused or not provided, as required by Section 6(b)(2) of
    the Act.
    Section 5(a)(6)-listing of each audit report completed during the reporting period and               Appendix 1
    for each report, where applicable, the total dollar value of questioned and unsupported
    costsand the dollar value of recommendations that funds be put to better use.
    Section 5(a)(7)-summary of each particularly significant report and the total dollar value                 7-112
    of questioned and unsupported costs.
    Section 5(a)(8)-statistical tables showing the total number of audit reports and the        Appendix 2, Table C
    total dollar value of questioned and unsupported costs.
    Section 5(a)(9)-statistical tables showing the total number of audit reports                 Appendix 2, Table D
    and the dollar value of recommendations that funds be put to better use by
    management.
    Section 5(a)(10)-summary of each audit report issued before the commencement                Appendix 2, Table A
    of the reporting period for which no management decision had been made by the
    end of the period.
    Section 5(a)(11)-a description and explanation of the reasons for any                               No Instances
    significant revised management decisions made during the reporting period.
    Section 5(a)(12)-information concerning any significant management decision with which the                   133
    Inspector General is in disagreement.
    Section 5(a)(13)-the information described under section 05(b) of the Federal Financial                     133
    Federal Financial Management Improvement Act of 1996.




x                                                                                               Reporting Requirements
Executive
Highlights
    Strategic Initiative 1
    HUD Strategic Goal: Increase Homeownership Opportunities
    OIG Strategy: Contribute to the reduction of fraud in single-family insurance programs through
    - Audits uncovering single-family and loan origination abuse
    - Audits of the U.S. Department of Housing and Urban Development's (HUD) internal policies to
       determine whether controls are adequate
    - Audits of lenders' origination activities under the FHASecure and Hope for Homeowners programs
    - National strategy for single-family mortgage fraud task forces
    - Inspections and evaluations of program areas
    - Outreach to industry and consumer groups and the Department

    Highlights: Results or impact of significant OIG work

    - Disclosed more than $1.5 million in questioned costs and nearly $2.9 million in recommendations page 8
       that funds be put to better use
    - Recommended that HUD develop and implement adequate oversight of and controls over the             page 9
       appraiser review process to address identified weaknesses
    - Recommended that HUD take appropriate actions to ensure that Federal Housing Administration      page 10
       (FHA)-approved lenders comply with federal requirements for FHA loans located in flood hazard areas
    - Recommended that HUD take appropriate sanctions for Real Estate Settlement Procedures Act        page 11
       violations, make referrals to the Mortgagee Review Board, and require the lender to indemnify
       loans for which HUD underwriting requirements were not followed
    - Loan origination scam causes HUD more than $2.3 million in losses                                page 17
    - Identity fraud and false Social Security numbers cause HUD losses in excess of $1.5 million in   page 21
       Colorado, New Jersey, and Texas
    - Civil settlement with direct endorsement lender nets HUD $4.6 million                            page 22
    - More than 300 mortgage and real estate professionals attend a mortgage fraud presentation in    page 115
       Michigan
    - Provided comments for HUD to assess risk while implementing the FHASecure program, which        page 130
       is intended to assist subprime or high-risk borrowers harmed by questionable loan terms

    Emerging Issues: Areas of OIG interest
    - FHASecure
    - Hope for Homeowners program
    - Home equity conversion mortgage program
    - Licensing and certification of mortgage professionals




2                                                                                             Executive Highlights
  Strategic Initiative 2
   HUD Strategic Goal: Promote Decent Affordable Housing
   OIG Strategy: Contribute to the reduction of erroneous payments in rental assistance programs
   through
   - Audits of Section 8 Housing Choice Voucher program activities
   - Audits of the HUD’s internal policies to determine whether controls are adequate
   - Investigative initiatives involving corruption in the management of troubled public housing authorities
      and multifamily developments
   - Section 8 fraud initiatives in each Office of Inspector General (OIG) region
   - Public Housing Fugitive Felon and Sex Offender Initiatives - locate and remove
   - Public and Department-wide outreach initiatives

   Highlights: Results or impact of significant OIG work

   - Disclosed nearly $73 million in questioned costs and nearly $40 million in recommendations that      page 28
      funds be put to better use
   - Recommended that HUD require a housing authority to reimburse more than $27 million in               page 30
      restricted funds to the proper program and establish and implement adequate procedures
      and controls to ensure that no interprogram advances of restricted funds are made in the future
   - Identified excessive assistance payments due to payments for units not meeting minimum housing       page 32
      quality standards, errors in tenant files, and lack of controls
   - Recommended that HUD require housing authorities that failed to administer its Family                page 33
      Self-Sufficiency program to reimburse the applicable program from nonfederal funds
   - Recommended that housing authorities enhance their quality controls and implement policies and       page 34
      procedures to prevent improper payments
   - Housing authority executive director and others indicted in North Carolina                           page 46
   - New York, Miami, and Las Vegas Section 8 landlords and tenants cause HUD losses of about             page 52
      $800,000
   - Fugitive felons residing in HUD-subsidized housing arrested in Illinois, Kansas, Missouri, Utah,     page 58
      and South Dakota
   - Multifamily management company owner indicted for embezzling more than $500,000 in HUD page 66
      funds
   - Loan officer charged in civil complaint after hospital defaults on a $7 million HUD-insured mortgage page 69
   - Public housing fraud schemes described for 475 National Association of Housing and                  page 120
      Redevelopment officials in Massachusetts, New Jersey, California, Missouri, Arkansas, and Texas
   Emerging Issues: Areas of OIG interest
   - FHA-insured nursing homes and nursing home equity skimming
   - Public housing corruption and multifamily mismanagement
   - Landlord fraud
   - Implementation of Section 8 Management Assessment Program/ controls to ensure HUD's Section 8
      housing stock is in material compliance with housing quality standards
   - Evaluation of the Housing Authority of New Orleans in carrying out its public housing activities and
      Section 8, procurement, and financial functions



Executive Highlights                                                                                                3
    Strategic Initiative 3
    HUD Strategic Goal: Strengthen Communities
    OIG Strategy:
    - Promote integrity, efficiency, and effectiveness of programs
    - Contribute to the reduction of fraud, waste, and abuse through
    - Audits of the Community Development Block Grant (CDBG), Supportive Housing Program, and HOME
       Investment Partnerships Program
    - Department liaison
    - Audits of Gulf Coast activities
    - Investigative initiative involving corruption in the administration of State or local community planning and
       development programs in each OIG region
    - Hurricane relief fraud in HUD CDBG-funded programs
    - Inspections and evaluations of program areas
    - Public dissemination of HUD OIG activities and outreach activities with State and local government
       agencies
    Highlights: Results or impact of significant OIG work

    - Disclosed more than $70 million in questioned costs and nearly $25 million in recommendations        page 72
       that funds be put to better use.
    - Recommended that HUD require the States of New Mexico and Arizona repay more than $8.4               page 73
       million and ensure that the States comply with the Act in relation to set-asides for colonias.
    - The former executive director and treasurer of a youth-oriented nonprofit in Fairbanks, AK, sent to page 82
       prison for embezzlement
    - The former treasurer of a HUD-funded nonprofit chose 30 days in prison in lieu of a public apology page 82
    - Hurricane relief fraud involving CDBG funding for homeowners                                         page 95
    - HUD program director and contractor briefed on fraud prevention measures in the Disaster            page 100
    Housing Assistance program
    - Inspection of housing assistance overpayments to multifamily property owners after Hurricane        page 102
       Katrina
    Emerging Issues: Areas of OIG interest
    - Gulf Coast hurricane assistance fraud
    - Neighborhood Stabilization Program
    - Emergency Shelter and Homeless Grants
    - Emergency supplementals for FY 2008 natural disasters




4                                                                                                 Executive Highlights
  Strategic Initiative 4
   HUD Strategic Goal: Embrace High Standards of Ethics, Management, and Accountability

   OIG Strategy:
   - Be a relevant and problem-solving advisor to the Department
   - Contribute to improving HUD's execution and accountability of fiscal responsibilities through
   - Audits of HUD's financial statements
   - Audits of HUD's information systems and security management
   - Audits of Ginnie Mae activities
   - Implementation of U.S. Department of Justice Procurement Fraud Task Force at HUD
   - FedRent data match operation - identifying Federal employees who fraudulently receive housing assistance

   Highlights: Results or impact of significant OIG work

   - HUD's Enterprise Income Verification System discovers U.S. Postal Service employees fleecing      page 55
     Chicago area housing authorities
   - Recommended that HUD take measures to enhance methods used to assess human resource needs        page 106
   - Recommended that HUD properly meet its information security responsibilities                     page 107
   Emerging Issues: Areas of OIG interest
   - Issuer accountability in loan portfolio defaults in Government National Mortgage Association mortgage-
      backed securities program




Executive Highlights                                                                                             5
                      Chapter 1
                HUD’s Single-Family
                 Housing Programs




Acronyms List
        The Federal Housing Administration’s (FHA) single-family programs provide mortgage insurance to
    mortgage lenders that, in turn, provide financing to enable individuals and families to purchase,
    rehabilitate, or construct homes. In addition to the audits and investigations described in this chapter,
    the U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG),
    has conducted numerous outreach efforts (see chapter 7, page 120).


    Audits
                           Strategic Initiative 1: Contribute to the reduction of fraud
                                       in single-family insurance programs
         Key program results                    Questioned costs                           Funds put to better use
      Audit           20 audits                    $1.5 million                                    $2.9 million
                        Page 9           - HUD's Office of Single Family Housing’s control structure
                        Page 9           - HUD's appraiser review process
        Our             Page 9           - HUD's oversight of the home equity conversion mortgages program
       focus           Page 10           - HUD's oversight of the underwriting for Federal Housing
                                           Administration loans located in flood hazard areas
                       Page 11           - Mortgagees, loan correspondents, and direct endorsement lenders
                       Page 15           - Review of Government National Mortgage Association-approved issuer

                      Chart 1.1: Percentage of OIG single-family housing audit reports
                                        during this reporting period
                                                                                                     Region 1
                                                                                                       5%
                                              Region 7-8                Region 5
                                                                         11%            Region 2
                                                32%
                                                                                         10%




                                                                                                         Region 3
           Region 9-10                                                                                     5%
              21%


                                                                                              Region 4
                                               Region 6                                         5%
                                                11%


                                                                                   Region 11
                                                                           (Disaster Relief Oversight)
                                                                                    %(N/A)*
    * This does not include hurricane relief audits. See chapter 5 for these reviews.



8                                                                             Chapter 1: HUD’s Single-Family Housing Programs
 HUD's Office of Single Family Housing’s Control Structure
     The U.S. Department of Housing and Urban Development's (HUD) Office of Inspector General (OIG)
 audited HUD's Office of Single Family Housing (Single Family) to determine whether it had implemented an
 internal control structure in accordance with U.S. Government Accountability Office (GAO) internal control
 standards and HUD requirements.

     Single Family had not fully implemented an internal control structure in accordance with GAO internal
 control standards and HUD requirements. Specifically, it did not (1) perform a formal, systematic annual risk
 assessment of its programs and administrative functions, (2) plan and conduct ongoing management control
 reviews or alternative management control reviews of its programs, (3) establish an overall strategy regarding its
 risk-based monitoring of program activities and participants, or (4) identify corrective actions required to
 improve its management controls in a timely manner.

     OIG recommended that HUD ensure that Single Family fully implements an acceptable internal control
 structure by preparing and implementing effective written policies and procedures that comply with GAO
 internal control standards and HUD requirements. (Audit Report: 2008-KC-0006)

 HUD's Appraiser Review Process
    HUD OIG audited HUD's appraiser review process to determine whether homeownership centers’
 appraiser review procedures and HUD's oversight of the appraiser review process were adequate to identify and
 remedy deficiencies associated with an appraiser and to assess the overall effectiveness of the appraiser review
 process.

      HUD's appraiser review process was not adequate to reliably and consistently identify and remedy
 deficiencies associated with an appraiser, and HUD did not maintain information necessary to assess the
 effectiveness of its review process. Each major phase of the appraiser review process contained problems such
 as inadequate or incomplete HUD guidance, weak quality controls over implementation of review procedures,
 and inconsistent application of rating standards and sanctioning timeframes.

      OIG recommended that HUD develop and implement adequate oversight of and controls over the
 appraiser review process to address the weaknesses identified and ensure that it continuously evaluates the
 efficiency and effectiveness of the process. (Audit Report: 2008-LA-0003)

 HUD's Oversight of the Home Equity Conversion Mortgages Program
     HUD OIG audited HUD's oversight of the Federal Housing Administration (FHA)-insured home equity
 conversion mortgages (HECM) program to assess elements of HUD's oversight of the program, focusing on
 lender notification of borrower deaths and payment of debenture interest.

     HUD did not ensure that FHA lenders reported borrowers' deaths in accordance with Federal
 requirements. For the 31 loans reviewed, HUD's contractor failed to provide documentation to support that
 FHA lenders notified HUD of borrowers' deaths in writing. Further, the lenders failed to notify the contractor
 of borrowers' deaths for 11 of the loans and for 13 loans did not report in a timely manner the dates of
 borrowers' deaths. HUD also failed to pay debenture interest on HECM loans. For 13 of the 30 loans on




Chapter 1: HUD’s Single-Family Housing Programs                                                                       9
 which HUD paid claims during the period March 1, 2006, through February 29, 2008, it did not pay
 debenture interest to the lenders in accordance with Federal requirements.

      As a result, HUD could not be assured that FHA lenders appropriately met HUD's time requirements for
 initiating the foreclosure process or for recording the deeds-in-lieu to take possession of the property, which
 impacts the amount of the lenders' insurance claims. Additionally, as a result of HUD's failure to pay lenders
 debenture interest on HECM loans from the loans' due date to the claim payment date, it owes lenders
 debenture interest on these loans.

      OIG recommended that HUD improve its existing procedures and controls to ensure that lenders follow
 its requirements for servicing HECM loans and implement adequate procedures and controls to ensure that it
 complies with Federal requirements in the administration of the HECM program, including the proper
 payment of claims, and curtail interest payments to the appropriate lenders for the loans identified that HUD
 determines failed to meet all of its time requirements. (Audit Report: 2008-CH-0001)

 HUD's Oversight of the Underwriting for FHA Loans Located in Flood
 Hazard Areas
     HUD OIG audited HUD's oversight of the underwriting of FHA-insured loans for new construction
 properties located in the Federal Emergency Management Agency's (FEMA) designated special flood hazard
 areas to determine whether HUD had adequate oversight of the underwriting of the loans.

     HUD did not always ensure that FHA-approved lenders complied with Federal requirements when they
 submitted 399 loans, totaling more than $55 million in original mortgage amounts, to HUD for insurance
 endorsement. The loans were to finance the purchase of newly constructed properties located in FEMA's
 designated special flood hazard areas. However, the lenders failed to provide evidence of a letter of map
 revision/amendment or flood elevation certificate when the loans were submitted to HUD for insurance
 endorsement. For 195 loans, totaling nearly $27 million in original mortgage amounts, the lenders did not
 ensure that borrowers' escrow accounts included payments for flood insurance at the time the loans closed.
 HUD also did not ensure that lenders servicing FHA-insured loans for 163 properties, totaling nearly $22
 million in original mortgage amounts, kept apprised of whether borrowers maintained required flood
 insurance. In addition, 30 FHA lenders incorrectly certified to the integrity of the data supporting the
 underwriting deficiencies and that the loans were eligible for HUD mortgage insurance for 242 loans.

     As a result, HUD inappropriately approved loans for FHA mortgage insurance, and the lenders' failure to
 ensure that borrowers maintained flood insurance throughout the life of the loans could pose a significant risk
 in the event of a natural flood disaster.

     We recommended that HUD (1) seek appropriate administrative action for the active loans if the lenders
 cannot provide documentation to show that the properties are not located in FEMA's designated special flood
 hazard areas or the required elevation certification showing that the properties meet elevation requirements
 and are covered by flood insurance, (2) require the applicable lenders to reimburse HUD for any future losses
 from claims paid if they cannot provide the required documentation, (3) require the lenders for the loans
 lacking flood insurance to provide evidence showing that the properties have flood insurance or are no longer
 located in FEMA's designated special flood hazard areas or seek appropriate administrative action, (4) and
 improve existing procedures and controls to ensure that lenders follow HUD's underwriting requirements for
 new construction properties located in FEMA's designated special flood hazard areas. These improved



10                                                              Chapter 1: HUD’s Single-Family Housing Programs
 procedures and controls should result in a potential savings to the FHA insurance fund of nearly $261,000
 over the next year. We also recommended that HUD determine legal sufficiency and if legally sufficient,
 pursue remedies under the Program Fraud Civil Remedies Act (PFCRA) against the lenders with incorrect
 certifications. (Audit Report: 2008-CH-0002)

 Mortgagees, Loan Correspondents, and Direct Endorsement Lenders
     Audits to uncover single-family lenders and loan origination abuses continued to be a priority during this
 semiannual period. Lenders are targeted for audit through the use of data mining techniques, along with
 prioritizing audit requests from outside sources. During this period, HUD OIG reviewed 14 FHA
 single-family mortgage lenders. While OIG's objectives varied by auditee, the majority of the reviews were to
 determine whether the mortgage lender complied with HUD's regulations, procedures, and instructions for
 the underwriting of FHA loans and whether the mortgage lender's quality assurance plan met HUD's
 requirements. The following section illustrates the audits conducted in the single-family mortgage lender area.



     HUD OIG audited Heartland Funding Corporation in Springfield, MO, and found that Heartland Funding
 violated the Real Estate Settlement Procedures Act (RESPA) and HUD requirements when processing FHA
 loans that involved downpayment assistance. In addition, it did not follow HUD requirements when it
 underwrote 27 FHA loans, implemented its quality control plan, or reported staff compensation.

     OIG recommended that HUD (1) take appropriate sanctions against Heartland Funding for violating
 RESPA, (2) refer it to HUD's Mortgagee Review Board for review and appropriate actions, (3) require it to
 indemnify HUD on 27 loans for which it did not follow HUD underwriting requirements, and (4) verify
 that it fully implements a quality control program that complies with HUD requirements and has ceased
 improperly reporting staff compensation. (Audit Report: 2008-KC-1006)



     HUD OIG audited Mortgage Access Corporation in Morris Plains, NJ, doing business as Weichert
 Financial Services, and found that Mortgage Access Corporation did not always comply with HUD
 regulations. Seven loans exhibited significant underwriting deficiencies such as inadequate credit analysis,
 inadequate verification of funds to close, minimum cash investment not met, and inadequate verification of
 income/employment. As a result, loans were approved for potentially ineligible borrowers, which caused
 FHA to incur an unnecessary insurance risk. In addition, one of these seven loans was approved for a property
 that was not eligible for FHA insurance. Mortgage Access Corporation also failed to ensure that its quality
 control plan was implemented in accordance with HUD's requirements. Consequently, the
 effectiveness of the plan, which was designed to ensure accuracy, validity, and completeness in its loan
 underwriting process, was lessened.

     OIG recommended that HUD require Mortgage Access Corporation to reimburse it for one ineligible
 loan, indemnify it against future losses on six loans with significant underwriting deficiencies, and implement
 procedures to ensure compliance with HUD's and its own quality control requirements. (Audit Report:
 2008-NY-1005)




Chapter 1: HUD’s Single-Family Housing Programs                                                                11
     HUD OIG audited the Wells Fargo Bank NA, Rochester, NY, Branch Office, a national bank and
 supervised lender, and found that Wells Fargo did not always comply with HUD underwriting requirements.
 Consequently, 16 of the 20 loans reviewed exhibited significant underwriting deficiencies such as minimum
 cash investment not met, inaccurate calculation of income, inadequate verification of debt, inadequate review
 of appraisals, and overinsured loans. In addition, 8 of the 16 loans contained origination deficiencies, such as
 inadequate gift fund verification, inadequate assets available to close, questionable clear title to the property,
 ineligible prior mortgage late payments, inadequate compensating factors, and various borrower credit issues.
 As a result, mortgage loans were approved for potentially ineligible borrowers, causing the FHA insurance fund
 to assume an unnecessary insurance risk. Wells Fargo also failed to ensure that its quality control plan was
 properly implemented in accordance with HUD's and its own quality control requirements.

     OIG recommended that HUD (1) require Wells Fargo to reimburse HUD for the loss incurred on one
 loan with significant underwriting deficiencies, (2) indemnify HUD against future losses on 15 active loans
 with significant underwriting deficiencies, (3) establish procedures to ensure that HUD underwriting
 requirements are properly implemented and documented, and (4) implement procedures to ensure
 compliance with HUD's and its own quality control requirements. (Audit Report: 2008-NY-1010)



    HUD OIG reviewed 23 FHA loans underwritten by Peoples Bank of Overland Park, KS, and found that
 Peoples Bank did not follow HUD's requirements when underwriting nine FHA loans. In addition, its quality
 control program did not comply with HUD's requirements.

     OIG recommended that HUD (1) require Peoples Bank to indemnify HUD for eight actively insured
 loans and reimburse HUD for one loan for which HUD incurred losses when it sold the property, (2) verify
 that Peoples Bank has implemented an adequate supervisory structure and adequately trained its underwriters
 regarding HUD requirements for FHA loans, and (3) ensure that Peoples Bank implements a quality control
 program that meets HUD requirements. (Audit Report: 2008-KC-1004)



     HUD OIG audited the Newark, DE, branch office of Wells Fargo Home Mortgage, which is mainly
 responsible for underwriting loans for 22 Wells Fargo sales branch offices in Pennsylvania. OIG found that the
 Wells Fargo branch office did not always comply with HUD requirements in the origination of FHA-insured
 single-family loans. Although it generally complied with HUD requirements in its quality control reviews of
 FHA loans, four of eight loans reviewed were not originated in accordance with HUD requirements. As a
 result, the FHA insurance fund was exposed to an unnecessarily increased risk.

    OIG recommended that HUD require Wells Fargo to indemnify more than $816,000 for four loans,
 which it issued contrary to HUD's loan origination requirements, and enforce its policies, procedures, and
 controls to ensure that its staff consistently follows HUD's requirements. (Audit Report: 2008-PH-1011)



     HUD OIG audited A Plus Mortgage, Inc., Tukwila, WA, and found that A Plus disregarded FHA
 requirements and provisions of RESPA and engaged in deceptive lending practices. Although it informed
 borrowers that they could receive a lower interest rate on their loans by paying up-front points and fees, A Plus
 charged loan discount fees to borrowers without reducing interest rates on the mortgages. This practice



12                                                                Chapter 1: HUD’s Single-Family Housing Programs
 allowed A Plus to generate high-rate loans for which its sponsor lenders paid it a yield spread premium when
 the loans closed escrow. As a result, borrowers paid excessive interest and fees for which they received no
 associated benefit. In addition, all 28 FHA-insured A Plus loans reviewed were originated by independent
 contractors, unapproved branches, or other non-FHA-approved mortgage broker firms.

     OIG recommended that HUD require A Plus to (1) return unearned and excess yield spread premiums,
 loan discount fees, and other fees, totaling more than $153,000, to the borrowers; (2) review and analyze all
 other FHA-insured loans generated by A Plus with loan discount points when no interest rate reduction
 occurred, report the results to the Mortgagee Review Board, and issue refunds to the borrowers;
 (3) discontinue charging loan discount fees when it receives yield spread premiums on a loan; (4) cease
 changing the names of fees from the initial disclosure to the final HUD-1 settlement statement; (5) instruct its
 loan officers to ensure that the borrowers clearly understand the nature of all charges associated with their
 loans; (6) return all loan origination fees, totaling more than $32,000, to the borrowers on all loans that were
 originated by third-party independent contractors; (7) only submit loans for FHA insurance that were
 originated by A Plus employees; and (8) register all of its branch offices with FHA. (Audit Report:
 2008-SE-1004)



     HUD OIG audited Meridian Lending, Inc., Monroe, GA, an FHA-approved direct endorsement lender,
 and found that Meridian did not follow HUD requirements in originating two of the eight FHA-insured loans
 reviewed. As a result, it placed HUD's insurance fund at risk for nearly $272,000. In addition, Meridian did
 not review its early defaulting loans. As a result, the lender adversely impacted the goals of HUD's quality
 control program, which is designed to protect the lender and HUD from unacceptable risk.

     OIG recommended that HUD require Meridian to (1) indemnify HUD for the potential loss on the loan
 with a significant deficiency and reimburse HUD for the claim loss on the other loan and (2) conduct its
 quality reviews in a timely manner and review all early defaulting loans as required by HUD regulations.
 (Audit Report: 2008-AT-1010)



     HUD OIG audited the Milford, CT, branch office of Countrywide Bank, FSB, a supervised national bank
 approved by HUD to originate, underwrite, and service FHA single-family insured loans. OIG expanded the
 audit to cover the Madison, CT, branch office, which used the same FHA identification number. OIG found
 that Countrywide's quality control plan and implementation were adequate. However, the lender did not fully
 comply with HUD regulations, procedures, and instructions in the origination of FHA-insured single-family
 mortgages. Specifically, Countrywide allowed some borrowers, using secondary financing from an agency
 acting as an instrumentality of government, to incorrectly receive cash back at closing in excess of their total
 cash deposit totaling nearly $6,000. It also did not properly notify HUD upon the sale and/or transfer of
 FHA-insured loans.

     OIG recommended that HUD require Countrywide to (1) pay down the principal for the five overinsured
 loans and implement controls to prevent cash back when secondary financing is used and (2) update its
 mortgages records in HUD's system to reflect the appropriate mortgage holder and implement procedures to
 ensure the timely submission of mortgage record changes for future loans assigned or sold. (Audit Report:
 2008-BO-1007)




Chapter 1: HUD’s Single-Family Housing Programs                                                                 13
      HUD OIG audited the mortgage origination and business practices of First Magnus Financial Corporation's
 corporate office in Tucson, AZ, and found that First Magnus violated RESPA when it paid quality incentives,
 also known as volume-based incentives, to brokers for originating and processing FHA mortgages. As a result,
 it paid brokers nearly $59,000 in quality incentives to originate and process 169 FHA mortgages totaling more
 than $24 million.

     OIG recommended that HUD (1) require First Magnus to ensure that the practice of issuing incentive
 payments to brokers for originating and processing FHA mortgages is discontinued, (2) remove First Magnus'
 active status and approval to perform FHA business, and (3) pursue administrative actions against the principal
 owners and management of First Magnus for allowing the improper practice of issuing incentive payments to
 brokers for originating and processing FHA mortgages. (Audit Report: 2008-LA-1013)



     HUD OIG audited the mortgage origination and business practices of the First Magnus Financial
 Corporation corporate office in Tucson, AZ, and found that First Magnus violated RESPA when it paid for the
 referral of FHA mortgage business. As a result, it paid building and real estate companies more than $32,000
 in marketing fees and noncompetition fees in exchange for the exclusive referral of 236 FHA-insured
 mortgages totaling more than $30 million.

     OIG recommended that HUD (1) require First Magnus, for any current or future FHA mortgage
 operations for which it may exercise management control, to ensure that the practice of paying marketing fees
 and noncompetition fees to real estate companies and builders for referrals of FHA mortgages is discontinued;
 (2) remove First Magnus' active status and approval to perform FHA business; and (3) pursue administrative
 actions against the principal owners and management of First Magnus for allowing the improper practice of
 paying marketing fees and noncompetition fees to real estate companies and builders in exchange for referrals
 of FHA mortgage business. (Audit Report: 2008-LA-1014)



     HUD OIG audited First National Bank of Gillette, WY, an FHA-approved direct endorsement lender,
 and found that First National Bank did not follow HUD regulations when originating and underwriting 18
 FHA loans. In addition, it did not have a written quality control plan, and its third-party contractor, who
 performed the quality control reviews, did not perform all reviews in accordance with HUD requirements.

     OIG recommended that HUD require that First National Bank bring its procedures for the origination
 and underwriting of insured loans into full compliance with HUD regulations and to develop and implement
 a written quality control plan. (Audit Report: 2008-DE-1004)



     HUD OIG audited Wells Fargo Mortgage, Minneapolis, MN, and found that Wells Fargo generally
 complied with HUD's reverse mortgage requirements. However, 3 of the 47 loans reviewed did not meet
 HUD's requirements. Wells Fargo originated one ineligible loan totaling more than $86,000 for a home that
 was not the borrower's primary residence, one loan for nearly $149,000 for a home that the borrower no
 longer occupied, and one loan for which the list of required repairs was not detailed enough to determine
 requirements. In addition, for the loan to the borrower who no longer occupied the home, the borrower did
 not complete repairs in an acceptable manner.



14                                                              Chapter 1: HUD’s Single-Family Housing Programs
     OIG recommended that HUD cancel the mortgage insurance on one loan, require Wells Fargo to
 complete foreclosure proceedings for one loan, and ensure that inspectors list repairs in sufficient detail to
 determine what repairs were required and ensure that the repairs are satisfactorily completed. (Audit Report:
 2008-FW-1013)



     HUD OIG reviewed Senior Reverse Mortgage Services, Incorporated, Bedford, TX, a HECM originator.
 Generally, the originator complied with HUD regulations when it originated HECM loans. However, it could
 have improved its service by consistently following requirements to (1) adequately disclose the financial aspects
 of the loans to borrowers, (2) counsel the borrowers on other available financing options, and (3) complete
 documents. Because the originator did not consistently follow these procedures, borrowers may not have been
 fully aware of the financial implications of the loans.

     OIG recommended that HUD require the originator to implement procedures to ensure that it
 (1) provides at least two assumptions for at least two loan terms and two appreciation rates to borrowers,
 (2) provides a list of eligible counselors to the borrowers so that they can select their counselor, and
 (3) completes all loan documents. (Audit Report: 2008-FW-1010)



     HUD OIG reviewed the quality control program of James B. Nutter and Company, Kansas City, MO,
 and found that for 6 months in 2007 and 2008, J.B. Nutter did not meet HUD's or its own quality control
 requirements regarding the number of loans to review.

    OIG recommended that HUD ensure that J.B. Nutter follows HUD requirements regarding the
 minimum number of endorsed loans to be reviewed for quality control purposes. (Audit Report:
 2008-KC-1005)

 Review of Government National Mortgage Association-Approved Issuer
     HUD OIG audited Doral Bank Puerto Rico, San Juan, PR, an approved issuer for the Government
 National Mortgage Association (Ginnie Mae), to determine whether Doral complied with Ginnie Mae
 requirements associated with its mortgage-backed securities activities.

     Doral did not fully comply with Ginnie Mae requirements because it maintained seven noninsured loans
 in Ginnie Mae pools. It also failed to ensure that data on its pooled loans were accurate. As a result, it retained
 defective loans with unpaid principal totaling more than $448,000 in its Ginnie Mae pools and reported
 inaccurate information to Ginnie Mae and HUD.

     OIG recommended that Ginnie Mae (1) require Doral to take corrective measures to ensure that the
 defective loans identified during the review are reinsured or removed from the Ginnie Mae pools and that the
 loans reflect complete and accurate mortgage information and (2) ensure that Doral establishes and
 implements adequate controls and procedures to periodically verify that all of its Ginnie Mae pooled loans are
 insured in accordance with Ginnie Mae requirements. (Audit Report: 2008-AT-1014)




Chapter 1: HUD’s Single-Family Housing Programs                                                                    15
 Investigations
     Some investigations discussed in this report were generated from leads provided by HUD single-family
 housing program staff or conducted jointly with Federal, State, and local law enforcement agencies. The
 results of various significant investigations are described below.

                        Strategic Initiative 1: Contribute to the reduction of fraud
                                    in single-family insurance programs
     Key program               Cases                       $                      Convictions/pleas/           Admin/civil
        results                closed                  recovered                      pretrials                  actions
     Investigations               99                  $37,843,857                        106                          119
                              Page 17          - Loan origination fraud

          Our                 Page 21          - Identity fraud and false Social Security numbers
         focus                Page 22          - Civil and administrative actions
                              Page 24          - Other single-family fraud



          Chart 1.2: Percentage of OIG single-family housing closed investigation cases
                                   during this reporting period

                                                                                                    Region 1
                                                                                                      2%
                                         Region 7-8                      Region 5
                                            5%                                           Region 2
                                                                          17%
                                                                                          13%



                                                                                                           Region 3
                                                                                                            26%

         Region 9-10
            14%


                                                                                               Region 4
                                                                                                 9%
                                           Region 6
                                            14%


                                                                                 Region 11
                                                                         (Disaster Relief Oversight)
                                                                                  %(N/A)*

 * This does not include hurricane relief cases. See chapter 5 for these cases.




16                                                                           Chapter 1: HUD’s Single-Family Housing Programs
 Loan Origination Fraud
      Clifford Shaw, the owner of Shaw Properties, was sentenced in U.S. District Court, Jacksonville, FL, to 3
 years incarceration (time served), 10 months home detention, and 3 years supervised release and ordered to pay
 restitution not yet determined and a $30,000 fine for his earlier guilty plea to making false statements to HUD
 and conspiracy to commit bank and wire fraud. Shaw purchased, rehabilitated, and resold HUD real
 estate-owned properties and provided fraudulent loan documents used by unqualified borrowers to obtain
 FHA-insured mortgages. HUD realized losses in excess of $2.9 million after 87 mortgages defaulted.



      Gerald Carti, a former loan officer and an owner of US Mortgage Corporation; Amer Mir, a loan officer for
 United Home Mortgage Company; Frederick Ugwu, a controller for 253 East 33rd Street, LLC; and Renford
 Davis, a property manager for Renhops Management, LLC, were each arrested after their indictments in U.S.
 District Court, Newark, NJ, for allegedly committing wire fraud, money laundering, and conspiracy to
 commit wire fraud and money laundering. In addition, Maurice Bethea, the owner of Blu Financial Group,
 Inc., Urban Upliftment, Born Asiatic, and Greenfield Assets Holdings, and real estate brokers Norma, Maristane,
 and Mara Silva each pled guilty to committing mail fraud or conspiracy to commit mail fraud. The above
 defendants and others allegedly inflated home values through bogus appraisals, fabricated borrower deposit
 amounts, and caused the falsification of loan documents used by unqualified
 borrowers to obtain FHA-insured and conventional mortgages. HUD
 realized losses of about $2.3 million after 30 mortgages defaulted.



      James Boyle, a former loan officer for RBC Mortgage; Marie Caltagerone,
 owner of Caltagerone Accounting; and Ray Talan, a former realtor for Remax
 Realty, were collectively sentenced in U.S. District Court, Rockford, IL, to
 15 months incarceration, 8 months home confinement, and 11 years
 probation and ordered to pay HUD $145,289 and other lenders $84,905 in
 restitution for their earlier guilty pleas to committing conspiracy or mail fraud.
 Boyle, Caltagerone, Talan, and others created and provided fraudulent loan
 documents used by unqualified borrowers to obtain FHA-insured mortgages.
 HUD realized losses in excess of $2 million after more than 50 mortgages
 defaulted.



     Trudy Peters, a former escrow officer for Ticor Title Company; John Soto
 and Larry Smith, former service representatives for Wells Fargo Home
 Mortgage; Maria Felix, a Sahara Investments employee; and Tony Vasquez, a
 HUD-certified housing counselor for Chicanos Por La Causa, were
 collectively sentenced in U.S. District Court, Phoenix, AZ, to 120 days home
 confinement and 15 years probation and fined $17,500 for their earlier guilty
                                                                                      Copyright, 2008. Rockford Register
                                                                                          Star - Rockford, IL. Reprinted
                                                                                                        with permission.



Chapter 1: HUD’s Single-Family Housing Programs                                                                        17
 pleas to submitting false statements to HUD. The above defendants and previously convicted Edward Carrillo,
 the owner of Sahara Investments, submitted fraudulent appraisals and housing counseling certifications and
 concealed mortgage loans encumbering properties sold through the HUD preforeclosure program. In
 addition, Wells Fargo Bank and Ticor Title Agency of Arizona each entered into civil settlements and agreed to
 collectively pay HUD and the U.S. Department of Justice more than $4.3 million. HUD realized losses in
 excess of $2.1 million after 70 fraudulent claims for FHA-insurance benefits were submitted and paid.



      LaDonna Mullins, the owner of LaDonna's Realty, and Linda Edwards, a
 real estate agent for Affable Realty, were each convicted in U.S. District Court,
 Denver, CO, of making false statements, providing false Social Security
 numbers (SSN), or committing wire fraud. In addition, Emmitt Cotton, a
 former loan officer for Mid-America Mortgage, Fast Trac Mortgage, and
 Mortgage Executives, was ordered to pay a $1,000 fine for his earlier guilty plea
 to making false statements to HUD and aiding and abetting. Mullins, Edwards,
 Cotton, and others submitted or caused the submission of fraudulent loan
 documents used by unqualified borrowers to obtain FHA-insured mortgages.
 HUD realized losses of about $1.25 million after 25 mortgages defaulted.



     Tracey Rangell, an assistant escrow officer for Benefit Escrow, was sentenced
 in U.S. District Court, Los Angeles, CA, to 6 months home detention and 36
 months probation and ordered to pay HUD $972,162 in restitution for her
 earlier guilty plea to making false statements and conspiracy. Rangell and others
 provided fraudulent information and falcified downpayment funds used by
 unqualified borrowers to obtain FHA-insured mortgages. HUD realized losses
 in excess of $972,162 after 21 mortgages defaulted.



      Wendy Barker, a Dallas County Community College computer instructor;
 Gloria Matlock and Latona Bates, former loan officers for Supreme Lending;
 and Marlena Plesa-Pfeffer, a former real estate agent for Compass Real Estate,
 were collectively sentenced in U.S. District Court, Dallas, TX, to 86 months
 incarceration and 9 years supervised release and ordered to pay HUD more than
 $1.3 million in restitution for their earlier guilty pleas to conspiracy to make    Copyright, 2008. The Denver
 false statements to a Federal agency. From March 2002 through September             Post - Denver, CO. Reprinted
 2007, the above defendants and others electronically altered or created                          with permission.
 fraudulent income, employment, and other loan documents used by
 unqualified borrowers to obtain FHA-insured mortgages. HUD
 realized losses of $666,085 after 17 mortgages defaulted.




18                                                               Chapter 1: HUD’s Single-Family Housing Programs
     Arvin Weiss, a real estate broker and president of Reserve Capital Funds
 (Reserve), was convicted in U.S. District Court, Denver, CO, of committing
 mail and wire fraud and witness tampering. In addition, Jesus Guevara, a real
 estate sales assistant for Reserve, pled guilty to committing mail and wire
 fraud and tampering with a witness. From June 1998 to February 2002,
 Weiss, Guevara, and others submitted fraudulent loan documents and
 provided downpayment funds used by unqualified borrowers to obtain
 FHA-insured mortgages. HUD realized losses of about $852,000 after 18
 mortgages defaulted.



     David Paul, the president of DCP Investments Properties, LLC, and Diane
 Flannery, a former loan officer for Source Mortgage Company, each pled
 guilty in U.S. District Court, Reading, PA, to committing mail fraud and
 aiding and abetting. Paul provided fraudulent loan documents and
 downpayment funds used by unqualified borrowers to obtain FHA-insured
 mortgages, and Flannery originated FHA-insured mortgages for the
 unqualified borrowers knowing that Paul had provided the fraudulent loan
 documents and downpayment assistance. HUD realized losses of about
 $280,000 after six mortgages defaulted.                                           Copyright, 2008. The Denver
                                                                                   Post - Denver, CO. Reprinted
                                                                                                with permission.

     Alberto Hernandez, the president of ASH Homes Investment Corporation, and his silent partner, John
 Fraga, were each indicted in U.S. District Court, Miami, FL, for allegedly making false statements and
 committing conspiracy and wire and mail fraud. Hernandez allegedly sold his properties and provided
 downpayment assistance or gift funds used by unqualified borrowers to obtain FHA-insured mortgages. Fraga
 and others allegedly converted the downpayment or gift funds provided by Hernandez into the financial
 instruments used by the unqualified borrowers. In addition, Fraga allegedly obtained an FHA-insured
 mortgage on a property that he purchased from Hernandez as an investment. HUD realized losses of $232,060
 after four mortgages defaulted.



     FHA-insured mortgagor Heather Etuk pled guilty in Colorado District Court, Denver, CO, to
 committing forgery, and ABK Mortgage loan processor Jennifer Wolsey was sentenced to 8 years probation
 and ordered to perform 200 hours of community service for her earlier guilty plea to committing computer
 crimes involving mortgage fraud. In addition, Uto Essien, owner of Essien & Co. Realty, Ltd.; Scott Hinkley,
 a loan officer for ABK Mortgage; Etuk; Wolsey; and previously indicted FHA-insured mortgagor Idara Ekiko
 were each suspended from procurement and nonprocurement transactions with HUD and throughout the
 Executive Branch of the Federal Government pending the outcome of criminal proceedings or any related
 debarment actions. Essien, Hinkley, and Ekiko allegedly and Etuk and Wolsey admittedly provided fraudulent
 loan applications for themselves or other unqualified borrowers to obtain conventional and FHA-insured
 mortgages. HUD realized losses of $153,814 after three FHA-insured mortgages defaulted.




Chapter 1: HUD’s Single-Family Housing Programs                                                                19
     Rene Ibarra, a real estate agent for Coldwell Banker, was sentenced in U.S. District Court, Los Angeles,
 CA, to 8 months home detention and 2 years probation and ordered to pay victims not yet identified $175,287
 in restitution for his earlier guilty plea to making false statements and committing conspiracy. Ibarra and
 others provided fraudulent loan documents used by unqualified borrowers to obtain FHA-insured mortgages.
 HUD realized losses of $128,496 after three mortgages defaulted.



     Wander Colon was sentenced in U.S. District Court, Memphis, TN, to 1 year probation for his earlier
 guilty plea to making a false statement. Colon submitted fraudulent income and employment information to
 obtain an FHA-insured mortgage. HUD realized a loss of $100,000 after his mortgage defaulted.



      Felix Guzman, Sr., and Felix Guzman, Jr., former real estate agents for AVI Realty; Walter Guzman and
 Rodney Rhode, former loan officers for Dynasty Mortgage; Mary Vasquez, an escrow officer for Camelback
 Title; Andrew Benjamin and Christopher Pirwitz, the owner of and a loan officer for Family Home Lending;
 Carl Olson, the owner of Management Concepts; and home buyers Ana Valdez and Maria Guzman were each
 indicted in U.S. District Court, Phoenix, AZ, for allegedly committing wire fraud, conspiracy, money
 laundering, and aiding and abetting. The above defendants and others allegedly conspired and arranged 23
 property sales at inflated values, obtained more than $2 million in kickbacks without lender knowledge,
 falsified HUD settlement statements, and violated RESPA.




                                     Copyright, 2008. The Arizona Republic - Phoenix, AZ. Reprinted with permission.




     Dan Cimino, Ursula Gallucci, and Lisa Planche, current or former notary publics, were each charged in
 Adams County District Court, Brighton, CO, with official misconduct by a notary public or false reporting to
 authorities. Cimino and Gallucci allegedly notarized FHA-insured loan documents without witnessing the
 borrower's signatures, and Planche allegedly provided authorities false information relating to documents she
 notarized. HUD realized a loss of $81,626 after one mortgage defaulted.




20                                                               Chapter 1: HUD’s Single-Family Housing Programs
    Willie Brown was sentenced in U.S. District Court, Norfolk, VA, to 4 months home detention and 3 years
 probation and ordered to pay HUD $69,048 in restitution for his earlier guilty plea to committing mail fraud.
 Brown provided fraudulent information and loan documents used by an unqualified borrower to obtain an
 FHA-insured mortgage. HUD realized a loss of about $80,000 after the mortgage defaulted.



     FHA-insured mortgagor Leonel Miramontes Armendariz was sentenced in Adams County District Court,
 Brighton, CO, to 24 months probation for his earlier guilty plea to offering a false instrument for recording.
 Armendariz provided fraudulent loan documents to obtain and later defaulted on an FHA-insured mortgage.
 HUD realized a loss of $59,736 after his mortgage defaulted.



     Wayne Puff, the former owner of the now-defunct N.J. Affordable Homes (Affordable Homes), was
 arrested and charged in U.S. District Court, Newark, NJ, with an alleged conspiracy to commit mail fraud. In
 addition, Sydney Raposo, a former paralegal involved with real estate closings, pled guilty to making false
 statements to HUD. Puff and others allegedly and Raposo admittedly provided false information to lure
 investors or submitted fraudulent appraisals and other loan documents used by unqualified borrowers to
 obtain FHA-insured and conventional mortgages. HUD losses are not yet determined.

 Identity Fraud and False Social Security Numbers
     Sonia, Doris, and Sylvia Toledo, former loan officers for Building and Loan Mortgage Company, were
 collectively sentenced in Johnson County District Court, Olathe, KS, to 24 months incarceration (16 months
 suspended) and 60 months probation, fined $75,000, and ordered to surrender their mortgage broker or real
 estate licenses for their earlier guilty pleas to committing computer crimes or making false writings. From
 2002 to 2005, the Toledos and others assisted undocumented immigrants who used false SSNs to obtain
 approximately $5 million in FHA-insured mortgages. HUD realized losses of $680,581 after 13 mortgages
 defaulted.



     Asifali Mahomed, a real estate broker formerly doing business as Luxor Real Estate Investment, was charged
 in U.S. District Court, Fort Worth, TX, with an alleged conspiracy to make false entries to HUD. Mahomed
 allegedly provided fraudulent SSNs, inflated financial information, and provided downpayment funds used by
 unqualified borrowers to obtain FHA-insured mortgages. HUD realized losses of $412,083 after 12
 mortgages defaulted.



    Straw buyers John Prados and Caridad Paz each pled guilty in U.S. District Court, Newark, NJ, to
 conspiracy to defraud HUD and using a false SSN to obtain an FHA-insured loan. Prados, Paz, and others
 used or supplied fraudulent employment, identity, and other loan documents for themselves or other
 unqualified borrowers to obtain FHA-insured mortgages. HUD realized losses in excess of $349,000 after 12
 mortgages defaulted.




Chapter 1: HUD’s Single-Family Housing Programs                                                               21
     Seven FHA-insured borrowers were each indicted in Dallas County District Court, Dallas, TX, for
 allegedly securing execution of documents by deception. In addition, Alfredo and Judith De La Garza, Pascual
 Melendez Perez, and Salvador Fuerte were each sentenced to 2 years probation and collectively fined $2,490
 for their earlier guilty pleas to securing execution of documents by deception. The seven defendants allegedly
 and the remaining defendants admittedly used false SSNs and fraudulent loan documents to obtain and later
 defaulted on FHA-insured mortgages. HUD realized losses of $217,281 after eight mortgages defaulted.



      Derrick and Sheila Lewis were each indicted in Suffolk Circuit Court, Suffolk, VA, for allegedly
 committing identity fraud and obtaining money by false pretenses. Derrick and Sheila Lewis allegedly used
 false identifications and financial documents to obtain and later defaulted on an FHA-insured mortgage.
 HUD losses are not yet determined.



     Michael Banks, Jr., also known as Richard Jones, an investor doing business as RJ Construction, was
 indicted in U.S. District Court, Los Angeles, CA, for allegedly committing bank fraud and aiding and
 abetting. Banks allegedly used a false identification when he purchased and fraudulently resold HUD-owned
 properties.

 Civil and Administrative Actions
      National City Mortgage, Inc. (National), a HUD direct endorsement lender, entered into a civil settlement
 filed in U.S. District Court, Detroit, MI, and agreed to pay HUD $4.6 million. From May 2002 through
 April 2004, National violated FHA regulations when it allegedly endorsed and submitted FHA-insured
 mortgages for insurance benefits after the loans became delinquent. HUD realized losses in excess of $2.1
 million after 58 mortgages defaulted.



      Dynamic Financial Consultants, Inc. (Dynamic Financial), located in Newark, NJ, entered into a PFCRA
 settlement and agreed to pay HUD $25,000. Dynamic Financial allegedly certified FHA-insured loan
 packages that contained false documents and submitted false claims for FHA-insurance benefits after the
 borrowers defaulted. HUD realized losses in excess of $1.8 million after 39 mortgages defaulted.



     Andy Pena, an owner of Crossmark Mortgage located in Los Angeles, CA, entered into a PFCRA
 settlement and agreed to pay HUD $32,500. Pena, previously sentenced for his earlier guilty plea to
 committing wire fraud, provided fraudulent loan documents used by unqualified borrowers to obtain
 FHA-insured mortgages. HUD realized losses of $474,264 after 12 mortgages defaulted.



    Delia Cervantes, an unlicensed realtor in Los Angeles, CA, entered into a PFCRA settlement and agreed to
 pay HUD $57,353. Cervantes, previously sentenced for her earlier guilty plea to committing wire fraud,




22                                                              Chapter 1: HUD’s Single-Family Housing Programs
 purchased and provided fraudulent loan documents used by unqualified borrowers to obtain FHA-insured
 mortgages. HUD realized losses of $421,843 after seven mortgages defaulted.



     Denise Baskerville, an administrative assistant for M.T. Real Estate Development, Inc., who previously
 pled guilty to conspiracy to make false statements in U.S. District Court, Newark, NJ, was suspended from
 procurement and nonprocurement transactions with HUD and throughout the Executive Branch of the
 Federal Government pending the outcome of criminal proceedings or any related debarment action. Baskerville
 and others created and provided fraudulent loan documents used by unqualified borrowers to obtain
 FHA-insured mortgages. HUD realized losses of $242,981 after 16 mortgages defaulted.



     Irwin Mortgage, located in Indianapolis, IN, entered into a PFCRA settlement and agreed to pay HUD
 $150,000. Irwin Mortgage allegedly certified six fraudulent FHA-insured loan packages and submitted false
 claims for FHA-insurance benefits after the borrowers defaulted. HUD realized losses of $239,218 after five
 mortgages defaulted.



     Dwayne Jones, a former loan officer for the now-defunct First Funding Mortgage Bankers (First Funding),
 who previously pled guilty to committing conspiracy to defraud HUD in U.S. District Court, West Hempstead,
 NY, was debarred from procurement and nonprocurement transactions with HUD and throughout the
 Executive Branch of the Federal Government for 3 years. Jones submitted false statements to HUD and
 Countrywide Home Loans (Countrywide) when he fraudulently flipped his personal property to a straw
 borrower who obtained an FHA-insured mortgage from First Funding. The flipped property sale provided
 Jones more than $51,000 in sale proceeds as well as a short payoff for his original FHA-insured mortgage, also
 serviced by Countrywide. Countrywide was unaware that the Jones property was flipped for $75,000 more
 than the stated purchase amount and submitted a claim to HUD for more than $85,000.



     Ark Mortgage, Inc. (Ark), located in Newark, NJ, entered into a PFCRA settlement and agreed to pay
 HUD $39,756. Laura Barlow, a former underwriter at Ark Mortgage, who was sentenced and debarred after
 her guilty plea to committing conspiracy to provide false statements, allegedly approved unqualified borrowers
 for FHA-insured mortgages in exchange for compensation. The fraudulent loan packages were submitted for
 FHA-insurance benefits after the borrowers defaulted. HUD realized losses of $76,123 after six mortgages
 defaulted.



     Wells Fargo Bank (Wells Fargo) entered into a PFCRA settlement and agreed to pay HUD $49,000. Wells
 Fargo acquired Crossland Mortgage (Crossland) located in Buffalo, NY, including a legal responsibility for
 Crossland's false certifications. Crossland allegedly certified an FHA-insured loan package that contained false
 documents and submitted a false claim for FHA-insurance benefits after the borrower defaulted.




Chapter 1: HUD’s Single-Family Housing Programs                                                                 23
     Michael Massimini, a real estate broker and president of Mortgage Pros of Tampa and First Home Realty,
 and James Cosentino, an appraiser and owner of Equitable Appraisal, Inc., each entered into PFCRA, False
 Claims, and Contract Dispute Act civil settlements filed in U.S. District Court, Tampa, FL. Massimini agreed
 to pay HUD $1,500 in damages, and Massimini and Cosentino each agreed to collectively pay the U.S.
 Department of Justice $14,500 in civil penalties. Massimini allegedly brokered two owner-occupant mortgage
 loans on a HUD-owned property through Mortgage Pros of Tampa for Cosentino, knowing that Cosentino
 did not occupy the property as required.



     Kenneth Germain, the chief executive officer for EQ Investments, was indicted in Denver County District
 Court, Denver, CO, for allegedly committing theft, securities fraud, and Colorado Organized Crime Control
 Act violations and was suspended from procurement and nonprocurement transactions with HUD and
 throughout the Executive Branch of the Federal Government pending the outcome of criminal proceedings or
 any related debarment actions. Germain allegedly obtained about 60 HUD-owned properties and resold the
 properties to investors but failed to manage the properties or pay mortgage loans as promised. HUD realized
 no losses.

 Other Single-Family Fraud
     Aubrey Terbrack, the owner of Marathon Mortgage (Marathon), and Denise Money, a manager for
 Marathon, each pled guilty in U.S. District Court, Detroit, MI, to committing wire fraud. From July 1998 to
 October 2007, Terbrack and Money failed to report 2,041 terminated or satisfied loans to Ginnie Mae and
 then fraudulently used the funds obtained from the terminated or satisfied mortgages for personal stock
 investments or to continue payments on the loans. Ginnie Mae realized losses of about $20 million.



     Jamen Wood, a registered agent for BK Properties, LLC, pled guilty in U.S. District Court, Salt Lake City,
 UT, to committing equity skimming and mail fraud. From July 2002 through December 2004, Wood and
 others identified properties surrendered to bankruptcy courts in Utah, Colorado, Idaho, Arizona, Wyoming,
 Minnesota, North Carolina, and Washington; posed as bankruptcy court or financial institution
 representatives and secured quit claim deeds from the property owners; and rented the properties and collected
 rents but failed to remit mortgage loan payments and used the rents collected for personal expenses. HUD
 realized losses in excess of $1.5 million after 52 FHA-insured properties defaulted.



     Debra Molina, a San Bernardino County probation officer and HUD Good Neighbor Next Door (Good
 Neighbor) program participant, reimbursed HUD $67,500, pled guilty in U.S. District Court, Riverside, CA,
 to making false statements, and was sentenced to 6 months home detention. Molina obtained a HUD-owned
 property and received a $67,500 discount but failed to reside in her Good Neighbor property or report her
 nonresidency on HUD certifications.




24                                                              Chapter 1: HUD’s Single-Family Housing Programs
     Jason Lindsey, a former University of Kansas police officer and HUD Good Neighbor program
 participant, was charged in U.S. District Court, Kansas City, MO, with allegedly making false statements.
 Lindsey obtained a HUD-owned property and received a $45,000 discount but allegedly failed to reside in the
 Good Neighbor property or report his nonresidency on HUD certifications.



     Shannon Thelen, a teacher and HUD Good Neighbor program participant, was sentenced in U.S. District
 Court, Grand Rapids, MI, to 1 year probation and ordered to pay HUD $31,250 for her earlier pretrial
 diversion agreement. Thelen obtained a HUD-owned property and received a $31,250 discount but failed to
 reside in the Good Neighbor property or report her nonresidency on HUD certifications.



     Eulalio Tordil, a U.S. Department of Homeland Security Federal Protective Service inspector and HUD
 Good Neighbor program participant in Hyattsville, MD, entered into a civil settlement and agreed to pay
 HUD $15,900. Tordil obtained a HUD-owned property and received a $26,500 discount but failed to reside
 in the Good Neighbor property or report his nonresidency on HUD certifications.



     Arthur Canada, a teacher and HUD Officer/Teacher Next Door program participant, was charged in
 Oakland County Circuit Court, Detroit, MI, with allegedly committing false pretenses. Canada allegedly
 obtained HUD-owned property and received a $12,150 discount but failed to reside in the property or report
 his nonresidency on HUD certifications.



    Robert Brunt and Tracy Skullark, investors doing business as Genesis Investment Group, Inc.; Armani
 D'Aifallah, a loan officer for Evergreeen Mortgage; John Farano, an attorney doing business as Big Dog
 Holdings; and appraisers Walter Jackson and Douglas Blanchard were each indicted in U.S. District Court,
 Chicago, IL, for allegedly committing mail and wire fraud. The above defendants allegedly recruited
 unqualified investors to purchase HUD-owned and other distressed properties and provided false loan
 documents and appraisals to complete the fraudulent real estate sales. HUD realized no losses.



     Erica Davis-Wells was sentenced in U.S. District Court, Chicago, IL, to 9 months incarceration and 1 year
 probation and ordered to pay three conventional lenders $440,517 in restitution for her earlier guilty plea to
 making false statements to HUD. Davis-Wells obtained a HUD-owned property but failed to reside in the
 property as required and resold the property to unqualified straw borrowers who obtained and later defaulted
 on conventional mortgages. HUD realized no losses.



     Attorney Alan Mason was sentenced in U.S. District Court, Worcester, MA, to 9 years incarceration and 3
 years probation and ordered to pay Stewart Title Guaranty Company more than $6.6 million in restitution for




Chapter 1: HUD’s Single-Family Housing Programs                                                               25
 his earlier guilty plea to committing wire fraud and Federal income tax evasion.
 Mason failed to pay mortgage liens, including outstanding mortgages on three FHA-
 insured properties, and used the funds for personal expenditures. HUD realized no
 losses.



     Lorraine Miller, a former mortgage broker for America's Mortgage Resource,
 pled guilty in U.S. District Court, New Orleans, LA, to submitting false
 documents. Miller provided false employment and financial documents used by
 unqualified borrowers to obtain conventional and FHA-insured mortgages. The
 fraudulent mortgages were later packaged and sold to Fannie Mae. HUD realized
 no losses.



     Fabian and Anna Thorne, former loan officers for Prestige Mortgage, were
 collectively sentenced in U.S. District Court, Richmond, VA, to 42 months
 incarceration and 72 months supervised release and ordered to pay three FHA-
 insured homeowners and others $592,228 in restitution for their earlier guilty pleas
 to conspiracy to commit wire fraud. From June 2005 through July 2006, Fabian
 and Anna Thorne and others fraudulently acquired distressed properties after they
 provided false representations to both homeowners and conventional mortgage
 lenders. HUD realized no losses.



     Kweku Fortune, who failed to appear in Kings County State Court, Brooklyn,
 NY, for either his trial verdict, convicting him of committing grand larceny, or his
 sentencing, was arrested on an outstanding warrant. Fortune impersonated a             Copyright, 2008. Worcester
 HUD-approved real estate broker, attempted to sell HUD-owned and other                    Telegram and Gazette -
 properties, and fraudulently retained $55,000 in downpayment funds                      Worcester, MA. Reprinted
 from prospective buyers.                                                                         with permission.




26                                                              Chapter 1: HUD’s Single-Family Housing Programs
                    Chapter 2
                HUD’s Public and
                 Indian Housing
                    Programs




Acronyms List
     The U.S. Department of Housing and Urban Development (HUD) provides grants and subsidies to
 3,496 public housing agencies (PHA) nationwide. Many PHAs administer both public housing and Section 8
 programs. Programs administered by PHAs are designed to enable low-income families, the elderly, and
 persons with disabilities to obtain and reside in housing that is safe, decent, sanitary, and in good repair. In
 addition to the audits and investigations described in this chapter, the Office of Inspector General (OIG), has
 conducted numerous outreach efforts (see chapter 7, page 125).


 Audits
                      Strategic Initiative 2: Contribute to the reduction of erroneous
                                         payments in rental assistance
      Key program results                    Questioned costs                           Funds put to better use
     Audit         38 audits                    $73 million                                    $40 million
                    Page 29           - Housing stock in the Housing Choice Voucher program
                    Page 29           - HUD's Enterprise Income Verification system
      Our           Page 30           - Section 8 Housing Choice Voucher and Leased Housing Program
     focus                              activities at public housing agencies
                    Page 39           - Public housing program activities
                    Page 44           - Native American program activities

               Chart 2.1: Percentage of OIG public and Indian housing audit reports
                                    during this reporting period
                                                                                                      Region 1
                                                                                                        5%
                                           Region 7-8                   Region 5         Region 2
                                              5%                         24%               5%




                                                                                                       Region 3
        Region 9-10                                                                                     19%
           21%



                                                                                           Region 4
                                           Region 6                                         16%
                                             5%


                                                                                Region 11
                                                                        (Disaster Relief Oversight)
                                                                                 %(N/A)*
 * This does not include hurricane relief audits. See chapter 5 for these reviews.


28                                                                     Chapter 2: HUD’s Public and Indian Housing Programs
     During this reporting period, the Office of Inspector General (OIG) reviewed HUD's controls over the
 physical condition of housing stock in the Housing Choice Voucher program and HUD's Enterprise Income
 Verification (EIV) system. In addition, OIG reviewed Section 8 Housing Choice Voucher and leased housing
 program activities, public housing activities, and Native American program activities.

 Housing Stock in the Housing Choice Voucher Program
     HUD OIG audited HUD's controls over the physical condition of housing stock in the Housing Choice
 Voucher program and found that HUD did not have adequate controls to ensure that its Section 8 housing
 stock was in material compliance with housing quality standards. It had not fully implemented the Section
 Eight Management Assessment Program (SEMAP) and, therefore, could not ensure that the primary mission
 of the Section 8 program, paying rental subsidies so that eligible families can afford decent, safe, and sanitary
 housing, was met. In addition, HUD's lack of knowledge regarding the condition of its Section 8 housing
 stock resulted in public housing agencies being reported as high performers when a significant percentage of
 the units they administered were in material noncompliance with housing quality standards. HUD was
 revising its Section 8 regulations to include developing a physical inspection system to help ensure that HUD's
 Section 8 housing stock is in material compliance with housing quality standards.

     OIG recommended that HUD (1) complete the departmental clearance process of the proposed revised
 Section 8 regulations by the end of the fiscal year (FY) 2008, (2) allow the proposed revisions to SEMAP and
 housing quality standards to go through the proper process and carefully consider all questions and comments
 made by the affected parties before publishing the final rule, and (3) fully develop and implement a physical
 inspection system for the tenant-based Housing Choice Voucher program within 3 years. (Audit Report:
 2008-AT-0003)

 HUD's Enterprise Income Verification System
     HUD OIG audited HUD's EIV system, used by public housing authorities to identify and reduce tenant
 income and subsidy errors within the Section 8 and public housing programs, to determine whether HUD
 provided adequate guidance and training to its EIV coordinators and housing authority users.

     HUD provided adequate guidance and training to its EIV coordinators and housing authority users.
 However, EIV users did not always take advantage of this training and guidance. Since use of EIV is not yet
 mandatory, HUD did not require housing authorities to ensure that their users received EIV training before
 granting them access to the system. As a result, housing authority users may not fully understand EIV's
 capabilities and their responsibilities when using the system.

     OIG recommended that HUD consider enhancing existing requirements to require housing authorities to
 certify that their EIV users have received EIV training before granting access to the system. The housing
 authorities would keep the certifications on file and have them available for review. (Audit Report:
 2008-KC-0003)




Chapter 2: HUD’s Public and Indian Housing Programs                                                              29
 Section 8 Housing ChoiceVoucher and Leased Housing Program Activities
 at Public Housing Agencies
      Audits of the Section 8 Housing Choice Voucher program were a priority during this semiannual reporting
 period. PHAs were selected for audit based on risk analysis and/or hotline complaints. While OIG's objectives
 varied by auditee, the majority of the reviews were to determine whether the units met housing quality
 standards, whether the PHA managed the program according to HUD requirements, and whether the
 eligibility of the tenants was correctly determined. The following section illustrates the audits conducted in
 the Section 8 Housing Choice Voucher program area.



     HUD OIG audited the financial transactions of the Section 8 Housing Choice Voucher program at the
 Housing Authority of the City of Los Angeles, CA. During the audit, OIG expanded the scope to include a
 review of the Authority's other HUD programs to determine the extent of its inappropriate interprogram fund
 transfers.

     The Authority could not show that it used program funds in accordance with its consolidated annual
 contributions contracts, executed grant agreements, or HUD rules and regulations. Without the required
 HUD approval, the Authority's accounting records showed that it improperly advanced and expended more
 than $27 million in restricted funds to cover its operating losses for its other programs.

     OIG recommended that HUD require the Authority to reimburse the restricted funds to the proper
 programs and establish and implement adequate procedures and accounting controls to ensure that no
 interprogram advances of restricted funds are made in the future. (Audit Report: 2008-LA-1015)



     HUD OIG audited the Housing Choice Voucher program of the Dallas Housing Authority in Dallas, TX.

      The Authority acknowledged its longstanding weaknesses and had made a commitment to improve its
 operations. However, although it had reorganized its leased housing department and made other changes, it
 failed to correct systemic weaknesses and continued to mismanage its voucher program. Further, it spent
 almost $20 million in questionable costs in 2006 and 2007. This amount included payments for clients that
 it did not report to HUD; payments for clients after they left its voucher program; duplicate payments to
 landlords; and payments for clients who, based on their reported Social Security numbers, were deceased. In
 addition, the Authority backdated 22 and 45 percent of the examinations it reported to HUD in 2006 and
 2007, respectively.

     OIG recommended that HUD require the Authority to (1) establish and implement policies and
 procedures to address its systemic weaknesses, an effective quality control process, and an effective
 accountability process and (2) support or repay nearly $20 million. (Audit Report: 2008-FW-1011)



     HUD OIG audited the Section 8 Housing Choice Voucher program at the Indianapolis Housing Agency
 in Indianapolis, IN, and found that the Agency's program administration regarding housing unit conditions,



30                                                          Chapter 2: HUD’s Public and Indian Housing Programs
 housing assistance payment calculations, and documentation to support the calculation of households'
 housing assistance payments was inadequate. Of the 65 housing units inspected, 52 did not meet HUD's
 housing quality standards and the Health and Hospital Corporation of Marion County, IN's housing
 standards, and 38 had 402 violations that existed at the time of the Agency's previous inspections.

      The Agency also failed to properly calculate housing assistance payments, ensure that its household files
 contained required documentation to support its payment of housing assistance, and consistently use HUD's
 EIV system. Of the 67 files reviewed, the Agency incorrectly calculated housing assistance payments for 63,
 and 59 did not contain the documentation required by HUD and/or the Agency's program administrative
 plan. The Agency overpaid more than $131,000 and underpaid more than $13,000 in housing assistance and
 utility allowances and was unable to support more than $587,000 in housing assistance and utility allowance
 payments. Further, it did not adequately use HUD's EIV system to determine that its reported zero-income
 households had reported income, resulting in more than $47,000 in improper housing assistance payments.

     OIG recommended that HUD require the Agency to reimburse its program from nonfederal funds for the
 improper use of more than $291,000 in program funds, provide documentation or reimburse its program
 from nonfederal funds for the unsupported housing assistance payments, and implement adequate procedures
 and controls to address the findings cited to prevent nearly $10 million from being spent on units with
 material housing quality standards violations and excessive housing assistance and utility allowance payments
 over the next year. (Audit Report: 2008-CH-1006)



    HUD OIG audited the Section 8 Housing Choice Voucher program at the Cincinnati Metropolitan Housing
 Authority, Cincinnati, OH, and found that the Authority's program administration regarding housing unit
 conditions was inadequate. Of 65 housing units inspected, 56 did not meet HUD's housing quality standards,
 and 50 had 284 violations that existed at the time of the Authority's previous inspections. The 50 units had
 between 1 and 15 preexisting violations per unit.

     OIG recommended that HUD require the Authority to reimburse its program from nonfederal funds for
 the improper use of more than $35,000 in program funds and implement adequate procedures and controls to
 address the findings cited to prevent more than $5.8 million from being spent on units with material housing
 quality standards violations over the next year. (Audit Report: 2008-CH-1012)



     HUD OIG audited the Housing Authority of the City of Fort Wayne, IN's Section 8 Housing Choice
 Voucher program and found that the Authority's program administration regarding housing assistance
 payment calculations, documentation to support households' eligibility for housing assistance, monitoring of
 reported zero-income households, administration of the Family Self-Sufficiency (FSS) program, and voucher
 use were inadequate. The Authority incorrectly calculated households' payments, resulting in more than
 $73,000 in overpayments and nearly $7,000 in underpayments. It also did not ensure that its households' files
 contained the required documentation to support its housing assistance and utility allowances. Of the 67 files
 reviewed, 30 did not contain documentation required by HUD and the Authority's program administrative
 plan to support nearly $195,000 in housing assistance and utility allowances. Further, the Authority did not
 perform periodic reviews to determine that reported zero-income households had unreported income,
 resulting in more than $28,000 in improper housing assistance and utility allowances.




Chapter 2: HUD’s Public and Indian Housing Programs                                                           31
     The Authority failed to administer its FSS program according to Federal
 requirements. As a result, it over/underfunded participants' escrow accounts by
 more than $8,000 and nearly $4,000, respectively, had nearly $15,000 in escrow
 funds that should have been reimbursed to the program, could not support more
 than $151,000 in program funds, and failed to support nearly $890,000 that it
 determined was to be forfeited from escrow accounts. Although the Authority had
 nearly $6.2 million in program funds, which could be used to house
 additional eligible households, its program was significantly underleased. As a
 result, eligible participants were denied the opportunity to seek decent, safe, and
 sanitary housing under the program.

     OIG recommended that HUD require the Authority to reimburse the
 applicable program from nonfederal funds for the improper use of more than
 $135,000 in funds, provide documentation or reimburse the applicable program
 nearly $1.3 million from nonfederal funds for the unsupported payments
 identified, and implement adequate procedures and controls to address the
 findings cited to prevent more than $1 million in program funds from being spent
 on excessive housing assistance and utility allowances and more than $3 million not
 being used to provide decent, safe, and sanitary housing to eligible households.
 (Audit Report: 2008-CH-1007)



     HUD OIG audited the Richmond Redevelopment and Housing Authority in                       Copyright, 2008.
 Richmond, VA, and found that the Authority's Housing Choice Voucher program               The Journal Gazette -
 was significantly underleased, resulting in approximately 674 families not being               Fort Wayne, IN.
 housed when the Authority had $7.6 million in excess program funds. The Reprinted with permission.
 Authority also failed to operate its FSS program according to the United States
 Code, HUD requirements, and its FSS action plan. As a result, it inappropriately paid more than $84,000 to
 program participants when it could not be determined that the participants had successfully met the applicable
 requirements.

    OIG recommended that HUD require the Authority to implement adequate controls and procedures to
 house as many eligible participants as possible, thereby using approximately $3.4 million more in program
 funds to house families. OIG also recommended that the Authority provide support or reimburse its program
 more than $346,000 from nonfederal funds for the unsupported housing assistance payments, reimburse its
 FSS program from nonfederal funds for its improper use of contract and program funds, and implement
 adequate procedures and controls to address the findings cited. (Audit Report: 2008-PH-1006)



     HUD OIG audited the Housing Authority of Baltimore City, Baltimore, MD, regarding the
 administration of its leased housing under its Moving to Work Demonstration program to determine whether
 the Authority ensured that its program units met housing quality standards.

     The Authority failed to ensure that its program units met housing quality standards. Of 59 housing units
 inspected, 57 did not meet HUD's housing quality standards. Moreover, 41 of the units had health and safety




32                                                          Chapter 2: HUD’s Public and Indian Housing Programs
 violations that the Authority's inspectors neglected to report during their last inspection and/or repair based on
 the outcome of their most recent inspection. The Authority spent nearly $48,000 in program and
 administrative funds for these 41 units.

     OIG recommended that HUD require the Authority to (1) ensure that housing units inspected during the
 audit are repaired to meet HUD's housing quality standards, (2) reimburse its program for the improper use of
 program funds for units that materially failed to meet HUD's housing quality standards, and (3) implement
 adequate procedures and controls to ensure that in the future, program units meet housing quality standards to
 prevent an estimated $3.5 million from being spent annually on units that materially fail to meet HUD's
 housing quality standards. (Audit Report: 2008-PH-1013)



     HUD OIG audited the State of Connecticut Department of Social Services (agency), Hartford, CT, and
 found that the agency did not adequately use its Section 8 vouchers. As a result, (1) approximately 770
 households in calendar year 2007 were not served, (2) the agency did not ensure that its contractor had
 adequate controls over fraud recoveries and related interest income, and (3) the agency could not support the
 allocation of more than $1.6 million in salary and benefits to the program and charged more than $14,000 to
 the program for costs related to the State-funded housing program.

     OIG recommended that HUD require the agency to (1) implement adequate procedures and controls to
 ensure that it is adequately leased up to at least the 95 percent threshold required by HUD and provide
 additional housing assistance to eligible households; (2) recover more than $1 million from the contractor and
 account for, report, and use the funds in accordance with HUD requirements; and (3) provide support to show
 that more than $1.6 million in direct and indirect salaries was properly chargeable to the program or repay any
 ineligible costs. (Audit Report: 2008-BO-1008)



      HUD OIG audited the Housing Choice Voucher program of the Housing Authority of the City of
 Allentown, Allentown, PA, and found that the Authority did not adequately administer its inspection program
 to ensure that its program units met housing quality standards as required. Of 57 housing units inspected, 51
 did not meet HUD's housing quality standards, and 47 of the units had exigent health and safety violations
 that the Authority's inspectors neglected to report during their last inspection. The Authority spent more than
 $80,000 in program and administrative funds for these 47 units. It also did not properly abate rents when
 units failed its housing quality standards inspections. The Authority should have abated housing assistance
 payments for 13 of 30 program units that did not pass its housing quality standards inspections. However, it
 failed to abate the program rents or terminate the contracts for these units, resulting in improper payments of
 nearly $9,000 in housing assistance.

     OIG recommended that HUD require the Authority to (1) ensure that housing units inspected during the
 audit are repaired to meet HUD's housing quality standards; (2) reimburse its program for the improper use of
 program funds for units that materially failed to meet HUD's housing quality standards; (3) implement
 adequate procedures and controls to ensure that in the future, program units meet housing quality standards to
 prevent an estimated $1.2 million from being spent annually on units that materially fail to meet HUD's
 housing quality standards; (4) reimburse its program for the 13 units for which it did not abate assistance
 payments; and (5) develop and implement management controls to ensure that employees comply with HUD




Chapter 2: HUD’s Public and Indian Housing Programs                                                               33
 policies and procedures concerning abatements, thereby preventing an estimated $34,000 from being spent
 annually on units that should have had assistance payments abated. (Audit Report: 2008-PH-1009)



      HUD OIG audited the Section 8 Housing Choice Voucher program at the Delaware County Housing
 Authority in Woodlyn, PA, and found that the Authority did not adequately administer its housing assistance
 payments in compliance with HUD requirements and its own administrative plan. It incorrectly calculated
 housing assistance and utility allowance payments and failed to execute housing assistance contracts in a timely
 manner, resulting in nearly $59,000 in ineligible payments and more than $3,000 in tenant underpayments.
 It also could not support nearly $27,000 in housing assistance and utility allowance payments.

      OIG recommended that HUD require the Authority to reimburse the program from nonfederal funds for
 ineligible payments, reimburse the appropriate tenants or households for the underpayment of housing
 assistance and utility allowances, provide documentation or reimburse the program from nonfederal funds for
 unsupported payments, and implement sufficient controls or procedures to prevent ineligible payments of
 more than $926,000 in program funds over the next year. (Audit Report: 2008-PH-1012)



     HUD OIG audited the administration of the housing quality standards inspection program for the
 Section 8 Housing Choice Voucher program at the Harrisburg Housing Authority in Harrisburg, PA, and
 found that the Authority did not adequately administer its inspection program to ensure that its program units
 met housing quality standards as required. Of the 52 housing units inspected, 37 did not meet HUD's
 housing quality standards, and 35 of the units had exigent health and safety violations that the Authority's
 inspectors neglected to report during their last inspection. The Authority spent more than $34,000 in
 program and administrative funds for these 35 units. In addition, it did not abate rents for units that failed its
 housing quality standards inspections. For 11 units reviewed, the Authority failed to abate the program rents
 or terminate the contracts, resulting in an improper payment of nearly $11,000 in housing assistance and
 administrative fees.

     OIG recommended that HUD require the Authority to (1) ensure that housing units inspected during the
 audit are repaired to meet HUD's housing quality standards; (2) reimburse its program from nonfederal funds
 for the improper use of program funds for units that materially failed to meet HUD's housing quality
 standards; (3) implement adequate procedures and controls to ensure that in the future, program units
 meet housing quality standards to prevent nearly $885,000 from being spent annually for units with material
 housing quality standards violations; (4) reimburse its program from nonfederal funds for the 11 units for
 which it did not abate payment or terminate the assistance contract in a timely manner; and (5) develop and




                           Copyright, 2008. The Patriot-News - Harrisburg, PA. Reprinted with permission.



34                                                            Chapter 2: HUD’s Public and Indian Housing Programs
 implement management controls to ensure that employees comply with its policies and procedures concerning
 abatements. (Audit Report: 2008-PH-1007)



    HUD OIG audited the Housing Choice Voucher program of the City of Phoenix, AZ, Housing
 Department and found that the Housing Department did not ensure that tenant eligibility and associated
 housing assistance payment amounts were properly supported. As a result, it paid unsupported and ineligible
 housing assistance.

      OIG recommended that HUD require the Housing Department to (1) support or reimburse more than
 $371,000 in unsupported housing assistance payments, (2) reimburse nearly $13,000 in ineligible housing
 assistance payments, (3) establish and implement an adequate training program to ensure that its staff has the
 capability to perform tenant eligibility and housing assistance payment determinations in accordance with
 HUD requirements, and (4) take appropriate action to ensure that a sufficient number of staff are available to
 administer its Housing Choice Voucher program. (Audit Report: 2008-LA-1011)



      HUD OIG audited the Housing Choice Voucher and public housing programs at the Woonsocket
 Housing Authority in Woonsocket, RI and found that the Authority generally administered its programs in
 compliance with its annual contributions contract and HUD regulations. In addition, HUD's Regional Counsel
 rendered an opinion that the Authority's board members did not violate conflict-of-interest provisions of
 section 19(A) of the contract. However, OIG identified several deficiencies, including more than $663,000 in
 unsupported costs and more than $241,000 in opportunities for funds to be put to better use because the
 Authority (1) improperly used Federal funds to subsidize the development activities of an affiliated nonprofit
 entity, (2) did not establish an adequate cost allocation plan for administrative and indirect costs and
 improperly advanced and used funds between its public housing and Housing Choice Voucher programs, (3)
 did not always comply with HUD procurement regulations and its own procurement policy, (4) did not
 establish a reasonable policy for travel per diem rates charged to Federal programs and ensure that board
 members always submitted travel expense vouchers, and (5) did not always follow its HUD-approved waiting
 list procedures.

     OIG recommended that HUD require the Authority to (1) cease the practice of improperly using Federal
 funds to pay nonprogram costs and repay nearly $3,000 in unreimbursed funds, (2) provide support for $587,000
 in salary expenses and nearly $68,000 in indirect costs charged to the Housing Choice Voucher program or
 reimburse these costs and cease the practice of advancing and using funds between its Federal programs, (3)
 comply with HUD procurement regulations and its own procurement policy, (4) establish a reasonable policy
 for travel per diem rates charged to Federal programs and ensure that board members always submit travel
 expense vouchers, and (5) obtain HUD approval on all actions that are contrary to its waiting list procedures.

     OIG also recommended that Authority establish controls to ensure that all interprogram transactions are
 recorded and reconciled monthly, thereby eliminating the average daily balance of more than $241,000 that
 was owed between Federal programs. Further, OIG recommended that HUD consider sanctions as
 appropriate against the responsible parties for the improper use of Federal funds used to pay nonprogram costs
 of an affiliated nonprofit entity. (Audit Report: 2008-BO-1006)




Chapter 2: HUD’s Public and Indian Housing Programs                                                           35
     HUD OIG audited the Housing Choice Voucher program of Union County, NJ, and found that of 58
 Section 8 units inspected, 42 (72 percent) did not meet minimum housing quality standards. Of the 42 units,
 21 were in material noncompliance with standards. As a result, HUD made housing assistance payments for
 units that did not meet housing quality standards. In addition, the County's financial and program controls
 were inadequate. As a result, more than $83,000 in transfers of funds and salary costs charged are questioned
 pending an eligibility determination by HUD, while another nearly $22,000 in transfers and salary costs is
 ineligible.

     OIG recommended that HUD instruct the County to develop and implement procedures (1) to ensure
 that units meet housing quality standards to prevent an estimated $762,000 from being spent on units that are
 in material noncompliance, (2) for allocating and charging costs to the Housing Choice Voucher program to
 include developing a cost allocation plan for salaries, and (3) to ensure that transfers from the Housing Choice
 Voucher program to other programs are in accordance with regulations. (Audit Report: 2008-NY-1009)



      HUD OIG audited the controls of the District of Columbia Housing Authority in Washington, DC, over
 its leased housing under its Moving to Work Demonstration program to determine whether the Authority
 implemented adequate controls to prevent overhousing, ensured that it made assistance payments only for the
 period when families resided in units, and effectively implemented an FSS program.

      The Authority had not implemented adequate controls to prevent overhousing and prevent it from
 making assistance payments for vacant units and had not effectively implemented an FSS program. It paid for
 194 families to live in larger housing units than its policy allowed. As a result, it made ineligible housing
 assistance payments totaling nearly $43,000 monthly. In addition, it made ineligible housing assistance
 payments totaling more than $322,000 for vacant units. During the audit, the Authority recovered nearly
 $279,000 of the more than $322,000 in ineligible payments. It needs to recover the remaining $44,000 in
 housing assistance payments related to these units. Further, the Authority did not operate its FSS program
 according to HUD requirements. As a result, it made ineligible and unsupported payments to participants'
 escrow accounts totaling nearly $45,000 and did not make contributions of nearly $9,000 to the escrow
 account for one participant.

    OIG recommended that HUD require the Authority to (1) reimburse the applicable programs for its
 improper use of more than $80,000 in funds, (2) provide documentation or reimburse the applicable program
 more than $51,000 for the unsupported payments identified, and (3) implement adequate procedures and
 controls to address the findings identified to prevent the Authority from spending more than $426,000 in
 program funds for overhoused tenants. OIG also recommended that HUD verify that the Authority
 contributed nearly $9,000 to the FSS escrow account for one participant. (Audit Report: 2008-PH-1010)



     HUD OIG audited the Housing Choice Voucher program of the Portage Metropolitan Housing
 Authority, Ravenna, OH, and found that the Authority (1) incorrectly calculated households' payments,
 resulting in more than $26,000 in overpayments and nearly $600 in underpayments; (2) did not ensure that its
 households' files contained the required documentation to support more than $48,000 in housing assistance
 and utility allowances; (3) had inadequate income verifications and calculations for households reporting zero
 income, resulting in more than $27,000 in improper housing assistance and utility allowance payments; and
 (4) failed to properly reinspect, abate, and terminate assistance for program units that failed housing quality



36                                                           Chapter 2: HUD’s Public and Indian Housing Programs
 standards inspections, thereby overpaying more than $12,000 in housing assistance and utility allowances and
 allowing tenants to reside in units that were not decent, safe, and sanitary.

     OIG recommended that HUD require the Authority to (1) reimburse its program from nonfederal funds
 for the improper use of more than $90,000 in funds; (2) provide documentation or reimburse its program
 more than $51,000 from nonfederal funds for the unsupported payments identified; and (3) implement
 adequate policies, procedures, and controls to address the findings cited to prevent more than $606,000 in
 program funds from being spent on excessive housing assistance and utility allowance payments. (Audit
 Report: 2008-CH-1011)



      HUD OIG audited the Section 8 Housing Choice Voucher program at the Springfield Housing Authority,
 Springfield, IL, and found that the Authority's program administration regarding housing unit conditions and
 timeliness of annual housing unit inspections was inadequate. Of 55 housing units inspected, 43 did not meet
 HUD's housing quality standards, and 18 had exigent health and safety violations that existed at the time of
 the Authority's previous inspections. In addition, 10 housing units had 55 health and safety violations that
 existed at the time of the Authority's previous inspections. The Authority also failed to ensure that its housing
 unit inspections were conducted in a timely manner. Of 65 household files reviewed, 25 indicated that
 inspections were not conducted within the required 1 year of the previous inspections. The number of days
 late ranged from 16 to 373.

     OIG recommended that HUD require the Authority to reimburse its program from nonfederal funds for
 the improper use of more than $50,000 in program funds and implement adequate procedures and controls to
 address the findings cited. These procedures and controls should help to ensure that nearly $600,000 in
 program funds is spent on housing units that meet HUD's requirements. (Audit Report: 2008-CH-1016)



      HUD OIG audited the Section 8 Housing Choice Voucher program at the Peoria Housing Authority in
 Peoria, IL, and found that the Authority's program administration regarding housing assistance payment
 calculations, the FSS program, and zero-income households was inadequate. The Authority overpaid more
 than $52,000 and underpaid nearly $1,000 in housing assistance and utility allowances due to calculation
 errors. It failed to administer its FSS program according to the United States Code, HUD's requirements, and
 its FSS action plan. As a result, it received more than $72,000 in grant funds but did not ensure that its FSS
 program was managed effectively and efficiently, over/underfunded its participants' escrow accounts by nearly
 $18,000, and inappropriately paid more than $14,000 in final escrow payments. Further, the Authority failed
 to comply with its program administrative plan regarding zero-income household reviews. It did not
 effectively use HUD's EIV system or other third-party verification methods to determine whether households
 reporting zero income had unreported income. As a result, it unnecessarily paid housing assistance totaling
 nearly $75,000 for households that were required to meet their rental obligations.

     OIG recommended that HUD require the Authority to reimburse its program from nonfederal funds for
 the improper use of nearly $185,000 in program funds, provide documentation or reimburse its program more
 than $72,000, and implement adequate procedures and controls to address the findings cited. These
 procedures and controls should help ensure that more than $296,000 in program funds is spent on program
 administration that meets HUD's requirements over the next year. (Audit Report: 2008-CH-1005)




Chapter 2: HUD’s Public and Indian Housing Programs                                                              37
     HUD OIG audited the Housing Choice Voucher program of the Des Moines Municipal Housing Agency
 in Des Moines, IA, and found that the Agency allowed 59 of the 148 households reviewed to have units that
 were larger than permitted by regular subsidy standards. It also improperly processed 16 of the households
 reviewed with indications of unreported income.

     OIG recommended that HUD require the Agency to (1) reimburse its program more than $78,000 from
 administrative fee reserves and pursue collection of nearly $21,000 from tenants with unreported income and
 (2) develop and implement procedures and controls to ensure that each tenant receives the proper voucher size
 and to ensure the proper correction for unreported income. (Audit Report: 2008-KC-1003)



    HUD OIG audited the Chicago Housing Authority, Chicago, IL, regarding its Section 8 Housing Choice
 Voucher program under its Moving to Work Demonstration program.

      The Authority's program administration regarding housing assistance payment calculations,
 documentation to support households' eligibility and calculations for housing assistance, and the recovery of
 overpayments of housing assistance and utility allowances for deceased individuals was inadequate. The
 Authority incorrectly calculated households' payments, resulting in more than $60,000 in overpayments and
 nearly $5,800 in underpayments for the period January 1, 2006, through August 31, 2007. It also did not
 ensure that its households' files contained the required documentation to support its housing assistance and
 utility allowances. Of 71 files reviewed, 42 did not contain documentation required by HUD and the Authority's
 program administrative plan to support nearly $157,000 in housing assistance and utility allowance payments.
 Further, the Authority did not effectively recover more than $36,000 in housing assistance and utility
 allowance overpayments for deceased individuals.

     OIG recommended that HUD require the Authority to (1) reimburse its program from nonfederal funds
 for the improper use of more than $113,000 in program funds, (2) provide documentation or reimburse its
 program nearly $164,000 from nonfederal funds for the unsupported payments, and (3) implement adequate
 procedures and controls to address the findings cited. Audit Report: 2008-CH-1017)



     HUD OIG audited the Section 8 Housing Choice Voucher program of the Shreveport Housing Authority
 in Shreveport, LA.

      The Authority's contracted Section 8 program administrator, Pendleton Development Corporation, made
 errors in 96 of 107 tenant files reviewed, including incorrectly calculating family income, paying assistance
 after families vacated units, using incorrect payment standards, miscalculating utility allowances, and making
 other errors that resulted in incorrect assistance payments. Pendleton also made errors that did not affect
 assistance payments but needed corrective action. As a result, the Authority paid nearly $19,000 in excess
 assistance and overcharged families nearly $2,000, made excess assistance payments of more than $320,000,
 and had inaccurate SEMAP scores for FY 2006.

     OIG recommended that HUD require the Authority to (1) recertify within the next 6 months all families
 receiving assistance, review their files for any errors occurring within the previous 12 months, and repay its
 Section 8 program or the families as appropriate for any assistance payment errors for the 12 months; (2) repay
 from nonfederal funds its Section 8 program for overpayments and reimburse families for underpayments



38                                                          Chapter 2: HUD’s Public and Indian Housing Programs
 identified in the audit; and (3) implement adequate procedures and controls regarding its Section 8 program to
 ensure that tenant eligibility and assistance payments are supported and determined in accordance with HUD
 requirements to avoid paying more than $153,000 in excess assistance during the next 12 months. OIG also
 recommended that HUD increase oversight of the Authority by entering into a memorandum of agreement
 with the Authority, reduce the Authority's FY 2006 SEMAP scores, and ensure that the Authority submits
 accurate SEMAP scores in the future. (Audit Report: 2008-FW-1009)



    HUD OIG audited the Housing Authority of the City of Pittsburgh, Pittsburgh, PA, regarding the
 administration of its housing assistance payments for leased housing under its Moving to Work Demonstration
 program agreement to determine whether the Authority properly maintained documentation to support
 housing assistance payments and accurately calculated them.

      The Authority did not properly maintain documentation to support housing assistance payments and did
 not always accurately calculate housing assistance payments for its leased housing. There were deficiencies in
 28 of 30 tenant files reviewed. The Authority did not maintain complete documents required by HUD and its
 own administrative plan, resulting in unsupported housing assistance payments of more than $58,000. It also
 made ineligible housing assistance payments totaling more than $12,000 because it did not execute housing
 assistance payments contracts within 60 days of the beginning of the lease term, and it made housing assistance
 payments before the effective date of the related housing assistance payments contract. Also, the Authority
 inaccurately calculated housing assistance payments, resulting in nearly $5,000 in overpayments and nearly
 $2,000 in underpayments.

     OIG recommended that HUD require the Authority to (1) correct the errors in the tenant files,
 (2) provide documentation to support housing assistance payments or reimburse its leased housing program
 for the payments that it cannot support, (3) reimburse its leased housing program for the ineligible payments
 and overpayments, and (4) reimburse applicable tenants for the housing assistance underpayments. (Audit
 Report: 2008-PH-1014)

 Public Housing Program Activities
     HUD OIG audited the capital fund program at the Miami Dade Housing Agency in Miami, FL, to
 determine whether the Agency had adequate controls to ensure that contracts were awarded in accordance with
 regulations and HUD requirements.

      The Agency did not have adequate controls to ensure that contracts were awarded in accordance with
 regulations and HUD requirements. It did not maintain documentation supporting that contracts were awarded
 with full and open competition. As a result, it could not ensure that funds for contract payments were awarded
 through full and open competition and that the costs were reasonable. In addition, the Agency did not
 properly support multiple drawdowns of capital funds. It drew down capital funds from HUD to reimburse
 itself for expenses associated with 2003 and 2004 capital fund program grants. It then transferred these
 expenses to close out a 2002 capital fund program grant and drew down additional capital funds from HUD
 using these same expenses as justification. It could not provide documentation to support that HUD was
 reimbursed for the excess funds used to close out the grant.




Chapter 2: HUD’s Public and Indian Housing Programs                                                            39
      OIG recommended that HUD require the Agency to (1) provide supporting documentation to justify the
 eligibility and reasonableness of more than $12.1 million disbursed for five contracts and to Miami Dade
 County for seven transactions or reimburse the capital fund program more than $2.2 million and the HOPE
 VI program almost $9.9 million from nonfederal funds; (2) ensure that Federal procurement requirements for
 maintaining supporting documentation are implemented and enforced; (3) ensure that any services obtained
 through the County are purchased in compliance with Federal procurement requirements; (4) provide
 documentation to support that the excess drawdown of more than $1.8 million was returned to HUD or
 reimburse the capital fund program from nonfederal funds; (5) develop a system to track excess drawdowns
 and reimbursement of capital funds to HUD and maintain supporting documentation for both; (6) hire an
 independent accounting firm to reconcile capital fund program grants between HUD's Line of Credit Control
 System and the Agency's financial system; and (7) incorporate the tracking system, maintenance of supporting
 documentation, and reconciliation of capital fund program grants into existing procedures. (Audit Report:
 2008-AT-0002)



     HUD OIG audited the capital fund program of the Miami Dade Housing Agency, Miami, FL, to
 determine whether the Agency used capital fund program drawdowns in accordance with HUD requirements.

     The Agency did not use capital fund program drawdowns in accordance with HUD requirements. It drew
 down more than $257,000 to close out the 2003 capital fund program grant using the same expenses it used
 for previous drawdowns and drew down from its 2007 capital fund program grant more than $283,000 more
 than was supported by expenses. It also used capital fund program drawdowns to reimburse itself for ineligible
 and unsupported expenses. The Agency was reimbursed from capital funds for more than $62,000 that was
 used for public housing operations and nearly $128,000 that it could not support was used for capital fund
 activities. It was also unable to provide documentation to support nearly $258,000 in expenses transferred to
 the 2007 capital fund program grant that had not been reimbursed.

     OIG recommended that HUD (1) require the Agency to (a) provide supporting documentation showing
 that the excess drawdown was returned to the program or reimburse HUD from nonfederal funds, (b) provide
 supporting documentation for the expenses for the 2007 capital fund program grant or reimburse the capital
 fund program from nonfederal funds, and (c) define the roles and responsibilities of its accountants for the
 monthly reconciliation of capital fund program grants to HUD records and monitor capital fund drawdowns
 and excess capital funds; (2) determine and place appropriate restrictions on the Agency's ability to draw down
 capital funds; and (3) require the Agency to (a) reimburse HUD more than $62,000, (b) provide supporting
 documentation for nearly $128,000 that it could not support was for capital fund activities and nearly $258,000
 transferred to the 2007 capital fund program, and (c) implement and enforce policies and procedures to
 improve controls over the program. (Audit Report: 2008-AT-0004)



    HUD OIG audited the nonprofit development activities of the Lansing Housing Commission in Lansing,
 MI, to determine whether the Commission diverted or pledged resources subject to its annual contributions
 contract, other agreement, or regulation for the benefit of non-HUD developments.

    The Commission defaulted substantially on its contract when it improperly pledged resources for the
 benefit of the Lansing Housing Commission Nonprofit Development Corporation and the Oliver Gardens
 Limited Dividend Housing Associated Limited Partnership, organizations created by the Commission without



40                                                          Chapter 2: HUD’s Public and Indian Housing Programs
 HUD approval. In May 2006, the Commission inappropriately and unconditionally guaranteed the
 obligations of the Partnership's general partner, the Oliver Gardens Limited Liability Company, in a guaranty
 agreement. The Commission executed another guaranty agreement in September 2006, unconditionally and
 irrevocably guaranteeing the full and punctual payment of a loan entered into by the Corporation. As of
 February 29, 2008, the Commission had placed $1.4 million in Federal assets at risk by entering into the
 guaranty agreements, which made it responsible for all operating deficits and potential judgments of the
 Corporation and Partnership. The Commission also inappropriately used more than $745,000 in public
 housing funds for two nonfederal developments, Oliver Gardens and the Abigail. In addition, the
 Commission managed and provided Section 8 housing assistance to Oliver Gardens, a 30-unit senior housing
 project that the Partnership owns, and performed unit inspections of the project's units, thus creating a
 conflict of interest.

     OIG recommended that HUD require the Commission to (1) amend the guaranty agreements regarding
 the Corporation and the Partnership to remove the Commission's pledging of its Federal assets, (2) submit the
 amended guaranty agreements to HUD for review and approval to ensure that they comply with its contract
 with HUD, (3) reimburse the applicable programs for the improper use of public housing funds and its receipt
 of Section 8 administrative fees related to Oliver Gardens, (4) contract with an independent third party to
 perform housing quality standards inspections of Oliver Gardens as required by HUD, and (5) implement
 procedures and controls to address the findings cited. OIG also recommended that HUD take appropriate
 action against the Commission for its substantial default of its contract. (Audit Report: 2008-CH-1008)



     HUD OIG audited the Housing Authority of the City of Calexico, Calexico, CA, to determine whether
 the Authority complied with HUD's rules and regulations with respect to its public housing program.

     The Authority improperly used Section 5(h) program funds for the acquisition and operation of the
 Second Street Apartments. In addition, it (1) did not provide replacement housing for the 37 Section 5(h)
 units it sold, (2) incorrectly reported three of the five grants reviewed as fully obligated in HUD's electronic
 Line of Credit Control System, (3) undertook force account activity without HUD's written approval, and
 (4) undertook five inappropriate procurement actions.

     OIG recommended that HUD require the Authority to (1) repay its Section 5(h) program more than
 $174,000 from nonfederal sources for the inappropriate acquisition and operation of the Second Street
 Apartments; (2) create and implement a new timeline for replacement of the Section 5(h) units and if the
 Authority does not follow this new timeline, recapture the $1.2 million available in its program bank account
 as of January 2008; (3) recapture more than $247,000 in grant funds that the Authority did not fully obligate
 by the required deadline for grant years 2001, 2003, and 2005; (4) provide supporting documentation for
 nearly $828,000 in unsupported procurement actions or repay HUD from nonfederal sources; and (5) repay
 HUD nearly $185,000 from nonfederal sources for ineligible force account labor costs. (Audit Report:
 2008-LA-1012)



     HUD OIG audited the Housing Authority of the City of Eloy, AZ, because HUD had rated the Authority
 as troubled for five years. In 2007, the Authority had significant financial problems and terminated its
 executive director. It did not have adequate internal controls to safeguard assets and reasonably ensure that
 HUD funds were used in accordance with program requirements. Because it did not fully implement



Chapter 2: HUD’s Public and Indian Housing Programs                                                             41
 corrective actions required by HUD, it was not in compliance with HUD rules and regulations and Office of
 Management and Budget circulars. As a result, more than $2 million in Federal funds was placed at risk, and
 the Authority incurred unnecessary expenses and struggled to meet its operating expenses.

     OIG recommended that HUD require the Authority to immediately develop and implement effective
 policies and procedures that include sound internal controls for its operations in all areas and to immediately
 direct the Authority to negotiate with the Internal Revenue Service (IRS) to abate nearly $82,000 in interest
 and penalties on employee withholding taxes owed. OIG further recommended that HUD closely monitor
 the Authority and its board of commissioners until management weaknesses have been resolved, issue
 proposed notices of the Authority's default of its public housing and Section 8 contracts, and take appropriate
 actions that will result in better use of more than $700,000 in Federal funds. (Audit Report: 2008-LA-1009)



     HUD OIG audited the Housing Authority of the City of San Buenaventura, CA, to determine whether
 the Authority's financial activities, operations, and controls complied with HUD requirements.

     The Authority did not use program funds in accordance with the requirements of its annual contributions
 contract and HUD requirements. It (1) disregarded its payment-in-lieu-of-taxes obligations to the City for FY
 2005 and 2006, (2) used more than $496,000 in low-rent public housing program funds to purchase nonfederal
 housing without City or HUD approval, and (3) overspent its Section 8 Housing Choice Voucher program
 funding for FY 2007 and used nearly $166,000 of its low-rent public housing program funds to cover the
 deficit in violation of HUD requirements, placing both programs at risk.

     OIG recommended that HUD require the Authority to (1) comply with the annual contributions contract
 and the cooperation agreement with the City by settling its payment-in-lieu-of-taxes obligations to the City,
 (2) reimburse the low-rent program from nonfederal funds for FY 2005 and 2006 funds paid to the ineligible
 activity, (3) cease all transfers of payment-in-lieu-of-taxes obligated funds to the ineligible activity and
 demonstrate that calendar year 2007 funding in the amount of more than $243,000 has not been transferred
 to the housing trust fund or return the funds to the low-rent public housing program from nonfederal funds,
 and (4) implement written procedures and controls to ensure that sufficient and appropriate program funds are
 available before use and to prevent the use of low-rent public housing and Housing Choice Voucher program
 funds to cover the expenditures of other programs. (Audit Report: 2008-LA-1010)



    HUD OIG audited the public housing program of the Highland Park Housing Commission, Highland
 Park, MI, to determine whether the Commission effectively maintained its program units in accordance with
 HUD's requirements and appropriately used its program operating subsidies.

     The Commission did not maintain 45 of 46 program units inspected in good repair, order, and condition.
 There were 705 deficiencies in the 45 units including 43 hazards that HUD requires to be corrected within 24
 hours. The Commission lacked an effective maintenance process to ensure that program unit deficiencies were
 identified and repaired in a timely manner. It did not have an approved maintenance policy, failed to
 implement a preventive maintenance program, did not complete work orders in accordance with HUD's
 requirements and or/its maintenance policy, and failed to turn around program units in a timely manner. In
 addition, it inappropriately received more than $29,000 in excess program operating subsidies for seven units
 that were vacant for more than 12 months.



42                                                          Chapter 2: HUD’s Public and Indian Housing Programs
     OIG recommended that HUD require the Commission to (1) reimburse its program from nonfederal
 funds for the improper use of funds, (2) provide support or reimburse its program from nonfederal funds for
 the unsupported payments, and (3) implement adequate procedures and controls to address the findings cited.
 These procedures and controls should help to ensure that nearly $400,000 in program funds is spent according
 to HUD's requirements. (Audit Report: 2008-CH-1013)



     HUD OIG performed corrective action verification for an audit recommendation cited in the audit
 report, Cuthbert Housing Authority, Public Housing Programs (2004-AT-1001), issued January 15, 2004.
 The purpose of the corrective action verification was to determine whether the Housing Authority of the City
 of Cuthbert, GA, had implemented the selected audit recommendation and expended its funds in accordance
 with HUD regulations.

     The Authority did not comply with its HUD-approved agreement to obtain repayment of more than
 $327,000 advanced to one of its affiliates, the Development Corporation, and did not stop advancing funds
 until November 2004, although it had agreed it would stop by June 2004. The Authority collected sporadic
 payments from the Development Corporation after the agreement was executed, leaving a balance of more
 than $224,000. In addition, two other receivables of more than $148,000 and nearly $127,000 were advanced
 by the Authority to the Development Corporation. Also, the Authority paid a law firm $9,000 to lobby the
 Georgia State legislature to eliminate barriers to developing affordable housing in rural Georgia.

     OIG recommended that HUD (1) continue to work with the Authority to collect more than $224,000
 from the Development Corporation and reimburse its operating fund, (2) require the Authority to collect
 nearly $275,000 from the Development Corporation and reimburse its operating fund, (3) apply appropriate
 sanctions if the Authority does not comply with its payback agreement, and (4) require the Authority to
 reimburse its operating fund $9,000 from nonfederal sources. (Audit Report: 2008-AT-0803)



     HUD OIG audited the Tuckahoe Housing Authority, Tuckahoe, NY, to assess the merits of a complaint
 and determine whether the Authority administered its low-rent housing program and nonprofit entity
 activities in accordance with its annual contributions contract and HUD regulations.

     The Authority did not adequately administer its low-rent program and nonprofit entity activities in
 accordance with regulations. As a result, it incurred ineligible, unsupported, and unnecessary costs. In
 addition, the Authority's nonprofit entity encountered delays in the construction of a planned senior citizen
 complex on land approved by HUD for that purpose in 1999, for which it did not expect to break ground until
 November 2008.

     OIG recommended that HUD instruct the Authority to reimburse more than $64,000 in ineligible
 expenses, provide documentation to substantiate nearly $183,000 in unsupported costs, and provide
 justification for nearly $16,000 in unnecessary costs so that HUD can determine the reasonableness or
 necessity of the costs. OIG recommended strengthening financial and operational controls to better ensure
 compliance with HUD regulations and policy. (Audit Report: 2008-NY-1008)




Chapter 2: HUD’s Public and Indian Housing Programs                                                          43
    HUD OIG performed a corrective action verification of audit recommendations cited in an audit report
 on the Opelika Housing Authority in Opelika, AL, entitled Opelika Housing Authority, Public Housing
 Programs (2004-AT-1011), issued July 23, 2004, to determine whether the selected audit recommendations
 had been implemented and the deficiencies cited in the report had been corrected.

     The Authority had implemented the necessary corrective action for the recommendations, and no further
 action is required. However, the Authority's Section 8 general ledger contained a receivable in the amount of
 nearly $58,000 due from Opelika Housing Development Corporation, a not-for-profit corporation affiliated
 with the Authority. The receivable represents ineligible payments made to the Corporation by the Section 8
 program. HUD recovered the ineligible payments during 2005 through offset of administration fees from the
 Authority's Section 8 program. However, the Corporation did not reimburse the Authority for the ineligible
 payments.

    OIG recommended that HUD require the Authority to collect the ineligible Section 8 payments from the
 Corporation. (Audit Report: 2008-AT-0802)

 Native American Program Activities
      HUD OIG audited Salish and Kootenai Housing Authority in Pablo, MT, to determine whether the
 Authority calculated program income for Native American Housing Assistance and Self-Determination Act of
 1996 (NAHASDA)-assisted United States Housing Act of 1937 (1937 Act) properties in accordance with
 applicable HUD guidance, regulations, and requirements and to observe uses of revenue from NAHASDA-
 assisted 1937 Act properties.

     The Authority did not have adequate accounting policies and procedures for allocating income from 1937
 Act properties receiving Indian Housing Block Grant (Block Grant) program assistance between its general
 fund and Block Grant programs. It failed to track Block Grant rehabilitation or capital expenses for each
 property and recognize program income from substantially rehabilitated properties. It also miscalculated the
 amount of NAHASDA revenue because it included units converted to non-NAHASDA tax credit units in its
 average expense level calculation. As a result, more than $184,000 in low-rent housing receipts were
 inappropriately excluded from Block Grant affordable housing funds and should be reclassified.

     OIG recommended that HUD require the Authority to (1) implement policies and procedures to
 determine program income in accordance with HUD requirements; (2) update its computation of program
 income, properly segregating the revenue and allowable expense level calculation for low-income housing tax
 credit properties from other 1937 Act low-rent units and reclassifying as Block Grant funds more than $174,000
 previously withdrawn from the 1937 Act low-rent program as nonprogram income; (3) reduce the number of
 1937 Act units capable of producing nonprogram income by the nine units that received substantial
 rehabilitation or capital expenses between 2002 and 2006 using Block Grant funds, which exceeded 40 percent
 of the dwelling, construction, and equipment costs, and reclassify more than $10,000 as NAHASDA revenue;
 and (4) adjust the annual 2007 and future 1937 Act program income calculations to include all revenue from
 substantially rehabilitated units as NAHSDA revenue. (Audit Report: 2008-SE-1003)




44                                                          Chapter 2: HUD’s Public and Indian Housing Programs
 Investigations
     Some investigations discussed in this report were generated from leads provided by HUD public and
 Indian housing program staff or conducted jointly with Federal, State, and local law enforcement agencies.
 The results of various significant investigations are described below.

                     Strategic Initiative 2: Contribute to the reduction of erroneous
                                        payments in rental assistance
     Key program            Cases                    $                Convictions/pleas/               Admin/civil
        results             closed               recovered                pretrials                      actions
    Investigations           322                $8,513,166                     367                        416
                           Page 46      - Public housing authority theft/embezzlement

          Our              Page 51      - Rental assistance fraud
         focus             Page 55      - FedRent Initiative
                           Page 58      - Fugitive Felon Initiative
                           Page 59      - Other fraud/crimes



         Chart 2.2: Percentage of OIG public and Indian housing closed investigation
                              cases during this reporting period

                                                                                          Region 1
                                                                                            8%
                                     Region 7-8              Region 5          Region 2
                                        3%                    14%                9%




                                                                                            Region 3
       Region 9-10                                                                           23%
          17%


                                                                                    Region 4
                                     Region 6                                        11%
                                      11%


                                                                        Region 11
                                                                           4%




Chapter 2: HUD’s Public and Indian Housing Programs                                                                  45
 Public Housing Authority Theft/Embezzlement
      Four fictitious Tampa Housing Authority (Tampa) landlords each pled guilty in U.S. District Court, Tampa,
 FL, to conspiracy to steal government funds, theft of government funds, or committing Federal program fraud.
 In addition, former Tampa Section 8 counselors Calvin Coleman, Mario Lovett, and Carlton Miles and 14
 fictitious Tampa landlords were collectively sentenced to 118 months incarceration, 8 months home
 detention, 540 months supervised release, and 168 months probation and ordered to pay HUD $706,260 in
 restitution for their earlier guilty pleas to committing theft of government funds or conspiracy. The above
 defendants and others conspired and used the housing authority computer system to fraudulently generate and
 obtain $455,168 in housing contract payments they were not entitled to receive.




                                  Copyright, 2008. The Tampa Tribune - Tampa, FL. Reprinted with permission.



     James Lawrence, the former executive director for the Housing Authority of the City of Winston-Salem
 (Winston-Salem); Ernest Pitt, the former chairman for the Winston-Salem Board of Commissioners; and
 Thomas Trollinger, a partner with Pitt doing business as East Point Developers, LLC, were each indicted in
 U.S. District Court, Greensboro, NC, for making false statements; aiding and abetting; and committing mail
 and wire fraud, money laundering, honest service violations, and conspiracy. The above defendants allegedly
 conspired and purchased property with $414,000 in Winston-Salem funds without authorization, failed to
 report their financial interest in the property sold to Winston-Salem, and provided false information to Federal
 agents when questioned.




46                                                            Chapter 2: HUD’s Public and Indian Housing Programs
     Cassandra Ashe, the former New London Housing Authority (New London) Section 8 coordinator and
 current East Haven Housing Authority (East Haven) executive director, and her husband, Jonathan Ashe, a
 New London employee, were each indicted in U.S. District Court, Hartford, CT, for committing conspiracy
 and theft from a program receiving Federal funds. From August 2003 through August 2005, Cassandra and
 Jonathan Ashe allegedly conspired and created a fictitious landlord to fraudulently obtain $204,951 in New
 London housing contract payments, and from March 2007 through April 2008, they allegedly stole $192,600
 in East Haven housing funds through unauthorized bank withdrawals. HUD losses are estimated at $397,191.




                                     Copyright, 2008. The Hartford Courant - Hartford, CT. Reprinted with permission.



     Brent Wells, the former Crow Creek Housing Authority (Crow Creek) executive director; Alyce McGhee,
 the former Crow Creek finance officer; and former Crow Creek employees Velsworth Hawk, Carla Big Eagle,
 and Terra Thompson were collectively sentenced in U.S. District Court, Pierre, SD, to 57 months
 incarceration, 108 months supervised release, and 8 years probation and ordered to pay Crow Creek $79,682
 in restitution and fines totaling $6,000 for their earlier guilty pleas to committing theft from an Indian tribal
 organization. From May 2004 through December 2005, the above defendants submitted fictitious receipts
 and invoices and embezzled $175,590 in Crow Creek funds.



     Patricia Bobo, the former Gary Housing Authority (Gary) finance director, was sentenced in U.S. District
 Court, Gary, IN, to 18 months incarceration and 3 years probation and ordered to pay Gary $111,000 and the
 IRS $39,590 in restitution for her earlier guilty plea to embezzlement and filing false Federal income tax
 returns. From August 2002 through September 2003, Bobo created, endorsed, and negotiated unauthorized
 salary payments and failed to claim the embezzled funds on her Federal income tax returns.



      Tracey White-Jenkins, the former Irvington Housing Authority (Irvington) Section 8 director, and her
 sister, Ninetta White, a New Jersey parole officer, were each arrested and charged in U.S. District Court,




Chapter 2: HUD’s Public and Indian Housing Programs                                                                 47
 Newark, NJ, with committing theft of government funds. White-Jenkins allegedly deposited more than
 $95,000 in Irvington checks into her personal bank account, including $28,000 in Irvington checks written to
 Exquisite Realty, a New Jersey company allegedly controlled by Ninetta White. In addition, White allegedly
 obtained Irvington housing contract payments for a property she did not own.



     Anslem and Rachelle Thompson, former employees of the Lukachukai Chapter Veterans Organization
 Service Development, Inc. (Lukachukai), a Navajo Housing Authority contractor, were collectively sentenced
 in U.S. District Court, Phoenix, AZ, to 10 years probation and ordered to pay the Navajo Housing Authority
 $27,302 in restitution for their earlier guilty pleas to conspiracy to commit embezzlement and theft from an
 Indian tribal organization. From May 2000 to November 2002, Anslem and Rachelle Thompson and others
 embezzled $65,000 in Lukachukai funds for their personal use.



     George Green, the former Union County Housing Authority (Union County) executive director, was
 sentenced in Eighth Judicial Circuit Court, Lake Butler, FL, to 1 day incarceration (time served) and 3 years
 probation and ordered to pay HUD $19,000 in restitution for his earlier nolo contendere plea to committing an
 organized scheme to defraud HUD. From November 2002 to March 2006, Green allegedly received Union
 County funds for fabricated work and vacation hours, directed Union County personnel to perform services at
 private residences during Union County work hours, diverted Union County assets for his personal use,
 disbursed Union County funds for unauthorized expenditures, and created fraudulent Union County rental
 records for relatives and friends. HUD realized losses of $57,498.



                                                   Loren Goldtooth, Sr., a former certified public accountant
                                              and executive director for the Tohono O'odham Ki:Ki
                                              Association (Tohono O'odham), a HUD-funded Indian tribal
                                              organization, was sentenced in U.S. District Court, Tucson, AZ,
                                              to 1 year incarceration and 3 years probation and ordered to pay
                                              Tohono O'odham $52,239 in restitution and the IRS an amount
                                              not yet determined for his earlier conviction of committing
                                              embezzlement and theft from an Indian tribal organization and
                                              failing to file individual and corporate Federal income tax returns.
                                              From February 2000 through July 2002, Goldtooth embezzled
                                              more than $52,239 from Tohono O'odham when he obtained
                                              unauthorized salary payments and used Tohono O'odham credit
                                              cards for personal expenses. Goldtooth also failed to claim the
                                              embezzled funds on his 2000, 2001, and 2002 individual Federal
                                              income tax returns and failed to file 1999 or 2000 corporate
 Copyright, 2008. Arizona Daily Star -       Federal income tax returns for his accounting firm, Goldtooth &
 Tucson, AZ. Reprinted with permission.       Company.




48                                                          Chapter 2: HUD’s Public and Indian Housing Programs
     Frank Giannoccaro, a former Rochester Housing Authority, Rochester, NY, contractor and owner of
 Giannoccaro Plumbing and Construction, Inc., was debarred from procurement and nonprocurement
 transactions with HUD and throughout the Executive Branch of the Federal Government for three years.
 Giannoccaro, who previously pled guilty to committing theft of government funds, submitted more than
 $36,000 in fraudulent work orders and completion certifications to the Rochester Housing Authority.



      Erica Spears, the former Omaha Tribal Housing Authority (Omaha Tribal) executive director, was indicted
 in U.S. District Court, Omaha, NE, for committing theft from an organization receiving Federal funds and
 embezzlement from an Indian tribal organization. Spears allegedly acquired unauthorized salary payments,
 falsified travel reimbursement forms, and fraudulently obtained Omaha Tribal funds through loans she failed
 to repay. HUD losses are estimated at $30,000.



     Lesvia Barrera, the former executive director for the Eagle Pass Housing Authority, and her nephew, Juan
 Sifuentes, were each charged in U.S. District Court, Eagle Pass, TX, with committing conspiracy to defraud
 the government with respect to claims. In October 2001 and August 2003, Barrera and Sifuentes allegedly
 submitted fraudulent claims totaling $17,800 to HUD for work unrelated to the housing authority.



      Tonya Jackson, the former Claiborne Parish Section 8
 program executive director, was arrested and charged in
 Claiborne Parish District Court, Homer, LA, with
 committing theft over $500. Jackson allegedly falsified FSS
 program documents and obtained kickbacks from FSS
 tenants after they received FSS graduation payments. HUD
 realized losses of about $17,000.



     Tequetta Cody, a former Indianapolis Housing
 Authority housing manager, was indicted in Marion County
 Superior Court, Indianapolis, IN, for committing theft.
 Cody allegedly wrote off bad debts, falsified accounting                 Copyright, 2008. The Guardian-Journal -
 journals, and housed ineligible housing recipients in             Claiborne Parish, LA. Reprinted with permission.
 HUD-subsidized housing units. HUD losses are estimated
 at $9,047.



     Rochelle Brown, a former Durham Housing Authority (Durham) commissioner and Section 8 landlord,
 was arrested and charged in Durham County State Court, Durham, NC, with obtaining property by false
 pretenses, and Elston Brown was sentenced to 12 months probation and ordered to perform 50 hours of
 community service for his earlier guilty plea to obtaining property by false pretense. Rochelle Brown allegedly




Chapter 2: HUD’s Public and Indian Housing Programs                                                               49
 and her husband Elston Brown admittedly obtained $3,966 in housing contract payments after a Durham
 Section 8 tenant vacated their property.



     William Porfilio, a former Springfield Housing Authority (Springfield) contractor doing business as
 Eastern Electronics and Security, Inc., was sentenced in U.S. District Court, Springfield, MA, to 2 years
 probation, ordered to pay Springfield $12,500 in restitution, and fined $1,000 for his earlier guilty plea to
 conspiracy to commit theft and mail fraud. Porfilio and others conspired with the former Springfield executive
 director, Raymond Asselin, Sr., and embezzled more than $3.5 million in Springfield funds for their personal
 benefit.




                                       Copyright, 2008. The Republican - Springfield, MA. Reprinted with permission.



     Joba Cottreal, a Housing Preservation and Development (Housing Preservation) Housing Choice Voucher
 program administrator, and 15 additional defendants were each arrested and charged in Bronx County Court,
 Bronx, NY, with committing bribery or bribery receiving. Cottreal allegedly sold housing choice vouchers to
 more than 300 unqualified individuals waiting for Housing Preservation housing assistance. HUD losses are
 not yet determined.



     Benny Ramos, the former deputy director for the City of Paterson (Paterson) Section 8 program, pled
 guilty in U.S. District Court, Newark, NJ, to accepting cash intending to be influenced and rewarded, and
 Paterson deputy court administrator Princess Reaves, Paterson employees Victor Ortiz and Standley Williams,
 and Passaic Valley Water Commission employee George Morgan were collectively sentenced to 51 months
 incarceration and 132 months probation and fined $4,500 for their earlier guilty pleas to soliciting and
 accepting cash payments intending to be influenced in connection with transactions of a local government or




50                                                           Chapter 2: HUD’s Public and Indian Housing Programs
 agency or soliciting and accepting corrupt payments under color of official right. In addition, Paterson
 employees Yolanda Lane, Marie Rosa, and Elisa Griffin and Paterson Housing Authority Section 8 caseworkers
 Marisol Cortez and Flora Cruz, each previously sentenced for their guilty pleas to conspiracy to defraud the
 U.S. Government, soliciting and accepting corrupt payments under color of official right, or interfering with
 commerce by threat or violence, were debarred from procurement and nonprocurement transactions with
 HUD and throughout the Executive Branch of the Federal Government for 3 years. The above defendants and
 others solicited and accepted bribes from an unnamed conspirator in exchange for steering Section 8 tenants to
 specific properties.



     John Fischer, a Buffalo Municipal Housing Authority (Buffalo) administrator, was arrested and charged in
 U.S. District Court, Buffalo, NY, with committing bribery, extortion, obstruction of justice, and tampering
 with a witness. Fischer allegedly pressured a Buffalo contractor to provide and install a roof at a private
 residence in exchange for his assistance on a Buffalo project. In addition, Fischer allegedly attempted to
 influence the official statements provided by others after he learned of an ongoing investigation.



     Michael Macaruso, a former Providence, North Providence, and Cranston Housing Authorities contractor
 doing business as Ocean State Building Wrecking and Asbestos Removal, Inc., pled guilty in U.S. District
 Court, Providence, RI, to obtaining kickbacks from public works employees and filing false Federal income
 tax returns. From July 2003 to December 2006, Macaruso submitted false employee wage and benefit
 certifications to the above housing authorities and failed to report income on his 2005 and 2006 Federal
 income tax returns.




                                   Copyright, 2008. The Providence Journal - Providence, RI. Reprinted with permission.


 Rental Assistance Fraud
     Jonathon Hon, a former Chicago Housing Authority (Chicago) Section 8 landlord and owner of Burnham
 Mortgage, Inc., and Sandra Pickett and Myrtis Burkhart, also known as Myrtis Griffin, Chicago Section 8
 tenants, were each charged or indicted in U.S. District Court, Chicago, IL, for making false statements; theft
 of government funds; or committing mail, wire, or bankruptcy fraud. Hon allegedly provided false documents
 used by unqualified straw borrowers to obtain conventional mortgages, obtained and personally used $1.9
 million in fraudulent loan proceeds, failed to report the sale of his Section 8-subsidized properties on housing



Chapter 2: HUD’s Public and Indian Housing Programs                                                                   51
 certifications, and obtained more than $210,000 in
 housing contract payments he was not entitled to
 receive. Pickett and Burkhart allegedly failed to
 report income or assets on housing and other
 certifications and together obtained $50,800 in
 housing assistance and $167,200 in Social Security
 Administration (SSA) benefits they were not entitled
 to receive. In addition, former Chicago Section 8
 landlord Burnyss Perry pled guilty to committing
 theft, and Chicago Section 8 landlord Joseph Payne
 and Section 8 tenant Karla Smith entered into civil
 settlements and agreed to collectively pay HUD
 $56,000. Perry inflated the value of properties he
 sold to unqualified straw borrowers who obtained
 conventional mortgages, placed the properties
 owned by others into the Chicago Section 8
 program, and fraudulently obtained more than
 $70,000 in housing assistance payments. Payne and
 Smith failed to report income, assets, or their joint
 residency on housing certifications. Collectively,               Reprinted with permission of the Chicago Tribune;
 the above defendants caused HUD losses of                            copyright Chicago Tribune; all rights reserved.
 $386,800.



      Sandra Dargon, Cynthia Howell, and Omaira Blalock, also known as Omaira Hernandez, New York City
 Housing Authority (New York City) Section 8 tenants, were each arrested and charged in U.S. District or
 Bronx County Courts, New York City, NY, with committing theft of government funds, grand larceny, or
 welfare fraud. In addition, six New York City housing recipients were collectively sentenced to 24 months
 incarceration, 12 months home confinement, and 192 months probation and ordered to pay New York City
 $260,937 in restitution for their earlier guilty pleas to committing theft of government funds. Dargon, Howell,
 and Blalock allegedly and remaining defendants admittedly failed to report income, accurate household
 compositions, or unauthorized residents on housing certifications and together obtained $320,937 in housing
 assistance they were not entitled to receive.



     Irma Saucedo, a Miami-Dade Housing Authority (Miami-Dade) Housing Choice Voucher program
 participant, was arrested after her indictment in U.S. District Court, Miami, FL, for committing theft of
 government property and aggravated identity theft; Miami-Dade housing recipient Kendrick Davis, Jr., was
 charged with committing public assistance fraud and grand theft; and Miami-Dade housing recipients Latrice
 Cleveland and Thelma Thomas each pled guilty to committing public assistance fraud and grand theft. In
 addition, 10 current or former Miami-Dade housing recipients were collectively sentenced to 366 days
 incarceration and 73 years probation and ordered to perform 800 hours of community service and pay HUD
 $204,681 in restitution for their earlier guilty pleas to making false statements, committing grand theft and
 public assistance fraud, or fraudulently using identification documents. Saucedo and Davis allegedly and the
 remaining defendants admittedly failed to report income, assets, accurate household compositions, criminal



52                                                          Chapter 2: HUD’s Public and Indian Housing Programs
 histories, or the subleasing of their subsidized units on housing certifications and together obtained $288,274
 in housing assistance they were not entitled to receive.



     Gaila Requena, Isa Buechner, and Aran and Marquita Tolliver, current or former Las Vegas Housing
 Authority (Las Vegas) Section 8 tenants, were each charged in Clark County Justice Court, Las Vegas, NV, with
 committing theft by misrepresentation or obtaining money under false pretenses. In addition, five former Las
 Vegas Section 8 tenants were collectively sentenced to 12 months incarceration (suspended) and 3 years
 probation and ordered to pay Las Vegas $54,584 in restitution for their earlier guilty pleas to conspiracy to
 commit a crime or attempted theft. Requena, Buechner, and Aran and Marquita Tolliver allegedly and the
 remaining defendants admittedly failed to report income, accurate household compositions, or their criminal
 histories on housing certifications and together obtained $189,786 in housing assistance they were not entitled
 to receive.



     Jan Freeman, Victoria Shakoor, and Pamela Lovitt, former Prince Georges Department of Housing and
 Community Development Housing Choice Voucher program participants, were each charged in Prince Georges
 County Circuit Court, Upper Marlboro, MD, with committing theft over $500. The above defendants
 allegedly failed to report unauthorized residents and their incomes or registered sex offender classifications on
 housing certifications and collectively obtained $136,972 in housing assistance they were not entitled to
 receive.



      Blanca Martinez and Sonia Luciano, also known as Nancis Sepulveda, Yonkers Municipal Housing
 Authority Section 8 tenants, were charged in U.S. District or Yonkers City Courts, Westchester, NY, with
 filing a false instrument or committing grand larceny or identity theft. Martinez and Luciano allegedly
 submitted false identity documents or failed to report income and assets on housing certifications and together
 obtained about $134,478 in housing assistance they were not entitled to receive.



    Mary Ann Miles, a former Arlington County Department of Human Services Housing Choice Voucher
 program participant, pled guilty in Arlington County Circuit Court, Arlington, VA, to committing forgery of
 public documents. From 1991 through 2004, Miles failed to report an unauthorized resident or his income on
 housing certifications and obtained $120,195 in housing assistance she was not entitled to receive.



     Tara Crespo, a Homestead Housing Authority Housing Choice Voucher program participant, was indicted
 in U.S. District Court, Miami, FL, for making false statements and committing theft of government funds;
 Stacey Chestnut and Evelyn Bessent, former Pompano or Palm Beach County Housing Authority Section 8
 tenants, each pled guilty to making false statements and committing theft of government funds; and former
 Broward County Section 8 tenant Natasha Bradley was sentenced to 180 days home detention and 3 years
 probation and ordered to perform 100 hours of community service and pay HUD $33,854 in restitution for
 her earlier guilty plea to committing theft of government funds. Crespo allegedly and Chestnut, Bessent, and



Chapter 2: HUD’s Public and Indian Housing Programs                                                              53
 Bradley admittedly failed to report income, assets, or the subleasing of their HUD-subsidized unit on housing
 certifications and collectively obtained $107,332 in housing assistance they were not entitled to receive.



     Ernestine Bumpass and Nakeisha Minor, also known as Nakeisha Taylor, Durham Housing Authority
 (Durham) housing recipients, were each arrested and charged in Durham County District Court, Durham,
 NC, with obtaining property by false pretenses. In addition, Durham housing recipients Larunatta Barlow
 and Margaret Mangum each pled guilty to obtaining property by false pretenses, and former Durham housing
 recipients Sheila Browder and Shronda Johnson were collectively sentenced to 45 days incarceration and 48
 months probation and ordered to pay Durham $5,631 in restitution for their earlier pretrial diversion or guilty
 plea to obtaining property by false pretenses. Bumpass and Minor allegedly and the remaining defendants
 admittedly failed to report income, unauthorized residents, or their accurate marital status on housing
 certifications and collectively obtained $103,433 in housing assistance they were not entitled to receive.



     Aida Contreras and Brenda Grubisich, former Cook County Housing Authority (Cook County) Section 8
 tenants, were each charged in Cook County Circuit Court, Chicago, IL, with committing theft by deception.
 In addition, Cook County Section 8 landlord Julius Macklin, also known as Julius Heart, pled guilty to
 committing wire fraud, and former Cook County Section 8 tenant Jean Marshal, also known as Jean Allen, was
 sentenced to 3 years probation and ordered to pay HUD $10,122 and the SSA $81,788 in restitution for her
 earlier guilty plea to committing theft of government funds. Contreras and Grubisich allegedly and Macklin
 and Marshal admittedly failed to report income, assets, SSA benefits, fraudulent use of identification
 documents, or familial relationships to Section 8 landlords on housing and other certifications and collectively
 obtained $98,487 in housing assistance and $253,733 in SSA and other benefits they were not entitled to
 receive.



     Tomeka Jackson, Cynthia Milhouse, and Elodis Platt, former Saint Petersburg, Pinellas County, or Sarasota
 Housing Authorities Section 8 or Housing Choice Voucher program participants, were each charged or
 indicted in U.S. District Court, Tampa, FL, for making false statements and committing theft of government
 funds. Jackson, Milhouse, and Platt allegedly failed to report income on housing certifications and together
 obtained $96,496 in housing assistance they were not entitled to receive.



     Kindole Roberson and her daughter Tiffanee Rankins, former Inglewood Housing Authority (Inglewood)
 Section 8 tenants, and Erika Hamlet were each charged in Los Angeles County Superior Court, Inglewood,
 CA, with filing a false instrument or committing forgery. In addition, former Inglewood Section 8 tenants
 Karen Fleming and Kesha Burton were collectively sentenced to 8 years probation and ordered to perform 250
 hours of community service and pay Inglewood $46,487 in restitution for their earlier guilty pleas to
 committing grand theft and perjury. Roberson, Rankins, and Hamlet allegedly failed to report income or
 provided forged documents, and Fleming and Burton failed to report income or an unauthorized resident on
 housing certifications. HUD losses are estimated at $90,487.




54                                                           Chapter 2: HUD’s Public and Indian Housing Programs
 FedRent Initiative
    Recent studies indicate that an estimated 60 percent of all subsidized housing rents are miscalculated, and
 approximately $5.2 billion in erroneous and net annual subsidy overpayments are a result of both errors in
 program administration and tenants underreporting income.

     In an effort to combat administrative overpayments and tenant fraud, HUD and HUD OIG commenced
 "Operation FedRent," a joint effort to address rental assistance fraud involving Federal employees. Operation
 FedRent compares HUD tenant data to current and retired Federal employee information maintained by the
 U.S. Office of Personnel Management. After the data comparison, an income eligibility determination is
 made, and the Social Security numbers for family members six years of age and older are verified. If a
 discrepancy exists, an investigation is opened and appropriate administrative or legal actions are initiated to
 collect any overpaid housing assistance. Results of Operation FedRent during this semiannual reporting
 period are described below.



     Ten Chicago Housing Authority, Cook County Housing Authority, or Aurora Housing Authority public
 housing or Section 8 tenants and current or former U.S. Postal Service (USPS) employees were each charged in
 U.S. District Court, Chicago, IL, for making false statements and committing theft of government funds or
 mail fraud. The above defendants allegedly failed to report income on housing certifications and collectively
 obtained $247,000 in housing assistance they were not entitled to receive.



      Lauton Joshua, a former San Francisco Housing Authority (San Francisco) Section 8 tenant and U.S. Army
 employee, and her grandmother, Helen Lowe, a former San Francisco Section 8 landlord, were collectively
 sentenced in U.S. District, San Francisco, CA, to 15 months incarceration and 6 years probation, fined $30,000,
 and ordered to jointly pay HUD $126,934 in restitution for their earlier guilty pleas to making false
 statements. In addition, Lowe was suspended from procurement and nonprocurement transactions as a
 participant or principal with HUD and throughout the Executive Branch of the Federal Government pending
 the outcome of any related debarment actions. From August 1998 to December 2006, Joshua and Lowe failed
 to report income, assets, or their familial relationship on housing certifications and together obtained $126,934
 in housing assistance they were not entitled to receive.



     Latoya Mason, a former District of Columbia Housing Authority (DC Housing Authority) Section 8
 tenant and former U.S. Department of Veterans Affairs (VA) employee, pled guilty in U.S. District Court,
 Washington, DC, to making false claims and fraudulently obtaining public assistance. In addition, Barbara
 Johnson and Gerry Coffee, former DC Housing Authority housing recipients and current VA or IRS
 employees, were collectively sentenced to 5 years probation and ordered to perform 250 hours of community
 service and pay DC Housing Authority $59,344 in restitution for their earlier guilty pleas to committing fraud
 in obtaining public assistance. From 1999 through 2006, Mason, Johnson, and Coffee failed to report income
 or unauthorized residents and their criminal histories on housing certifications and together obtained $110,233
 in housing assistance they were not entitled to receive.




Chapter 2: HUD’s Public and Indian Housing Programs                                                              55
      Sonya Reshard, a former Housing Authority of the County of Los Angeles (Los Angeles County) Housing
 Choice Voucher program participant and USPS employee, was sentenced in U.S. District Court, Los Angeles,
 CA, to 6 months incarceration and 2 years probation and ordered to pay Los Angeles County $71,267 in
 restitution for her earlier guilty plea to making false statements and willfully causing an offense against the
 government. Reshard failed to report income on housing certifications and obtained $71,267 in housing
 assistance she was not entitled to receive.



     Antoinette Love, a former Compton Housing Authority (Compton) Section 8 tenant and current USPS
 employee, was sentenced in U.S. District Court, Los Angeles, CA, to 5 years probation and 4 months home
 detention with electronic monitoring and ordered to pay Compton $58,000 in restitution for her earlier guilty
 plea to making false statements. From 1999 to 2007, Love failed to report income on housing certifications
 and obtained more than $51,000 in housing assistance she was not entitled to receive.



      Dinorah Cancel, a former Tampa Housing Authority (Tampa) Section 8 tenant and current USPS
 employee, pled guilty in U.S. District Court, Tampa, FL, to committing theft of government funds. In
 addition, former Tampa Section 8 tenants and USPS employees Luz Correa and Bienvenido Rosa Santos were
 collectively sentenced to 90 days incarceration, 90 days home detention, 90 days in a residential reentry
 program, and 7 years of supervised release and ordered to pay HUD $47,046 in restitution for their earlier
 guilty pleas to committing theft of government funds. From February 2002 to August 2007, the above
 defendants failed to report income on housing certifications and collectively obtained $47,046 in housing
 assistance they were not entitled to receive.



     Kim Carson, a former Santa Monica Housing Authority housing recipient and U.S. Department of
 Defense auditor who previously pled guilty to committing theft of public monies, entered into a Program
 Fraud Civil Remedies Act settlement filed in U.S. District Court, Santa Monica, CA, and agreed to pay HUD
 $4,000. Carson submitted altered employment documents, failed to report income, and obtained $44,843 in
 housing and FSS program assistance she was not entitled to receive.



     Daniel Engle, a Cuyahoga Metropolitan Housing Authority (Cuyahoga Metropolitan) Section 8 landlord,
 and Cindy Valentine, also known as Cindy Engle, a Cuyahoga Metropolitan Section 8 tenant and IRS
 employee, were each charged in U.S. District Court, Cleveland, OH, with making false statements and
 committing theft of government funds. In addition, Cuyahoga Metropolitan Section 8 tenant and IRS
 employee Kenyada Spates was indicted in Cuyahoga County Court of Common Pleas for committing grand
 theft and tampering with records. Engle, Valentine, and Spates allegedly failed to report income, assets, or
 their accurate marital status and household compositions on housing certifications and collectively obtained
 $35,928 in housing assistance they were not entitled to receive.




56                                                          Chapter 2: HUD’s Public and Indian Housing Programs
     Temeria Alexander, a former Charlotte Housing Authority Section 8 tenant and USPS employee, was
 sentenced in U.S. District Court, Charlotte, NC, to 6 months incarceration and ordered to pay HUD $29,669
 in restitution for her earlier guilty plea to making false statements and embezzlement of government funds.
 Alexander failed to report income on housing certifications and obtained $29,669 in housing assistance she
 was not entitled to receive.



     Elizabeth Rosa, a former Orange County Housing Agency (Orange County) Section 8 tenant and current
 USPS employee, pled guilty in U.S. District Court, Tampa, FL, to making false statements and theft of
 government funds. From June 2001 to July 2006, Rosa failed to report income on housing certifications and
 obtained $28,931 in housing assistance she was not entitled to receive.



     Natasha Acoff, a Cook County Housing Authority Section 8 tenant and current U.S. Department of
 Homeland Security employee, was charged in U.S. District Court, Chicago, IL, with making false statements.
 Acoff allegedly failed to report income on housing certifications and obtained $27,200 in housing assistance
 she was not entitled to receive.



     Brenda Houston, a former Housing Authority of Kansas City (Kansas City) Section 8 tenant and IRS
 employee, was sentenced in U.S. District Court, Kansas City, MO, to 4 months incarceration and 3 years
 supervised probation and ordered to pay Kansas City $25,812 in restitution for her earlier guilty plea to
 committing theft of government funds. From December 2001 through February 2005, Houston failed to
 report income on housing certifications and obtained $25,812 in housing assistance she was not entitled to
 receive.



     Debra Freeman, a former East Chicago Housing Authority public housing tenant and USPS employee,
 was sentenced in U.S. District Court, Hammond, IN, to 3 years probation and ordered to pay HUD $20,675
 in restitution for her earlier guilty plea to committing theft of government funds. Freeman failed to report
 income on housing certifications and obtained $20,675 in housing assistance she was not entitled to receive.



     Lakeesha Jefferson, a San Francisco Housing Authority Section 8 tenant and current Federal Emergency
 Management Agency (FEMA) employee, was indicted in U.S. District Court, San Francisco, CA, for
 committing theft of government funds and making fraudulent claims. From October 2004 through October
 2006, Jefferson allegedly failed to report income on housing certifications, submitted fraudulent FEMA travel
 vouchers, and obtained $14,511 in housing assistance and $16,252 in travel reimbursements she was not
 entitled to receive.




Chapter 2: HUD’s Public and Indian Housing Programs                                                          57
     Peter Ruach, a former Portland Housing Authority public housing tenant and USPS employee, was
 sentenced in U.S. District Court, Portland, ME, to 36 months probation and ordered to pay HUD, the U.S.
 Department of Health and Human Services, and the U.S. Department of Agriculture $7,596 in restitution for
 his earlier guilty plea to making false statements and committing theft of government property. From
 November 2004 through September 2005, Ruach failed to report income on housing and other certifications
 and obtained $4,686 in housing assistance and $2,900 in welfare and other benefits he was not entitled to
 receive.

 Fugitive Felon Initiative
     Enacted into law in 1996, Section 903 of Public Law 104-193, "Elimination of Housing Assistance with
 Respect to Fugitive Felons and Probation and Parole Violators," amended 42 U.S.C. §§ 1437d, 1437z, and
 allows for the termination of housing subsidies for public or assisted housing tenants who flee to avoid
 prosecution, avoid confinement after conviction of a felony, or violate conditions of their parole or probation.
 The law also authorizes Federal, State, and local law enforcement agencies to exchange information and
 perform data matches.

      OIG supports the Fugitive Felon Initiative (FFI) by matching HUD housing assistance information with
 crime data from the National Crime Information Center, U.S. Marshals Service (USMS), and other
 participating law enforcement data banks. In addition, OIG special agents actively participate in the USMS
 "Operation FALCON," a joint Federal, State, city, and county law enforcement effort to locate and apprehend
 fugitive felons wanted for violent crimes. Conducted in most major cities throughout the United States and its
 territories, Operation FALCON places a strong emphasis on apprehending fugitive felons involved in gangs,
 homicides, sexual assaults, or crimes against the elderly and children. Since the inception of OIG's FFI,
 hundreds of cases have been opened and closed, resulting in more than 8,374 arrests. OIG strongly supports
 Operation FALCON in an effort to make HUD public and assisted housing safe places for families to live. FFI
 results during this semiannual reporting period are described below.



     HUD OIG participated in Operation FALCON in Kansas City and St. Louis, MO. As a result, 219
 individuals were arrested on outstanding warrants, and nine of those arrested resided in HUD-subsidized
 housing.



     HUD OIG participated in Operation FALCON in Wichita and Kansas City, KS. As a result, 28
 individuals were arrested on outstanding warrants, and two individuals arrested resided in HUD-subsidized
 housing.



     HUD OIG participated in Operation FALCON in Salt Lake City, UT. As a result, 50 individuals were
 arrested on outstanding warrants, and seven of those arrested resided in HUD-subsidized housing.




58                                                           Chapter 2: HUD’s Public and Indian Housing Programs
     HUD OIG participated in Operation FALCON in East St. Louis, IL. As a result, 19 individuals who
 resided in HUD-subsidized housing were arrested on outstanding warrants.



   HUD OIG participated in Operation FALCON in Newell, SD. As a result, one person who resided in
 HUD-subsidized housing was arrested on outstanding warrants.



    Staniford Griswold was sentenced in U.S. District Court, Kansas City, MO, to 30 months incarceration
 and 36 months supervised release for his earlier guilty plea to assault on a Federal officer. Griswold assaulted a
 HUD OIG special agent during Operation FALCON.



    Jacqulyn McFarland was arrested and charged in U.S. District Court, Wichita, KS, with assaulting a
 Federal officer. McFarland allegedly assaulted a HUD OIG special agent and a deputy U.S. marshal during
 Operation FALCON.



     Lamesha Ware, a former Pinellas County Housing Authority Section 8 tenant, was arrested on an
 outstanding warrant for violating her conditions of release. Ware, who was previously sentenced in U.S.
 District Court, Tampa, FL, to 4 months incarceration and 32 months supervised release and ordered to pay
 HUD $36,997 in restitution for her earlier guilty plea to making false statements, allegedly failed to reside in
 a residential reentry center, comply with the home detention program, or pay the court-ordered restitution.



    Ruigui Xia and German Cruz, New York City Housing Authority Section 8 tenants, were each arrested in
 New York City, NY, on outstanding warrants that charged them with deportation violations.



     William Suffron and Leslie Weeks, Wichita Housing Authority Section 8 tenants, were each arrested in
 Wichita, KS, on outstanding warrants that charged them with larceny, forgery, burglary, or probation
 violations.



     Twenty-two Ogden Housing Authority public housing, Section 8, or Housing Choice Voucher program
 participants were arrested in Salt Lake City, UT, on outstanding warrants that charged them with narcotic,
 assault, theft, or other violations.




Chapter 2: HUD’s Public and Indian Housing Programs                                                               59
 Other Fraud and Crimes
     Michael Eliasof, a realtor and owner of Paterson Management, LLC, and MGE Investments; William
 Ottaviano, an appraiser for Equity Appraisal Services, LLC (Equity Appraisal); and Equity Appraisal were each
 suspended from procurement and nonprocurement transactions with HUD and throughout the Executive
 Branch of the Federal Government pending the outcome of criminal proceedings or any related debarment
 action. Eliasof, Ottaviano, and others allegedly provided false loan documents and appraisals used by
 unqualified investors to obtain conventional mortgages. The investors placed the fraudulent mortgaged
 properties into the Paterson Housing Authority or the City of Paterson Section 8 housing programs and
 obtained housing contract payments they were not entitled to receive. HUD losses are not yet determined.



     David and Anna Delle Donna, the mayor of Guttenberg, NJ, a Guttenberg Planning Board member, and
 Guttenberg Housing Authority Section 8 landlords, were each convicted in U.S. District Court, Newark, NJ,
 of conspiracy to commit extortion and filing false Federal income tax returns. David Donna accepted payoffs
 as campaign contributions, and David and Anna Donna failed to report $25,000 in housing contract
 payments on their 2004 and 2005 Federal income tax returns.



     Terry Rice was indicted in U.S. District Court, Kansas City, MO, for uttering a forged and counterfeit
 security. Rice allegedly negotiated a counterfeit Independence Housing Authority check.



     Felix Ortiz-Garcia, a former Harrisburg Housing Authority (Harrisburg) public housing tenant, was sen-
 tenced in U.S. District Court, Harrisburg, PA, to 13 years incarceration for his earlier guilty plea to unlawful
 distribution of heroin. Ortiz-Garcia distributed heroin from his Harrisburg public housing unit.




60                                                           Chapter 2: HUD’s Public and Indian Housing Programs
     Chapter 3
HUD’s Multifamily
Housing Programs
     In addition to multifamily housing developments with U.S. Department of Housing and Urban
 Development (HUD)-held or HUD-insured mortgages, the Department subsidizes rents for low-income
 households, finances the construction or rehabilitation of rental housing, and provides support services for the
 elderly and handicapped.

 Audits
                      Strategic Initiative 2: Contribute to the reduction of erroneous
                                         payments in rental assistance
      Key program results                    Questioned costs                           Funds put to better use
     Audit          3 audits                     $3.3 million                                          ---
                    Page 63           - HUD’s use of residual receipts
      Our
                    Page 63           - Owner and management agent operations
     focus
                    Page 63           - Opt-out process for project-based Section 8




                    Chart 3.1: Percentage of OIG multifamily housing audit reports
                                      during this reporting period

                                                                                                     Region 1
                                                                                                       0%
                                           Region 7-8                  Region 5        Region 2
                                             67%                         0%              0%




                                                                                                      Region 3
        Region 9-10                                                                                     0%
            0%


                                                                                             Region 4
                                      Region 6                                                33%
                                        0%



                                                                               Region 11
                                                                       (Disaster Relief Oversight)
                                                                                %(N/A)*
 * This does not include hurricane relief audits. See chapter 5 for these reviews.




62                                                                           Chapter 3: HUD’s Multifamily Housing Programs
 HUD's Use of Residual Receipts
     The HUD Office of Inspector General (OIG) audited HUD's use of residual receipts in lieu of reserve for
 replacement funds to determine whether HUD appropriately authorized residual receipt withdrawals in lieu of
 reserve for replacement funds for new regulation multifamily projects.

     HUD inappropriately authorized the use of more than $3.2 million in residual receipt funds for ineligible
 project costs. Regional and field office staff nationwide were either not familiar with or overlooked the residual
 receipt use requirements for new regulation multifamily projects. As a result, HUD lost $3.2 million that it
 could have used more effectively for additional housing subsidies and other authorized taxpayer purposes.

     OIG recommended that HUD, on a project-by-project basis for the 14 projects reviewed, ensure that the
 projects reimburse the residual receipts account with reserve for replacement or operating funds, unless this
 action negatively affects the project. In addition, HUD needs to ensure that regional and field office staff fully
 understand and comply with the requirements regarding the use of residual receipts for new regulation
 multifamily projects. (Audit Report: 2008-KC-0007)

 Owner and Management Agent Operations
     HUD OIG audited Bethany Towers Apartments, Tampa, FL, to determine whether the nonprofit owner
 and management agents complied with the project's regulatory agreement, applicable laws, and other HUD
 requirements pertaining to the sale and transfer of ownership interest in the project, use of project assets,
 identity-of-interest (IOI) relationships, necessity and reasonableness of project costs, and record keeping.

     The owner and its undisclosed IOI management agent did not provide proper oversight and management
 of the project's financial affairs. The owner executed an unauthorized agreement to sell the project, diverted
 $90,000 in funds paid toward the purchase to its church sponsor, selected an undisclosed IOI management
 agent, allowed financial harm to the project from IOI dealings, incurred more than $16,000 in ineligible/
 improperly supported costs, and maintained inadequate books and records.

     OIG recommended that HUD (1) determine whether to declare the project in technical default of its
 regulatory agreement and initiate foreclosure proceedings; (2) require the owner to repay or support more than
 $106,000 in questioned costs, which include the diverted funds; (3) require the owner to establish and
 implement policies and procedures to ensure compliance with HUD requirements; (4) take appropriate
 administrative action against the owner and its IOI agent for the most significant reported violations; and
 (5) seek double damages against the owner for diverting $90,000 received for the purchase of the project.
 (Audit Report: 2008-AT-1013)

 Opt-Out Process for Project-Based Section 8
     HUD OIG reviewed HUD's oversight of projects that opted out of the Section 8 program between
 January 1, 2004, and December 31, 2007, because the opt-out process involved large amounts of funds
 potentially not accounted for or remitted to HUD.

     With a few minor exceptions, HUD complied with applicable requirements while administering the
 opt-out process for the nine Section 8 projects reviewed. In addition, for all nine projects, the responsible




Chapter 3: HUD’s Multifamily Housing Programs                                                                     63
 depository properly remitted residual receipts to HUD or released the residual receipts to the projects' owners,
 or the balance in the residual receipts account was zero so no action was required. (Audit Report:
 2008-KC-0005)




64                                                                Chapter 3: HUD’s Multifamily Housing Programs
 Investigations
     Some investigations discussed in this report were generated from leads provided by HUD multifamily
 housing program staff or conducted jointly with Federal, State, and local law enforcement agencies. The
 results of various significant investigations are described below.


                     Strategic Initiative 2: Contribute to the reduction of erroneous
                                        payments in rental assistance

     Key program            Cases                    $               Convictions/pleas/                 Admin/civil
        results             closed               recovered               pretrials                        actions
    Investigations           66                 $2,892,389                     30                           62
                           Page 66       - Theft/embezzlement
          Our
                           Page 67       - Rental assistance fraud
         focus
                           Page 69       - Other fraud/crimes




             Chart 3.2: Percentage of OIG multifamily housing closed investigation
                               cases during this reporting period

                                                                                           Region 1
                                                                                            14%
                                      Region 7-8             Region 5         Region 2
                                         3%                    7%              11%




                                                                                             Region 3
       Region 9-10                                                                            27%
          18%



                                                                                    Region 4
                                     Region 6                                        11%
                                       6%



                                                                     Region 11
                                                             (Disaster Relief Oversight)
                                                                        3%




Chapter 3: HUD’s Multifamily Housing Programs                                                                         65
 Theft/Embezzlement
     Debbie Bethany, the owner of Southern Investment Management Company and the management agent
 for Hillview Apartments, a HUD-subsidized multifamily housing development, was indicted in U.S. District
 Court, Oxford, MS, for committing embezzlement, theft of government funds, and bribery. Bethany
 allegedly embezzled $550,000 in HUD and U.S. Department of Agriculture housing funds.



     Wynee Joyner, the vice president of National Housing Group, Inc., a HUD contractor who oversees the
 management and maintenance of HUD-owned multifamily housing developments, was indicted in U.S.
 District Court, New York City, NY, for conspiracy to commit mail fraud. Joyner allegedly falsified vendor
 invoices and submitted false claims to HUD in an effort to circumvent contract terms and obtain HUD
 reimbursements before paying third-party vendors. HUD losses are not yet determined.



    Sentry Security entered into a settlement with HUD and agreed to pay Hunts Point I, a HUD-subsidized
 multifamily housing development located in the Bronx, NY, $107,841 for work not performed. Sentry
 Security allegedly submitted false invoices and obtained $107,841 for services not performed.



     Denise Toce, a former housing manager for Luther Ridge Apartments (Luther Ridge), a HUD-subsidized
 multifamily housing development, was sentenced in Connecticut Superior Court, Middletown, CT, to 4 years
 incarceration (suspended) and 3 years probation and ordered to pay Luther Ridge $18,000 in restitution for
 her earlier guilty plea to committing larceny. Toce embezzled about $25,000 in Luther Ridge rents and
 security deposits.



    Linda Copenhaver, a former manager for Kingston House, a HUD-subsidized multifamily housing
 development for senior and disabled citizens, was charged in U.S. District Court, Harrisburg, PA, with
 embezzlement. Copenhaver allegedly embezzled $12,000 from an elderly tenant.



     Nickhoulas Vitale, a former painter for Co-Op City, a HUD-subsidized 15,372 unit multifamily housing
 development, was sentenced in U.S. District Court, New York City, NY, to 3 months incarceration, 3 months
 home confinement, and 3 years supervised release and ordered to forfeit $10,000 for his earlier guilty plea to
 committing bribery. Vitale paid kickbacks to previously indicted Iris Baez, the former board president for
 Co-Op City, in exchange for $3.5 million in painting contracts awarded to his employer, Stadium Interior
 Painting.




66                                                               Chapter 3: HUD’s Multifamily Housing Programs
     Betty Jefferson, the former president of the St. Stephen Manor, Inc. (St. Stephen),
 a HUD-subsidized multifamily housing development; her brother, Mose Jefferson;
 and Angela Coleman, a St. Stephen manager, were each indicted in U.S. District
 Court, New Orleans, LA, for making false statements; evading Federal income tax;
 and committing conspiracy, aggravated identity theft, embezzlement, mail fraud,
 and money laundering. From October 2001 to September 2006, the above
 defendants allegedly embezzled and personally used about $931,225 in Federal and
 State grant funds, including $9,230 in HUD housing assistance payments. In
 addition, former St. Stephen employee Brenda Jefferson, also known as Brenda
 Foster, pled guilty to misprision of a felony. Brenda Jefferson failed to report her
 knowledge of the alleged fraudulent activities involving Betty Jefferson and the other
 defendants identified above.

 Rental Assistance Fraud
     Christian Ighodaro and Uyi and Lucy Omo, former Section 8 tenants at Mandela
 Homes, a HUD-subsidized multifamily housing development, were collectively
 sentenced in Boston Municipal Court, Boston, MA, to 66 months probation and
 ordered to pay HUD $19,000 for their earlier guilty pleas to committing larceny
 over $250 by a single scheme. From January 2001 to August 2006, Ighodaro and
 Uyi and Lucy Omo failed to report income or assets on housing certifications and
 collectively obtained $97,292 in housing assistance they were not entitled to receive.


                                                                                            Copyright, 2008. The
     Hong Le, a former Section 8 tenant at the El Rancho Verde Apartments,                 Times-Picayunea - New
 HUD-subsidized multifamily housing development, was sentenced in California               Orleans, LA. Reprinted
 Superior Court, San Jose, CA, to 28 months incarceration and ordered to pay                     with permission.
 Choices for Children $9,418 in restitution for her earlier nolo contendere plea
 to committing grand theft. Le allegedly failed to report an unauthorized resident on housing certifications and
 obtained $80,356 in housing assistance she was not entitled to receive.



      Jeri Hill, a former Section 8 tenant at Glenridge Cooperative Apartments, a HUD-subsidized multifamily
 housing development, was sentenced in U.S. District Court, San Francisco, CA, to 3 years probation, ordered
 to perform 100 hours of community service and pay HUD $54,754 in restitution, and fined $2,500 for her
 earlier guilty plea to submitting false documents to HUD. From January 2003 through October 2007, Hill
 failed to report income on HUD certifications and obtained $54,754 in housing assistance she was not entitled
 to receive.



     Trenell Peoples, a Section 8 tenant at Coral Gardens Apartments (Coral Gardens), a HUD-subsidized
 multifamily housing development, was charged in Eleventh Judicial Circuit Court, Homestead, FL, with
 organizing a scheme to defraud and committing public assistance fraud and grand theft. In addition, Coral
 Gardens Section 8 tenants Prudencio Rodriguez entered into a pretrial diversion, Eliezer Cruz was sentenced



Chapter 3: HUD’s Multifamily Housing Programs                                                                   67
 for his earlier guilty plea to making false statements, and Joann Thompson was given a suspended entry of
 sentence for her earlier guilty plea to committing public assistance fraud. Rodriguez agreed to pay HUD
 $3,726 in restitution, and Cruz was sentenced to 364 days incarceration and ordered to pay HUD $7,632 in
 restitution. Peoples allegedly and the remaining defendants admittedly failed to report income or
 unauthorized residents and their criminal histories on housing certifications and collectively obtained $54,176
 in housing assistance they were not entitled to receive.



     Shiray Savoy, a Housing Choice Voucher program participant through both the Housing Commission of
 Anne Arundel County (Anne Arundel), an organization that receives HUD housing assistance, and Bay Ridge
 Garden Apartments (Bay Ridge), a HUD-subsidized multifamily housing development, was charged in Anne
 Arundel County District Court, Glen Burnie, MD, with committing theft by deception and making false
 statements for housing assistance. From December 2002 through November 2007, Savoy allegedly failed to
 report her Anne Arundel housing assistance on Bay Ridge housing certifications and obtained $48,583 in
 housing assistance she was not entitled to receive.



     Kathleen Lovett, a former Section 8 tenant at Woodridge Homes Apartments, a HUD-subsidized
 multifamily housing development, was sentenced in Lawrence District Court, Lawrence, MA, to 5 years
 probation and ordered to pay HUD $47,000 in restitution for her earlier guilty plea to committing larceny
 over $250. From November 2001 to November 2006, Lovett failed to report income on housing certifications
 and obtained $47,600 in housing assistance she was not entitled to receive.



     Hasan Bajrami, a Section 8 tenant at Seaside Plaza, a HUD-subsidized multifamily housing development,
 was arrested and charged in Staten Island Criminal Court, Staten Island, NY, with submitting a false
 instrument and committing grand larceny and forgery. Bajrami allegedly failed to report income on housing
 certifications and obtained $46,000 in housing assistance he was not entitled to receive.



     Sade White and April Blackstone, current Section 8 tenants at Circle Terrace Apartments (Circle Terrace),
 a HUD-subsidized multifamily housing development, were each charged in Baltimore County District Court,
 Baltimore, MD, with making false statements and committing theft by deception. In addition, former Circle
 Terrace Section 8 tenant Katrina Longhorne was sentenced to 3 years supervised probation and ordered to pay
 Circle Terrace $12,720 in restitution for her earlier guilty plea to committing theft, and former Circle Terrace
 Section 8 tenant Latasha Fisher was ordered to pay Circle Terrace $12,170 in restitution in exchange for the
 dismissal of charges previously filed. From September 2005 through June 2008, White, Blackstone, and Fisher
 allegedly and Longhorne admittedly failed to report income or unauthorized residents and their criminal
 histories on housing certifications and collectively obtained $43,895 in housing assistance they were not
 entitled to receive.




68                                                                Chapter 3: HUD’s Multifamily Housing Programs
     Mary Brown, a former Section 8 tenant at Cedar Park Apartments, a HUD-subsidized multifamily
 housing development, and her husband, Michael Scalf, were each sentenced in U.S. District Court,
 Davenport, IA, for their earlier guilty pleas to making false statements and committing conspiracy. Brown
 was sentenced to 3 years supervised release, Scalf was sentenced to 6 months incarceration and 3 years
 supervised release, and Brown and Scalf were ordered to pay HUD $19,036 and the State of Iowa $90,569,
 jointly and severally. Brown failed to report Scalf's residency or income on housing and other certifications,
 and together they obtained $19,036 in housing assistance and $90,569 in other benefits they were not entitled
 to receive.



     Five Section 8 tenants at Kenwood Apartments, a HUD-subsidized multifamily housing development,
 were each charged in Jackson County Circuit Court, Kansas City, MO, with stealing by deceit. The above
 defendants allegedly failed to report income on housing certifications and collectively obtained about $14,950
 in housing assistance they were not entitled to receive.



     Romesz Coleman, a housing assistance recipient at Pheasant Run Apartments, a HUD-subsidized
 multifamily housing development, was charged in Montgomery County District Court, Harleysville, PA,
 with committing theft by deception, receiving stolen property, making a false swearing, and tampering with
 public records. Coleman allegedly failed to report assets, an accurate household composition, or his criminal
 history on housing certifications and obtained $11,398 in housing assistance he was not entitled to receive.

 Other Fraud/Crimes
     Robert Corp, a former loan officer and originator, underwriter, and vice president of Continental
 Securities, LLC, was charged in a civil complaint filed in U.S. District Court, Buffalo, NY, with violating the
 False Claims Act and unjust enrichment. Corp allegedly made misrepresentations on loan documents he
 submitted to HUD when he originated and underwrote a $7 million HUD-insured mortgage for Brylin
 Hospital. Brylin Hospital defaulted on the HUD-insured mortgage, and HUD paid an adjusted claim of
 more than $6.1 million to the lender.



      Aaron Dare, the former owner of the three Federal Housing Administration (FHA)-insured multifamily
 properties, and Berne Watkins, the previous owner of the three FHA-insured multifamily properties sold to
 Dare, were each sentenced in U.S. District Court, Albany, NY, for their earlier guilty pleas to making false
 statements to HUD or conspiracy to commit mortgage or wire fraud. Collectively, Dare and Watkins were
 sentenced to 72 months incarceration and 72 months probation and ordered to perform 200 hours of
 community service and pay HUD more than $1.9 million in restitution, $792,685 jointly and severally. In
 2000 and 2001, Watkins and Dare executed two fraudulent promissory notes to create the appearance that
 Dare held equity worth $2.5 million and to facilitate Dare's purchase of the three multifamily properties from
 Watkins. Dare used the fake promissory notes to obtain FHA-insured mortgages for the three properties but
 failed to make mortgage payments as promised. HUD realized losses of more than $1.9 million after the
 mortgages defaulted.




Chapter 3: HUD’s Multifamily Housing Programs                                                                  69
      Nine landlords and one property management company entered into a civil consent decree with HUD, the
 U.S. Environmental Protection Agency, and the U. S. Attorney's Office in Minneapolis, MN, and each agreed
 to pay $7,500 in fines to the U.S. Department of Justice, collectively provide $50,000 for a child health
 improvement project, and eliminate 179 lead-based paint hazards in their respective housing developments.
 The above defendants allegedly violated the Residential Lead-Based Paint Hazard Reduction Act when they
 failed to disclose or provide records relating to lead-based paint or lead-based paint hazards.



      Ottis Levine and Lionell Bradley were collectively sentenced in Thirteenth Judicial Circuit Court, Tampa,
 FL, to time served and 24 months probation and ordered to perform 50 hours of community service for their
 earlier guilty pleas to committing grand theft, conspiracy to commit a robbery with a firearm, or possession of
 a firearm during the commission of a felony. Levine, Bradley, and others robbed Kenneth Court Apartments,
 a HUD-subsidized multifamily housing development, and stole about $3,000 in utility assistance payments.




70                                                                Chapter 3: HUD’s Multifamily Housing Programs
        Chapter 4
    HUD’s Community
Planning and Development
        Programs
     The Office of Community Planning and Development (CPD) seeks to develop viable communities by
 promoting integrated approaches that provide decent housing, suitable living environments, and expanded
 economic opportunities for low- and moderate-income persons. The primary means toward this end is the
 development of partnerships among all levels of government and the private sector. In addition to the audits
 and investigations described in this chapter, the U.S. Department of Housing and Urban Development, Office
 of Inspector General (HUD OIG), has conducted numerous outreach efforts (see chapter 7, page 129).


 Audits
               Strategic Initiative 3: Contribute to the strengthening of communities
      Key program results                    Questioned costs                           Funds put to better use
     Audit         19 audits                    $71 million                                    $25 million

      Our           Page 73           - Community Development Block Grant programs
     focus          Page 76           - HOME Investment Partnerships program



                Chart 4.1: Percentage of OIG community planning and development
                              audit reports during this reporting period

                                                                                                   Region 1
                                                                                                     5%
                                          Region 7-8                Region 5
                                                                                       Region 2
                                            11%                      26%
                                                                                        11%




                                                                                                     Region 3
                                                                                                       5%
        Region 9-10
            5%


                                                                                              Region 4
                                     Region 6                                                  26%
                                      11%



                                                                             Region 11
                                                                     (Disaster Relief Oversight)
                                                                              %(N/A)*

 * This does not include hurricane relief audits. See chapter 5 for these reviews.




72                                                      Chapter 4: HUD’s Community Planning and Development Programs
     The Office of Inspector General (OIG) audited the Community Development Block Grant (CDBG)
 program, the HOME Investment Partnerships Program (HOME), and the Supportive Housing Program grants.
 While OIG's objectives varied by auditee, the majority of the reviews were to determine whether the grant
 funds were administered for eligible activities and that the auditee met program objectives. The following
 section illustrates the audits conducted in the CPD area.

 Community Development Block Grant Programs
     The U.S. Department of Housing and Urban Development (HUD) OIG audited HUD's administration
 of CDBG set-aside for colonias because of concerns that surfaced during an audit survey of the State of Texas's
 colonia set-aside funds. Colonias are rural communities located within 150 miles of the U.S.-Mexican border.
 The objective was to determine whether HUD ensured that the States of New Mexico, Arizona, Texas, and
 California expended colonia set-aside funds in compliance with the Cranston-Gonzalez National Affordable
 Housing Act of 1990.

     HUD did not issue regulations or handbooks specific to the administration of the set-aside funds or
 develop performance measures to track accomplishments. Thus, it did not ensure that the States expended the
 funds in compliance with the Act and could not track accomplishments. Rather, HUD allowed the States to
 define colonias and determine how to distribute the funds. The States had different definitions of colonias and
 did not always prioritize funding to the colonias with the greatest needs as required. As a result, between 2004
 and 2007, New Mexico and Arizona allocated or expended colonia set-aside funds for projects that did not
 meet the requirements of the Act and did not meet the intended beneficiaries' basic health and safety needs. In
 addition, HUD could not report on the progress or effect of the set-aside funds in meeting the colonia
 residents' needs regarding water, sewage, and housing.

     OIG recommended that HUD (1) require the States of New Mexico and Arizona to support or repay more
 than $8.4 million, (2) implement effective internal controls to ensure that the States comply with the Act, and
 (3) implement performance measures specific to the colonia set-aside to help ensure that funds are used
 effectively to meet water, sewage, and housing needs of the colonia residents. By implementing effective
 controls, HUD can put more than $2.8 million to better use over the next 12 months. (Audit Report:
 2008-FW-0001)



     HUD OIG audited the City of Tulsa, OK's CDBG program and found that while the City generally
 monitored other subrecipients, it did not monitor or supervise its largest subreceipient, the Tulsa Development
 Authority (Authority). From October 1, 2005, through September 30, 2007, the Authority inappropriately
 expended $1.5 million for its CDBG acquisition, clearance, and relocation activities. However, it did not have
 specific disposition plans for its CDBG-acquired properties and only benefited the low- to moderate-income
 community "whenever possible." In addition, the Authority's acquisition and clearance projects did not have
 the HUD-required environmental reviews.

     OIG recommended that HUD require the City to adopt written policies and procedures for its CDBG
 program for day-to-day operations that include procedures to ensure that it monitors all of its subrecipients in
 accordance with HUD and local requirements and require the Authority to (1) develop and implement
 specific plans for its future CDBG acquisitions and currently owned CDBG properties that will benefit the




Chapter 4: HUD’s Community Planning and Development Programs                                                    73
 low- to moderate-income community as a whole and individually, which would put more than $8.9 million to
 better use; (2) support or repay the funds that the Authority could not support in performing its acquisition,
 clearance, relocation, and disposition activities; and (3) perform the necessary environmental reviews when
 acquiring or clearing land. (Audit Report: 2008-FW-1012)



     HUD OIG audited the CDBG program of the County of Essex, Verona, NJ, and found that the County
 did not always follow applicable regulations and its submission to HUD while disbursing CDBG funds. It
 disbursed CDBG funds for ineligible and defaulted float loans, it and its subgrantees did not always comply
 with procurement requirements, grant agreements did not contain the requirements, and substantial changes
 to program activities were not amended appropriately. In addition, there were control weaknesses in the
 County's financial management system used to safeguard funds.

     OIG recommended that HUD instruct the County to reimburse to the CDBG program from nonfederal
 funds more than $1.2 million for ineligible and defaulted float loans, provide supporting documentation for
 two procurements totaling more than $517,000, reimburse more than $2.6 million in excess checking account
 funds to the CDBG program if the County does not immediately disburse the funds, remit more than $280,000
 in bank interest, reimburse to the CDBG program more than $179,000 for the unnecessary drawdowns of
 funds, and establish procedures to ensure that CDBG funds will be disbursed in a timely manner and in
 accordance with program requirements. (Audit Report: 2008-NY-1007)



     HUD OIG audited the State of Colorado, Division of Housing's CDBG program in Denver, CO, and
 found that the Division used CDBG funds for ineligible and questionable projects. As a result, it awarded
 more than $4.6 million in grants that did not effectively meet the needs of the intended nonentitlement
 low- and moderate-income beneficiaries. The Division did not effectively identify, report, or classify program
 income generated by its subrecipients. As a result, neither the Division nor HUD had assurance that subrecipients
 used program income for its intended purpose. In addition, the Division did not realize the full benefits of the
 allowable amounts for planning and administrative costs and for public service activities.

     OIG recommended that HUD (1) require the Division to repay from nonfederal funds the $1.7 million in
 ineligible grants, (2) require the Division to develop and implement effective controls over establishing and
 administering projects and identifying and recording program income, and (3) determine the eligibility of the
 questioned costs and require the Division to repay from nonfederal funds the amounts determined to be
 unsupported or unnecessary. (Audit Report: 2008-DE-1003)



     HUD OIG audited the operations of the City of Troy, NY, CDBG program and found that the City
 generally complied with HUD program requirements when administering its overall CDBG program.
 However, it did not establish adequate (1) procedures to ensure that its housing rehabilitation program was
 administered in accordance with program regulations; (2) procedures to ensure that costs for its street
 improvement activities were allowable and supported by adequate documentation; (3) administrative controls
 to ensure that costs associated with its public facilities activities were eligible, necessary, and supported by
 sufficient documentation; and (4) controls to ensure that program labor costs were adequately supported and
 that costs incurred were current and accurately recorded.



74                                               Chapter 4: HUD’s Community Planning and Development Programs
     OIG recommended that HUD instruct the City to (1) reimburse the CDBG program from nonfederal
 funds more than $186,000 paid for ineligible program expenditures, (2) provide supporting documentation to
 justify the eligibility of more than $1.2 million in CDBG disbursements or reimburse the program from
 nonfederal funds any amounts not supported, and (3) establish adequate procedures to ensure compliance
 with CDBG program requirements. (Audit Report: 2008-NY-1006)



     HUD OIG audited the City of Dayton, OH's CDBG program and found that the City lacked sufficient
 documentation to support that it followed federal requirements when it used program funds to pay staff
 salaries from January through December 2003. As a result, it was unable to support its use of more than
 $550,000 in program funds.

     OIG recommended that HUD require the City to provide documentation or reimburse its program from
 nonfederal funds for the unsupported salaries and implement adequate procedures and controls to address the
 finding cited. (Audit Report: 2008-CH-1015)



     HUD OIG audited the CDBG program of the Municipality of Carolina, PR, and found that the
 Municipality generally complied with requirements of the CDBG program. However, there were deficiencies
 associated with the procurement of its housing rehabilitation activities. The Municipality awarded 65 housing
 rehabilitation contracts totaling more than $400,000 without following HUD's and its own procurement
 requirements.

     OIG recommended that HUD require the Municipality to (1) provide support showing the eligibility and
 reasonableness of more than $81,000 in disbursements or reimburse the CDBG program from nonfederal
 funds and (2) implement procurement procedures and controls that comply with HUD requirements to
 ensure that goods and services are obtained at the most advantageous terms and in a manner that provides full
 and open competition. (Audit Report: 2008-AT-1008)



     HUD OIG reviewed HUD policies prohibiting the use of funds from the CDBG program to supplant
 general government funds to determine whether HUD had management controls sufficient to ensure that
 CDBG grantees had effective procedures to preclude them from supplanting general government funds with
 CDBG program funds. OIG also examined whether there were practical ways to measure whether grantees
 used CDBG program funds to supplant general State or local government funds and indicators that grantees
 might be using Federal program funds to supplant general government funds.

     HUD could not identify whether Federal funds were used to supplant general government funds. It could
 not identify whether a grantee supplanted its local budget because it had not identified the requirements for
 maintenance of effort included in the Housing and Community Development Act of 1974, either in policy or
 CDBG program regulations. Without maintenance of effort management controls, CDBG program funds
 may be at risk for substitution by grantees.

    OIG recommended that HUD initiate efforts to address and establish maintenance of effort requirements
 and continue its dialogue with its grantees to consider stakeholder input for establishing maintenance of effort



Chapter 4: HUD’s Community Planning and Development Programs                                                    75
 compliance requirements and determine whether or how to implement maintenance of effort requirements for
 the program after consideration of stakeholders' input. (Audit Report: 2008-BO-0002)

 HOME Investment Partnerships Program
      HUD OIG audited the City of Los Angeles Housing Department, Los Angeles, CA, HOME
 rehabilitation program and found that the Department did not comply with HOME affordability monitoring
 and inspection requirements for its HOME-assisted rental housing. It failed to maintain the required tenant
 eligibility information for 26 HOME-assisted rental housing projects totaling nearly $38 million. In addition,
 it did not maintain complete tenant eligibility information for 27 tenants living in seven projects, resulting in
 nearly $104,000 in unsupported costs. Further, it did not ensure that its contractor conducted occupancy
 monitoring as required and failed to inspect HOME-assisted rental housing projects when required and ensure
 that local housing code regulations were met. Improvements on controls would ensure that more than $226,000
 could be put to better use.

    OIG recommended that HUD require the Department to properly support or repay from nonfederal
 funds more than $38 million in unsupported expenses and establish and implement more effective procedures
 and controls. (Audit Report: 2008-LA-1016)



                                           HUD OIG audited the HOME program of Cook County, IL, and
                                      found that the County did not effectively administer its program income
                                      and administrative costs and failed to follow HUD's requirements. It did
                                      not comply with HUD's requirement in its use and reporting of program
                                      income. As a result, the County had nearly $5.2 million in program
                                      income in its HOME investment trust fund's local account, did not
                                      allocate at least $641,000 in interest earned from program income in its
                                      local account, and underreported at least $2.7 million in program income
                                      in HUD's Integrated Disbursement and Information System. In addition,
                                      the County did not comply with HUD's requirements in using HOME
                                      funds for administrative costs. As a result, it used more than $28,000 in
                                      HOME funds for improper administrative costs and lacked sufficient
                                      documentation to support its use of nearly $56,000 in HOME funds for
                                      eligible administrative costs.

                                          OIG recommended that HUD require the County to (1) commit and
                                      disburse program income, unallocated interest earned from program
                                      income, and reimbursed program funds before drawing down additional
                                      funds from its HOME trust fund treasury account; (2) provide support or
                                      reimburse its program from nonfederal funds for the unsupported
                                      payments; (3) provide sufficient documentation as to whether it earned
                                      interest from program income before September 2002; and (4) report its
                                      additional program income in HUD's system. OIG also recommended

 Reprinted with permission of the
 Chicago Tribune; copyright Chicago
 Tribune; all rights reserved.



76                                               Chapter 4: HUD’s Community Planning and Development Programs
 that HUD restrict the County's ability to draw down HOME funds from its treasury account until the County
 disburses all program income, unallocated interest earned from program income, and reimbursed program
 funds. (Audit Report: 2008-CH-1009)



     HUD OIG audited the City of Cincinnati, OH's HOME program and found that the City did not
 adequately manage its program. It incorrectly reported program contributions in its consolidated annual
 performance and evaluation reports, lacked sufficient documentation to support program contributions
 reported in its consolidated reports, inappropriately used program and American Dream Downpayment
 Initiative (Initiative) funds, failed to ensure that it sufficiently protected program funds, and lacked
 documentation to support its use of program and Initiative funds. In addition, the City did not comply with
 HUD's requirements in determining and reporting contributions for its program. It incorrectly reported in its
 consolidated reports to HUD nearly $2.6 million in program contributions from 31 Cincinnati Habitat for
 Humanity (Habitat) projects that did not qualify as affordable housing and was unable to support more than
 $1.8 million that it reported as program contributions in its consolidated reports to HUD. Further, the City
 inappropriately provided more than $220,000 in program funds for the 31 Habitat projects in which it did not
 sufficiently protect the program funds.

     OIG recommended that HUD require the City to (1) implement a detailed comprehensive written action
 plan to improve its procedures and controls to ensure that the City operates its program in accordance with
 HUD's and its own requirements, (2) remove incorrectly reported program contributions of nearly $2.6
 million from its consolidated reports to HUD, (3) provide support for more than $1.8 million or remove
 program contributions from its consolidated reports to HUD and obtain program contributions from nonfederal
 funds for housing that qualifies as affordable housing under the program, (4) reimburse its program from
 nonfederal funds and decommit program funds for the insufficiently protected Habitat projects, and
 (5) implement adequate procedures and controls to address the findings cited. (Audit Report:
 2008-CH-1014)



     HUD OIG audited the HOME program of the City of Cincinnati, OH, and found that the City did not
 effectively administer its reporting of activity data in HUD's system and failed to follow HUD's and its own
 requirements. It did not comply with HUD's requirements in its reporting of activity data in HUD's system.
 As a result, it did not decommit more than $114,000 in program funds accurately and in a timely manner and
 obligated more than $816,000 and drew down and disbursed nearly $442,000 in program funds for an activity
 without entering into a written agreement or contract with the owner or developer of the property or having a
 current specified plan for how the property would be used to provide affordable housing to low- and
 moderate-income individuals. The City also did not comply with HUD's regulations and its rental
 rehabilitation program manual in providing housing rehabilitation assistance for rental rehabilitation projects.
 As a result, it provided more than $397,000 in program funds to assist 11 units in three projects that did not
 qualify as affordable housing, was unable to support that it used more than $590,000 in program funds for
 appropriate projects, and did not ensure that it sufficiently protected more than $561,000 in program funds.

     OIG recommended that HUD ensure that the HOME funds the City decommitted as a result of the audit
 are committed and used for eligible activities. OIG also recommended that HUD require the City to
 (1) decommit HOME funds for completed activities, (2) move forward on providing housing for an activity or




Chapter 4: HUD’s Community Planning and Development Programs                                                    77
 reimburse its program from nonfederal funds and decommit HOME funds remaining for the activity,
 (3) reimburse the appropriate parties from nonfederal funds for the overpayments of rents or reimburse its
 program from nonfederal funds, (4) provide support or reimburse its program from nonfederal funds for the
 unsupported payments, (5) ensure that projects' owners obtain title insurance naming the City as coinsured for
 the projects or reimburse its program from nonfederal funds, and (6) implement adequate procedures and
 controls to address the findings cited. These procedures and controls should help to ensure that nearly $304,000
 in HOME funds is appropriately used over the next year. (Audit Report: 2008-CH-1010)



      HUD OIG audited the City of Jacksonville, FL/Duval County's HOME program and found that the City
 did not comply with program requirements for affordability/eligibility for three foreclosed multifamily rental
 rehabilitation projects and record keeping. It also had not established and maintained an adequate system for
 filing and retrieving program records. The review did not identify reportable violations concerning the City's
 compliance with the HOME program's commitment and 5-year expenditure requirements.

     OIG recommended that HUD require the City to (1) reimburse more than $2.7 million in funds
 approved for three foreclosed multifamily rental rehabilitation projects that did not accomplish the program's
 affordability requirement or meet other program eligibility requirements and (2) take appropriate actions to
 ensure that management and staff follow program requirements for approval and oversight of multifamily
 rental rehabilitation activities and improve its system for filing and maintaining program records. (Audit
 Report: 2008-AT-1012)



      HUD OIG audited the State of Maryland's HOME program and found that the State did not ensure that
 its single-family owner-occupied rehabilitation projects complied with HUD regulations and/or met the State's
 property standards. As a result, it used more than $42,000 in HOME funds for a project that did not comply
 with Federal regulations and was unable to support its use of $2.3 million in HOME funds for projects.

     OIG recommended that HUD require the State to reimburse its program from nonfederal funds for the
 ineligible project, provide documentation to support its use of more than $2 million or reimburse its program
 from nonfederal funds, ensure that housing rehabilitation work and required repairs are completed in
 accordance with HUD's or the State's standards or reimburse its program more than $205,000 from nonfederal
 funds, and implement adequate procedures and controls to address the findings cited. These procedures and
 controls should help ensure that nearly $75,000 in HOME funds is appropriately used over the next year for
 projects that comply with HUD's regulations and meet the State's standards. (Audit Report: 2008-PH-1008)



     HUD OIG audited the City of Muncie, IN's HOME Investment Partnerships program (HOME), and
 found that the City did not maintain an adequate system of controls to ensure that it committed HOME funds
 within HUD's 24-month commitment deadline and avoided losing the funds. As a result, it was required to
 commit more than $1.2 million in HOME funds for eligible activities by July 31, 2008, to avoid losing the
 funds. The City lacked documentation to support that it followed HUD's regulations and/or its requirements
 when it used HOME funds and/or program income to provide rehabilitation assistance; downpayments,
 closing costs, and/or gap financing; and tenant-based rental assistance for HOME activities. In addition, it




78                                              Chapter 4: HUD’s Community Planning and Development Programs
 improperly used HOME funds after an operating agency agreement with a subrecipient expired. Therefore, it
 was unable to support its use of more than $215,000 in HOME funds and income and improperly disbursed
 more than $6,000 in HOME funds.

     OIG recommended that HUD require the City to reimburse its program from nonfederal funds for the
 improper use of funds, provide support or reimburse its program from nonfederal funds for the unsupported
 payments, and implement adequate procedures and controls to address the findings cited. These procedures
 and controls should help ensure that HOME funds and income are used in accordance with HUD's
 regulations and the City's requirements and that the City does not lose more than $1.1 million in HOME
 funds over the next 5 months. (Audit Report: 2008-CH-1004)



     HUD OIG audited the HOME program of the City of Augusta, GA, and found that the City's controls
 over its HOME program were inadequate. As a result, more than $1 million in HOME funds involved
 questioned costs and funds that were subject to recapture. Specifically, the City did not (1) properly commit
 more than $755,000, (2) have proper documentation and analysis to support approvals and effectively address
 project performance delays, (3) ensure proper support for nearly $197,000, (4) ensure the eligibility of more
 than $92,000 for affordable housing compliance, and (5) properly maintain and manage program staff.

    OIG recommended that HUD require the City to (1) properly support or repay nearly $567,000 in
 questioned costs, (2) recapture more than $477,000 because of program violations, and (3) establish and
 implement proper controls and procedures to ensure compliance with program requirements. (Audit Report:
 2008-AT-1009)



      HUD OIG audited the City of Durham, NC's HOME program and found that the City did not advertise
 for homeowner rehabilitation contractors as required. Also, it did not take necessary affirmative steps to ensure
 that minority firms, women's business enterprises, and labor surplus area firms were used when possible. As a
 result, it could not support that the program activities were subject to full and open competition. In addition,
 it could not ensure that minority firms, women's business enterprises, and labor surplus area firms were given
 proper consideration.

     OIG recommended that HUD require the City to (1) provide documentation to support that the HOME
 program homeowner rehabilitation activities, totaling more than $790,000 for fiscal years 2006 and 2007,
 were awarded to the most responsible firm with a proposal that was most advantageous to the program,
 considering price and other factors, and (2) develop and implement procedures to ensure that future services
 for homeowner rehabilitation are procured in accordance with applicable federal procurement requirements.
 (Audit Report: 2008-AT-1015)



     HUD OIG audited the City of Durham, NC's HOME program and found that the City did not always
 perform required monitoring reviews or provide adequate evidence that monitoring reviews were performed.
 As a result, the City and HUD lacked assurance that HOME activities were conducted in accordance with the
 requirements or that the intended program benefits were realized. In addition, the City incorrectly used




Chapter 4: HUD’s Community Planning and Development Programs                                                     79
 HOME entitlement funds when program income funds were available for use and did not always make the
 required program income entries in HUD's Integrated Disbursement and Information System. As a result, the
 City's reporting to HUD was incorrect, and it unnecessarily drew down more than $158,000 to its local
 HOME investment trust fund account.

     OIG recommended that HUD require the City to (1) establish and implement effective written policies
 and procedures for monitoring HOME activities and reporting and using program income; (2) repay interest
 earned on program income that was not reported in a timely manner and used for HOME activities; and
 (3) establish the eligibility of funds disbursed for tenant-based rental activities, recalculate tenant rents and
 refund any overcharged tenants, and reimburse HUD for any payments determined to be ineligible. (Audit
 Report: 2008-AT-1011)



     HUD OIG reviewed the City of St. Louis, MO's use of HOME program funds and found that the City
 used HOME funds for costs that were not reasonable and necessary to produce housing for low-income
 families. Additionally, it did not establish adequate controls to ensure that it determined the proper amount of
 subsidy for HOME-funded development activities.

   OIG recommended that HUD require the City to design and implement a process to ensure that
 HOME-funded project costs are reasonable and necessary. (Audit Report: 2008-KC-1007)




80                                               Chapter 4: HUD’s Community Planning and Development Programs
 Investigation
      Some investigations discussed in this report were generated from leads provided by HUD CPD program
 staff or conducted jointly with Federal, State, and local law enforcement agencies. The results of various
 significant investigations are described below.


             Strategic Initiative 3: Contribute to the strengthening of communities
    Key program          Cases                      $               Convictions/pleas/                 Admin/civil
       results           closed                 recovered               pretrials                        actions
    Investigations         97                 $11,333,932                      18                          28

         Our            Page 82       - Theft/embezzlement
        focus           Page 84       - Other fraud/crimes




                Chart 4.2: Percentage of OIG community planning and development
                       closed investigation cases during this reporting period

                                                                                          Region 1
                                                                                            0%
                                   Region 7-8               Region 5        Region 2
                                      1%                      5%              9%




                                                                                            Region 3
       Region 9-10                                                                            7%
           7%



                                                                                 Region 4
                                   Region 6                                        3%
                                     7%


                                                                    Region 11
                                                            (Disaster Relief Oversight)
                                                                       61%




Chapter 4: HUD’s Community Planning and Development Programs                                                         81
 Theft/Embezzlement
      Murilda and James Hayes, the former executive director and treasurer for the Love Social Services Center
 (Love SSC), an organization that receives HUD Economic Development Initiative grants and U.S.
 Department of Justice (DOJ) funding, were collectively sentenced in U.S. District Court, Fairbanks, AK, to
 102 months incarceration and ordered to pay HUD $658,534 and DOJ $103,292 in restitution for their
 earlier convictions of misapplication from an organization receiving Federal funds; filing a false Federal income
 tax return; and committing conspiracy, money laundering, fraud, and theft. From 2000 through 2005, Murilda
 and James Hayes embezzled and personally used more than $825,000 in Love SSC funds without
 authorization.



     Robert Broadway, the former executive director for the 21 Century Homestead, Inc., an organization that
 receives HUD CDBG and other funds, was charged in Shawnee County District Court, Topeka, KS, with
 making false writings. From 2003 through 2007, Broadway allegedly provided false information on HUD and
 State funding applications and obtained $812,000 in HUD and State funds he was not entitled to receive.



      Constance Post, also known as Gerrie Post, the executive director for the Mount Vernon Urban Renewal
 Agency (Mount Vernon) and a commissioner for the Mount Vernon Department of Planning and
 Community Development, organizations that receive HUD CDBG funds, and Wayne Charles, president of
 the Charles Group and owner of Micros Only Computer Concepts (Micros), both previously indicted in U.S.
 District Court, White Plains, NY, for conspiracy to commit mail fraud and making false statements, were each
 suspended from procurement and nonprocurement transactions with HUD and throughout the Executive
 Branch of the Federal Government pending the outcome of criminal proceedings or any related debarment
 actions. Post allegedly awarded $1.1 million in Mount Vernon computer contracts to Micros without
 obtaining bids from others, provided the Charles Group with a $500,000 loan from Mount Vernon funds and
 failed to disclose the loan in Mount Vernon books and records, and concealed about $30,000 she personally
 received from Charles.



      Gordon Choyce II, the director for Jubilee Restoration, Inc., a nonprofit organization that receives HUD
 Supportive Housing program funds for homeless youths, was indicted in U.S. District Court, Oakland, CA,
 for submitting fraudulent claims to HUD. From 2002 through 2004, Choyce allegedly submitted $199,476
 in fraudulent claims for fabricated or previously compensated counseling services. Choyce was also suspended
 from procurement and nonprocurement transactions as a participant or principal with HUD and throughout
 the Executive Branch of the Federal Government pending the outcome of criminal proceedings or any related
 debarment actions.



     Leo Hardy, Jr., and Shirley Hardy Walden, the former president and treasurer of Southampton County
 Assembly (Southampton), an organization that receives HUD HOME funds, were collectively sentenced in
 U.S. District Court, Norfolk, VA, to 11 months incarceration, 11 months home detention, and 6 years




82                                               Chapter 4: HUD’s Community Planning and Development Programs
 supervised release and ordered to pay HUD $125,000 in restitution for their earlier guilty pleas to making false
 statements. Hardy and Walden used $125,000 in Southampton funds for projects not related to HUD
 programs.



     Phyllis Tate, the grant administrator for the Golden Triangle Planning and Development District (Golden
 Triangle), an organization that receives HUD HOME funds, was sentenced in U.S. District Court, Oxford,
 MS, to 18 months home detention and 3 years probation for her earlier guilty plea to conspiracy. From March
 2004 to August 2005, Tate and others created fictitious invoices and building inspections for nonexistent
 homes, deposited Golden Triangle payments into bank accounts controlled by others, and used about $80,751
 in Golden Triangle funds for their personal benefit.



     Connie Kuzma, a former program manager for the Northern Cambria Community Development
 Corporation (Northern Cambria), an organization that receives HUD HOME funds, pled guilty in U.S.
 District Court, Johnstown, PA, to embezzlement. Kuzma failed to report her correct income or actual
 household composition on Northern Cambria loan applications, fraudulently obtained two HOME loans and
 a grant totaling $49,450, and removed the Northern Cambria HOME liens from the property deed without
 authorization.



     James Fantroy, Sr., the former treasurer for the Paul Quinn College Community Development
 Corporation (Paul Quinn CDC), the recipient of a HUD Historically Black College and University grant, was
 sentenced in U.S. District Court, Dallas, TX, to 180 days home confinement and 2 years supervised release
 and ordered to pay Paul Quinn College $17,938 in restitution for his previous conviction of committing theft
 from a program receiving Federal funds. Fantroy remitted $30,062 to Paul Quinn CDC before sentencing and
 chose 30 days incarceration after he was given the option to either publicly confess and apologize for his crime
 or spend 30 days in prison. Fantroy obtained and personally used about $48,000 in Paul Quinn CDC funds
 without authorization.




                                  Copyright, 2008. The Dallas Morning News - Dallas, TX. Reprinted with permission.




Chapter 4: HUD’s Community Planning and Development Programs                                                      83
     Margare Segura, also known as Margare Lewis, a case manager for the
 Catholic Charities of the Archdiocese of New Orleans (Catholic Charities),
 an organization that receives HUD Supportive Housing program funds, was
 indicted in U.S. District Court, New Orleans, LA, for conspiracy to defraud
 the government. In addition, fabricated Catholic Charities landlords Deborah
 Knighten and Lola Davis each pled guilty to conspiracy. Segura and others
 allegedly and Knighten and Davis admittedly conspired and created fake
 landlords and nonexistent homeless families to conceal their personal use of
 $35,217 in Catholic Charities funds.



     Steven Scott, a former City of New Brunswick housing inspector, was
 sentenced in U.S. District Court, Newark, NJ, to 3 years probation and
 ordered to pay HUD $19,940 in restitution for his earlier guilty plea to
 committing theft of public funds. Scott used the identification of another
 when he applied for and obtained $19,940 in HUD housing rehabilitation
 grants funds.



     Kip Wadsworth, a HUD Self-Help Homeownership Opportunity
 Program (Self-Help) grant recipient, was named in a False Claims Act civil
 complaint filed in U.S. District Court, Boise, ID. Wadsworth allegedly
 submitted false income and asset information when he applied for and
                                                                                    Copyright, 2008. The Times-
 received $10,000 in Self-Help grant funds and a $95,000 Rural                      Picayune - New Orleans, LA.
 Development loan from the U.S. Department of Agriculture.                            Reprinted with permission.



     Anthony Roper was sentenced in U.S. District Court, New York City, NY, to 36 months probation and
 ordered to perform 100 hours of community service and pay HUD $6,750 in restitution for his earlier guilty
 plea to committing theft of government funds. Roper fraudulently applied for and received a HUD CDBG
 Disaster Recovery Assistance 9/11 Residential grant, but Roper did not live or hold an apartment lease in the
 lower Manhattan area on September 11, 2001.

 Other Fraud/Crimes
     Raymond Vella, the owner of Pavel Construction, a contractor for the Linden Neighborhood Preservation
 program (Linden NP), an organization that receives HUD CDBG and HOME funds, was indicted in U.S.
 District Court, Newark, NJ, for committing mail fraud, offering and giving a corrupt thing of value, and
 obtaining property by fraud. From January 1998 to December 2006, Vella paid bribes to an unnamed
 conspirator in exchange for more than $652,448 in Linden NP contracts. In addition, Venancio Ribeiro, a
 partner in the Cota Corporation and a contractor for Linden NP, pled guilty to mail fraud and criminal
 forfeiture. From January 1998 to December 2006, Ribeiro paid bribes to an unnamed conspirator in exchange
 for more than $1.5 million in Linden NP program contracts.




84                                             Chapter 4: HUD’s Community Planning and Development Programs
                                         Copyright, 2008. The Miami Herald - Miami, FL. Reprinted with permission.


     Matthew Price, the former director for the Florida City Housing and Economic Development, an
 organization that receives HUD HOME funds, and Jennifer Stimpson, a broker for Venture Mortgage Invest-
 ments, were collectively sentenced in U.S. District Court, Miami, FL, to 123 months incarceration and 72
 months supervised release and ordered to perform 1,500 hours of community service and pay restitution and
 fines not yet determined for their earlier guilty pleas to conspiracy to commit mail and wire fraud. Price,
 Stimpson, and others conspired to obtain mortgage funding from contractors in exchange for discounted sales
 of city-owned properties, including a property constructed with HUD HOME and CDBG funds.



     William Walker, the former director for both the City of New Brunswick Neighborhood Preservation and
 the Housing Rehabilitation programs, organizations that receive HUD CDBG and HOME funds, pled guilty
 in U.S. District Court, Newark, NJ, to conspiracy to extort under color of law, soliciting and accepting corrupt
 payments, and filing a false Federal income tax return. Walker accepted $112,500 in bribes from construction
 and maintenance companies under contract with both HUD-funded programs identified above and failed to
 report the kickbacks on his Federal income tax return.



     Linda Roach, a former supervisory clerk for the City of New Brunswick Department of Community
 Planning and Economic Development (New Brunswick CPED), an organization that receives HUD CDBG
 funds, was debarred from procurement and nonprocurement transactions with HUD and throughout the
 Executive Branch of the Federal Government for three years. Roach, who was previously sentenced in U.S.
 District Court, Newark, NJ, for her guilty plea to receiving corrupt payments, accepted cash payments from
 New Brunswick CPED contractors in exchange for expedited contract payments.




Chapter 4: HUD’s Community Planning and Development Programs                                                     85
      Juanita Dennis, the former executive director for the Urban Youth Development Corporation, Inc., a
 Newark, NJ, organization that receives HUD Supportive Housing and Shelter Plus Care funds, was issued a
 limited denial of participation and prohibited from participating in specific HUD programs. Dennis allegedly
 failed to comply with HUD regulations and contract provisions governing the HUD-funded Supportive Housing
 and Shelter Plus Care programs. HUD losses are not yet determined.



     Heather Little, an employee for the Columbus House, a homeless shelter that receives HUD Emergency
 Shelter and CDBG funds, pled guilty in U.S. District Court, Bridgeport, CT, to possession of stolen mail. In
 addition, Marie Smith, Colleen London, and Charmaine Wright, a Connecticut Housing Finance Authority
 Section 8 tenant, were collectively sentenced to 24 months and 2 days incarceration, 6 months home confine-
 ment, and 3 years supervised release and ordered to pay the U.S. Department of the Treasury, the U.S. Postal
 Service, and others $15,805 in restitution for their earlier guilty pleas to possession of stolen mail or altering
 stolen U.S. Treasury checks. The above defendants and others stole, altered, and negotiated U.S. Treasury
 checks delivered to the Columbus House.




86                                               Chapter 4: HUD’s Community Planning and Development Programs
    Chapter 5
Hurricane Relief
  Oversight
                                 Investigation cases closed by program area*




              60                   59

              50
              40

              30
              20                                                                      2
                                                           13
              10

                0           Community                   Public              Multifamily
                            planning and              and Indian             housing
                            development                 housing

     * Total number of hurricane-related cases, some of which may have been worked in different States due to relocation
     of evacuees.




88                                                                                    Chapter 5: Hurricane Relief Oversight
  Introduction and Background
      Disasters in 2008 continue to be a challenge for the U.S. Department of Housing and Urban Development
  (HUD). After the spring floods in the Midwest and fires in California, the Gulf Coast was hit by two more
  major hurricanes: Gustav and Ike. Ike caused significant homeowner destruction in Texas along the Gulf
  Coast including the cities of Galveston and Houston. Gustav caused damage in Louisiana, in and around New
  Orleans, as well as in the city of Baton Rouge. In response, Congress enacted the "Consolidated Security
  Disaster Assistance, and Continuing Appropriations Act, 2009." HUD received more than $6.1 billion in
  emergency supplemental funding for rental assistance, the Public Housing Capital Fund, and community
  development funds. As these disaster funds are awarded to various States, Office of Inspector General (OIG)
  audit, investigative, and inspection staff resources will be allocated accordingly, since disaster funding is
  particularly vulnerable to waste, fraud, and abuse.

      After unprecedented storm damage caused by hurricanes Katrina, Rita, and Wilma, the OIG audit,
  investigative, and inspections staff have been diligently providing oversight to the approximately $20 billion
  allocated in three separate supplemental disaster fundings. For the period ending September 30, 2008, more
  than $10.5 billion has been disbursed by the five Gulf States-Alabama, Florida, Louisiana, Mississippi, and
  Texas-for disaster recovery.

      During the past year, the OIG Office of Audit (OA), Gulf Coast Region has issued seven reports resulting
  in findings of questioned costs of more than $20 million. During the current period, OA will continue to
  pursue audits of Louisiana's largest disaster program, the Road Home program. In addition to this
  homeowner program, OA has identified other high-risk areas that will require immediate attention. These
  areas include the following: economic development, Texas Homeowner Program, and Gulf Coast regional
  infrastructure programs.

      During this reporting period, the Office of Investigation (OI) opened 120 and closed 77 investigations in
  the Gulf Region disaster relief program areas. Judicial action taken on these cases included $510,221 in
  investigative recoveries; more than $10.3 million in administrative recoveries; more than $10.2 million in
  funds put to better use; 25 indictments or informations; 23 convictions, pleas, or pretrial diversions; 26
  administrative actions; and 25 arrests.

  Hurricane Financial Profiles of HUD Community Development Block
  Grant Funds
       The chart on the next page provides a status as of September 30, 2008, of the HUD Community
  Development Block Grant (CDBG) disaster funds appropriated to the five Gulf States. Also on the next page
  is a summary of the homeowners programs for Mississippi and Louisiana. HUD's distribution of the funds
  and receipt and use of the funds by State agencies, contractors, consultants, homeowners, and evacuees are
  being tracked and monitored for waste, fraud, and abuse by HUD OIG OA and OI.




Chapter 5: Hurricane Relief Oversight                                                                          89
 Disaster Community Development Block Grant
              States                 Allocations                 Disbursements                  Balance
                                                    Alabama
     1st & 2nd                      $95,613,574                   $26,180,546                $69,433,028
     supplemental total
                                                     Florida
     1st & 2nd                     $182,970,518                   $11,902,620                $170,853,304
     supplemental total
                                                    Louisiana
     1st, 2nd & 3rd               $13,410,000,000               $8,015,609,109              $5,394,390,891
     supplemental total
                                                   Mississippi
     1st & 2nd                    $5,481,221,059                $2,445,775,427              $3,035,445,632
     supplemental total
                                                      Texas
     1st & 2nd                     $503,194,849                   $71,446,554                $431,748,295
     supplemental total
              Totals              $19,673,000,000              $10,570,914,257              $9,101,871,150



 State of Louisiana
 The Road Home Program (authorized $9.99 billion; disbursed $7.45 billion to the grantee)
      The Road Home program is the major program set up to rebuild Louisiana's impacted communities.
 Devastated communities will be subjected to abandoned homes, clouded land titles, and disinvestments if a
 large portion of the financial assistance is not provided to homeowners. Some owner-occupants, however, may
 choose none of the basic options to repair, rebuild, or relocate in Louisiana. In these instances, the State will
 compensate the homeowner for 60 percent of the home's prestorm value, less insurance and Federal
 Emergency Management Agency (FEMA) repair funds. The State of Louisiana received an additional $3
 billion in emergency funding in November 2007. The status of the Road Home program is described below.




90                                                                              Chapter 5: Hurricane Relief Oversight
                                 State of Louisiana homeowner program status
                                        Community Planning and Development
                                           Community Development Fund
                                              The Road Home snapshot
                                        Analysis of the homeowner applications
                                                   State of Louisiana
                                           Status as of September 30, 2008
                                  Line items                                                    Totals
   Total applications received and recorded to date                                        185,106 (final)
   Closings held                                                                              117,975
   Average award                                                                              $59,900
  Source of Funds: Emergency Supplemental Appropriations I, II, & III (P.L. 109-148, P.L. 109-234, & P.L. 110-116)


  State of Mississippi
  Homeowner Grant Assistance Program (authorized $2.6 billion; disbursed $1.8 billion to the
  grantee)
     The purpose of the Homeowner Grant Assistance program is to provide a one-time grant payment
  (maximum $150,000) to eligible homeowners who had suffered flood damage to their primary residence as of
  August 29, 2005, from Hurricane Katrina. The Homeowner Grant Assistance program is designed to provide
  compensation to those impacted by the hurricane.

      Also noted: There is no requirement that the homeowner occupy the property after replacement/
  rehabilitation work is completed. After certain deductions, homeowners have complete discretion over the use
  of grant funds, as allowable by State and Federal law, as they work through their personal disaster recovery
  situation. The status of the Mississippi homeowner program is described below.

                                 State of Mississippi homeowner program status
                                   The Homeowner Grant Assistance Program
                                 Snapshot analysis of the homeowner applications
                                               State of Mississippi
                                        Status as of September 30, 2008
                                  Line items                                                    Totals
   Applications received                                                                       31,019
   Grants paid                                                                                 23,651
   Dollar value of grants paid                                                               $1.7 billion
   Average grant paid                                                                         $74,034
  Source of Funds: Emergency Supplemental Appropriations I & II (P.L. 109-148 and P.L. 109-234) 96



Chapter 5: Hurricane Relief Oversight                                                                                91
 Audits




 Emerging Oversight Trends
     Currently, auditors are evaluating the Housing Authority of New Orleans as part of a congressional
 request. It should be noted that OA is monitoring the funding for Louisiana's Road Home program, which
 exceeds $9 billion, and the amount obligated for Mississippi's homeowner program, which totals $2.6 billion.
 In addition to these programs, OA has identified other high-risk areas that will require immediate attention.
 These areas include the following:

      - Economic development (Small Business Loan Program)

      - Texas Homeowner Program

      - Gulf Coast regional infrastructure programs

 Final Audit Products
     The HUD OIG OA Gulf Coast Region has completed seven audits of the supplemental funding during
 fiscal year (FY) 2008 with two audits completed during the current semiannual period. For FY 2008,
 questioned costs totaled more than $20 million, of which $4 million represents questioned costs for the
 current semiannual period audit reports.

    HUD OIG audited the State of Mississippi's Development Authority's Homeowners Assistance Program,
 implemented by Reznick Mississippi, LLC, to determine whether the Authority ensured that the contingency
 amounts were eligible and supported.




92                                                                          Chapter 5: Hurricane Relief Oversight
       The Authority executed a contract, which included an ineligible provision that allowed its contractor to
  bill and receive payment for ineligible and unsupported contingency amounts. The Authority paid these
  amounts to its contractor because it was unaware of Federal prohibitions. As a result, it paid its contractor for
  ineligible and unsupported contingency amounts. In addition, contingency amounts in the contract remained
  unpaid and could be put to better use.

      OIG recommended that HUD require the Authority to (1) repay the Program from nonfederal funds
  more than $3.9 million, which it disbursed for ineligible and unsupported contingency amounts; (2) cease
  making further contract payments for more than $243,000 in contingency amounts, which could be put to
  better use; and (3) develop and implement a process to ensure that all future contracts and amendments
  involving State of Mississippi CDBG disaster recovery funds do not include such ineligible provisions and
  amounts. (Audit Report: 2008-AO-1003)



       HUD OIG audited the State of Louisiana's additional grant component of the Road Home homeowner
  assistance program, managed by the State's contractor, ICF Emeregency Management Services, LLC, Baton
  Rouge, LA, in conjunction with the OIG Gulf Coast Region's audit plan and examination of relief efforts
  provided by the Federal government in the aftermath of Hurricanes Katrina and Rita. The audit objectives
  were to determine whether (1) applicants were eligible to receive the grant and (2) the State ensured that grant
  income policies and procedures were in accordance with HUD rules and regulations and that its contractor
  followed them.

      The State implemented grant income policies and procedures as required by HUD rules and regulations.
  However, those policies and procedures were not sufficient to ensure that all applicants were eligible to receive
  their grant. Of 45 grants sampled, the State funded nine grants, totaling nearly $264,000, that were either
  ineligible or unsupported. In addition, the State did not ensure that its contractor followed its policies and
  procedures for another 24 grants, but the errors did not impact the grants' (or grantees') eligibility. These
  conditions existed because the State did not ensure that its contractor's controls were sufficient to catch errors
  and that its policies and procedures were followed when determining eligibility. Further, although the State's
  contractor performed a review of all 45 grants sampled, issues remained undetected.

      OIG recommended that HUD require the State to repay amounts disbursed for ineligible grants by its
  Road Home program, either support or repay amounts disbursed for unsupported grants, ensure that its
  contractor follows established policies and procedures, ensure that its contractor's postclosing reviews detect
  and correct errors, and review the remaining 21,672 grants disbursed between June 12, 2006, and October 13,
  2007, to ensure that grants were eligible and supported. By reviewing these grants, OIG estimates that the
  value of questioned costs will total more than $70 million for grant disbursements to ineligible participants
  and more than $57.4 million for grant disbursements to participants whose eligibility was not adequately
  supported. (Audit Report: 2008-AO-1005)




Chapter 5: Hurricane Relief Oversight                                                                              93
 Investigations




     OI has focused on fraud in all major disasters during this reporting period. OI and OA have been actively
 overseeing a program of combating waste, fraud, and abuse in the disbursements of more than $26 billion in
 HUD funding for Hurricane Katrina and other major disasters in the Gulf Coast region, Florida, California,
 and the Midwest.

     In an effort to coordinate efforts, OI performs outreach actions to law enforcement partners, State
 agencies, HUD multifamily owners and managers, HUD public housing agencies (PHA), and HUD
 personnel. OI has been a dedicated partner in the Hurricane Katrina Fraud Task Force (HKFTF) Command
 Center in Baton Rouge, LA., which was recently renamed the "National Center for Disaster Fraud" (NCDF)
 Task Force. OI worked closely with law enforcement agencies on complaints, intelligence, and joint
 investigations regarding disaster fraud. During this reporting period, the NCDF Task Force received 4,900
 complaints and referred 2,122 complaints for investigation, to include 137 referred to HUD OIG OI.

    Hurricane Katrina disaster fraud has been the primary disaster-related investigative focus since August
 2005. A majority of Gulf Coast OI cases have been with the Mississippi and Louisiana homeowner assistance
 programs and HUD's new Disaster Housing Assistance Program (DHAP).

     The homeowners assistance programs have provided grants to Hurricane Katrina homeowners in both
 States (for homes valued at $150,000 or less), who had flood damage to their primary residence. One example
 of the program is the Louisiana homeowners assistance program, Road Home, which has received more than
 185,000 applications and disbursed $7 billion in HUD CDBG funds since its inception. OI has hundreds of
 joint agency investigations of false grant applications by State homeowners. Criminal information for
 investigation was referred by both the Mississippi Development Authority (MDA) and Louisiana
 Redevelopment Authority (State agencies).




94                                                                          Chapter 5: Hurricane Relief Oversight
     DHAP is administered by HUD and the PHAs to provide temporary disaster housing assistance and case
  management services for about 45,000 FEMA families. The HUD Office of Public and Indian Housing's
  (PIH) interagency agreement (IAA) with FEMA has been operating DHAP with $565 million in FEMA grant
  funds. OI has been working jointly with HUD PIH, the NCDF Task Force, and the U.S. Department of
  Homeland Security OIG to investigate criminal cases of duplicate benefits by HUD and/or FEMA landlords
  and other fraud by HUD tenants. Criminal information on DHAP was referred to OI by HUD PIH from its
  computer matching operations.

     OI has been working closely with HUD PIH on antifraud measures and investigations of another new
  DHAP program, named DHAP-Ike, in response to the Hurricane Ike disaster in Texas and Louisiana. HUD
  PIH has another IAA with FEMA for this program with $478 million in FEMA grant funds.

      Some of the investigations discussed in this report were conducted jointly with Federal, State, and local law
  enforcement agencies, including the NCDF Task Force. Following the Attorney General's policy of "zero
  tolerance" in relation to Hurricane Katrina fraud and similar criminal activity following other major disasters,
  OIG pursues all allegations of waste, fraud, and abuse in HUD's disaster benefit programs. The results of
  various significant investigations are described below.

  Homeowner Grant Fraud
      Jerome and Catherine Foreman were each indicted in U.S. District Court, Jackson, MS, for committing
  theft of government funds and making false claims and statements. They allegedly applied for and obtained
  $150,000 in CDBG Disaster Recovery funds through MDA and $8,706 in FEMA
  disaster assistance for hurricane-damaged residential property, but the property
  damaged was not their primary residence during the storm.



      Barbara Dowl was indicted in U.S. District Court, New Orleans, LA, for
  committing theft of government funds and wire fraud. Dowl allegedly applied for and
  obtained $132,000 in CDBG Disaster Recovery funds through Louisiana's Road Home
  program and $46,000 in Small Business Administration (SBA) disaster assistance for
  hurricane-damaged residential property, but she did not own or reside in the damaged
  property during the storm.



      Elaine Rougeau, the recipient of a Road Home disaster assistance grant, entered
  into a civil settlement filed in U.S. District Court, Baton Rouge, LA, and agreed to pay
  the Louisiana Redevelopment Authority $99,355. Rougeau filed for bankruptcy and
  defaulted on her mortgage after she obtained $127,355 in Road Home funds.




                                                                                              Copyright, 2008. The
                                                                                        Advocate- New Orleans, LA.
                                                                                         Reprinted with permission.



Chapter 5: Hurricane Relief Oversight                                                                             95
     Candice McMillian was charged in U.S. District Court, New Orleans, LA, with making a false statement.
 McMillian applied for and received $150,000 in SBA disaster assistance for her hurricane-damaged primary
 residence, but she allegedly submitted false invoices and used the SBA funds to rehabilitate a rental property
 instead. After McMillian allegedly used the SBA disaster assistance to fraudulently rehabilitate a rental
 property, she legitimately applied for and received $150,000 in CDBG Disaster Recovery funds through the
 Road Home program. Her acceptance into the Road Home program caused the Road Home administrator to
 remit $89,000 in CDBG funds to pay for McMillian's alleged fraudulent SBA loan.



     Doris Wilkerson was sentenced in U.S. District Court, Gulfport, MS, to 7 months incarceration and 3
 years supervised release, ordered to perform 100 hours of community service and pay FEMA $17,133 in
 restitution, and fined $25,000 for her guilty plea to making false statements and committing theft of
 government funds. Wilkerson applied for and received FEMA disaster assistance and $74,008 in CDBG
 Disaster Recovery funds through MDA for hurricane-damaged residential property, but the property damaged
 was not her primary residence during the storm.



     Clinton Tapper, Jr., was indicted in U.S. District Court, Jackson, MS, for making false statements and
 claims, committing theft of government funds and wire and mail fraud, and submitting fraudulent loan and
 credit applications. Tapper allegedly applied for and received $14,006 in FEMA and $169,400 in SBA disaster
 assistance and attempted to obtain $150,000 in CDBG Disaster Recovery funds through MDA for
 hurricane-damaged residential property, but the property damaged was not his primary residence during the
 storm.



    Lee Taylor was sentenced in U.S. District Court, Gulfport, MS, to 30 months incarceration and 36 months
 supervised release and ordered to perform 100 hours of community service and repay FEMA $30,241 and
 Rebuild Jackson County $66,764 in restitution for his conviction of making false claims. Taylor applied for
 and received FEMA and Rebuild Jackson County disaster assistance and attempted to obtain $150,000 in
 CDBG Disaster Recovery funds through MDA for hurricane-damaged residential property, but Taylor did not
 own or occupy the damaged property during the storm.



     Roger and Annette Williams each pled guilty in U.S. District Court, Gulfport, MS, to making false
 statements and committing theft of government funds and Federal program fraud. They applied for and
 obtained $17,814 in FEMA, $80,600 in SBA, and $13,667 in U.S. Department of Agriculture (USDA)
 disaster assistance and attempted to obtain $150,000 in CDBG Disaster Recovery funds through MDA for
 hurricane-damaged residential property, but Roger and Annette Williams did not occupy the damaged
 property during the storm.




96                                                                           Chapter 5: Hurricane Relief Oversight
      William and Isabel Bates were collectively sentenced in U.S. District
  Court, Gulfport, MS, to 5 months incarceration, 11 months home
  confinement, and 8 years supervised release; ordered to perform 120 hours
  of community service and pay FEMA $12,969 in restitution, jointly and
  severally; and fined $22,500 for their guilty pleas to making false statements
  and theft of government funds. They applied for and received $12,969 in
  FEMA disaster assistance and attempted to obtain an SBA disaster loan and
  $120,000 in CDBG Disaster Recovery funds through MDA for
  hurricane-damaged residential property, but the property damaged was not
  their primary residence during the storm.



      Nealie and Joe Rudolph were each indicted in U.S. District Court,
  Gulfport, MS, for making false claims and statements, committing wire and
  mail fraud, and civil forfeiture. They allegedly applied for and received
  $11,858 in FEMA and $1,810 in USDA disaster assistance and allegedly
  attempted to obtain $71,887 in CDBG Disaster Recovery funds through
  MDA for hurricane-damaged residential property, but the property
  damaged was not their primary residence during the storm.


                                                                                    Copyright, 2008. The Clarion-
       Beatrice and Leverne Moses were each indicted in U.S. District Court,       Ledger - Jackson, MS. Reprinted
  Jackson, MS, for making false statements, submitting false claims,                               with permission.
  committing theft of government funds and mail fraud, and aiding
  and abetting. They allegedly applied for and received $24,790 in FEMA disaster
  assistance and allegedly attempted to obtain $52,300 in CDBG Disaster Recovery funds
  through MDA for hurricane-damaged residential property, but the property damaged
  was not their primary residence during the storm.



       Catherine Pruitt was sentenced in U.S. District Court, Gulfport, MS, to 10 months
  incarceration and 36 months supervised release and ordered to perform 40 hours of
  community service and pay FEMA $4,358 in restitution for her guilty plea to making
  false statements and committing mail fraud. Pruitt applied for and received $4,358 in
  FEMA disaster assistance and attempted to obtain $100,000 in CDBG Disaster
  Recovery funds and $30,000 in Elevation grant funds through MDA for hurricane-
  damaged residential property, but the property damaged was not her primary residence
  during the storm.



                                                                                     Copyright, 2008. Hattiesburg
                                                                                     American - Hattiesburg , MS.
                                                                                       Reprinted with permission.




Chapter 5: Hurricane Relief Oversight                                                                             97
 HUD and FEMA Disaster Housing Assistance Fraud
    Kim Pounds, a HUD and FEMA Hurricane Katrina DHAP participant, was indicted in U.S. District
 Court, Los Angeles, CA, for committing mail fraud. From September 2005 to May 2008, Pounds allegedly
 applied for and received $34,507 in FEMA and $6,710 in HUD disaster housing assistance after she claimed
 Hurricane Katrina evacuee status, but Pounds resided in California during the storm.



      Phyllis Taylor, a former Housing Authority of New Orleans public housing
 tenant and current Hurricane Katrina DHAP participant, was indicted in U.S.
 District Court, Houston, TX, for committing disaster assistance fraud, aggravated
 identity theft, and mail fraud. Taylor allegedly used numerous false Social Security
 numbers and Louisiana addresses when she submitted 12 fraudulent claims for FEMA
 disaster assistance. In addition, Taylor allegedly applied for FEMA disaster
 assistance after she claimed hurricane-damaged residential property in Galveston,
 TX, but Taylor resided in Houston, TX, during Hurricane Ike.



     Eric Gibbs, a HUD and FEMA Hurricane Katrina DHAP participant, was
 indicted in U.S. District Court, Houston, TX, for making false claims. Gibbs
 allegedly applied for and received FEMA disaster assistance and HUD and FEMA
 disaster housing assistance after he claimed residential property damage from
 Hurricane Katrina, but Gibbs never owned property in Louisiana and resided in
 Houston, TX, during the storm.

 FEMA and Other Fraud by HUD Tenants
     Erica Prince, a former Houston Housing Authority Section 8 tenant, and eight
 conspirators were each sentenced in U.S. District Court, Houston, TX, for their
 earlier guilty pleas to conspiracy to file false, fictitious, or fraudulent claims.
 Collectively, the above defendants were sentenced to 68 months incarceration and
 28 years probation and ordered to pay FEMA $104,958 in restitution. Prince and
 others filed 77 fraudulent claims and obtained $92,958 in FEMA disaster assistance
 they were not entitled to receive.

                                                                                    Copyright, 2008. The Houston
     Renada Thornton, a former Slidell Housing Authority Section 8 tenant,              Chronicle - Houston, TX.
 was sentenced in U.S. District Court, New Orleans, LA, to 5 years probation           Reprinted with permission.
 and ordered to pay the American Red Cross (Red Cross) $17,015 in restitution
 for her earlier guilty plea to committing wire and mail fraud. Thornton fraudulently claimed hurricane evacuee
 status on 14 separate occasions and obtained $17,015 in Red Cross disaster assistance she was not entitled to
 receive.




98                                                                           Chapter 5: Hurricane Relief Oversight
     Mark Johnson, a Baton Rouge Housing Authority public housing tenant, was sentenced in U.S. District
  Court, Baton Rouge, LA, to 3 months incarceration and 36 months supervised release and ordered to pay
  FEMA $8,017 in restitution for his earlier guilty plea to making false claims. Johnson applied for and received
  FEMA disaster assistance after he claimed personal property damage from Hurricane Katrina, but the Baton
  Rouge Housing Authority suffered no storm damage, nor were tenants evacuated.



       Shaunena Staple, a former Mississippi Regional Housing Authority VIII Section 8 tenant, was sentenced
  in U.S. District Court, Minneapolis, MN, to 5 years probation and ordered to pay FEMA $8,225 in
  restitution for her earlier guilty plea to making a false claim. Staple applied for and received $5,688 in housing
  assistance and $2,537 in FEMA disaster assistance after she claimed Hurricane Katrina evacuee status and
  personal property damage, but Staple resided in Minnesota during the storm.



      Tameka Laflore, a Mississippi Regional Housing Authority VIII Section 8 tenant, was indicted in U.S.
  District Court, Hattiesburg, MS, for unauthorized use of an automatic teller machine. Laflore allegedly
  claimed Hurricane Katrina evacuee status on four separate occasions at the Red Cross centers in Mississippi
  and Alabama and allegedly obtained $6,495 in Red Cross disaster assistance she was not entitled to receive.



      Sharon Dailey, a Fairfield Housing Authority (Fairfield) Section 8 applicant, was sentenced in U.S. District
  Court, Sacramento, CA, to 25 months incarceration and 60 months supervised release and ordered to pay
  FEMA $4,358 in restitution for her earlier guilty plea to submitting false claims and committing credit
  application fraud. Dailey applied for and received FEMA disaster assistance after she claimed Hurricane Katrina
  evacuee status, but Dailey resided in California during the storm. Dailey also used a false Social Security
  number to apply for Fairfield housing assistance, obtain a bank loan, and cash fraudulent checks.



       Linda Southall, a former Thibodaux Housing Authority public housing tenant, was sentenced in U.S.
  District Court, New Orleans, LA, to 3 years supervised probation and ordered to pay FEMA $2,377 in
  restitution for her earlier guilty plea to committing theft of government funds. Southall applied for and
  received FEMA disaster assistance after she claimed personal property damage from Hurricane Katrina, but the
  Thibodaux Housing Authority suffered no storm damage, nor were tenants evacuated.



      Debra Jackson, an East Baton Rouge Housing Authority (East Baton Rouge) Section 8 tenant, was
  indicted in U.S. District Court, Baton Rouge, LA, for allegedly making false claims and committing wire
  fraud. In addition, former East Baton Rouge public housing tenant Tammy Dabney was sentenced to 3 years
  probation and ordered to perform 25 hours of community service and pay FEMA $2,000 in restitution for her
  earlier guilty plea to making false claims. Jackson allegedly and Dabney admittedly applied for and received
  FEMA disaster assistance after they claimed personal property damage or Hurricane Katrina evacuee status,
  but East Baton Rouge suffered no storm damage, nor were tenants evacuated.




Chapter 5: Hurricane Relief Oversight                                                                              99
     Michelle Chapman and Janale King, San Francisco Housing Authority (San Francisco) Section 8 tenants,
 each pled guilty in U.S. District Court, San Francisco, CA, to committing theft of government funds. In
 addition, San Francisco housing recipients Chemeca Gant and Aaron Jones were collectively sentenced to 3
 years probation and ordered to pay FEMA $4,358 in restitution for their earlier guilty pleas to committing
 theft of government funds. The above defendants each applied for and received FEMA disaster assistance after
 they claimed to be displaced victims of Hurricane Katrina, but each defendant resided in San Francisco
 subsidized housing during the storm.



     Brenda Frazier, a current Housing Authority for the City of Fresno Section 8 tenant, was indicted in U.S.
 District Court, Fresno, CA, for filing a false claim, making false statements, and committing mail fraud.
 Frazier allegedly applied for and received FEMA disaster assistance after she claimed Hurricane Katrina evacuee
 status, but Frazier resided in California during the storm.

 Other Fraud
     Bernard McCann, also known as Bernard Mitchell, Bernard Marshall, or Johnny Jordan, was indicted in
 Cook County Circuit Court, Chicago, IL, for committing theft by deception, false impersonation of a
 government official, aggravated false impersonation of a police officer, and wire fraud. McCann allegedly
 posed as a Chicago Housing Authority employee and a police officer for the Cook County Sheriff's Office,
 fraudulently sold bogus Hurricane Katrina Section 8 vouchers, and collected $9,100 from numerous victims.


 Hurricane-Related Outreach
      Special Agent in Charge (SAC) Thomas Luke provided an overview of DHAP, explained the process for
 receiving Federal Housing Administration (FHA) foreclosure information through the HUD New Orleans
 field office, and described the current status of the Louisiana Road Home properties conveyed to the State of
 Louisiana at a Jefferson Parish Crime Prevention and Reduction Task Force meeting in Gretna, LA.
 Approximately 30 Jefferson Parish Council members, representatives from the District Attorney's Office, and
 local police department personnel attended.



     SAC Thomas Luke and Assistant Special Agent in Charge (ASAC) Kevin Whalen provided an overview of
 fraud found in the Hurricane Katrina DHAP and discussed the implementation of fraud prevention measures
 for Hurricane Ike DHAP recipients during a meeting in Washington, DC. In attendance were HUD Housing
 Choice Voucher program director David Fleischman and staff from the Reznick Group, LLC, the HUD
 contractor overseeing DHAP. In addition, SAC Luke and ASAC Whalen described HUD OIG's successful
 partnership with HUD in identifying and investigating DHAP fraud and provided disaster assistance fraud
 information for distribution at DHAP centers nationwide.




100                                                                          Chapter 5: Hurricane Relief Oversight
      ASAC Fernando Ramos provided an overview of demolition projects at the Housing Authority of New
  Orleans, HUD rental assistance programs including DHAP, and the Louisiana Road Home buy-back program
  for Project Safe Neighborhood executive committee members meeting in New Orleans, LA. Project Safe
  Neighborhood, a program funded by the U.S. Department of Justice, targets violent crimes in New Orleans
  metropolitan neighborhoods and housing developments with high percentages of vacant or rental properties.
  Executive committee members in attendance included the U.S. Attorney for the Eastern District of Louisiana;
  the New Orleans Police Department chief; sheriffs from the Orleans, Jefferson, and St. Bernard Parishes; and
  representatives from the Federal Bureau of Investigation, the U.S. Drug Enforcement Administration, and the
  Bureau of Alcohol, Tobacco, Firearms, and Explosives.



      SAC Thomas Luke and Special Agent (SA) Wyatt Achord provided an overview of HUD OIG's mission,
  Rental Assistance and Sex Offender Initiatives, investigative fraud indicators, and criminal and civil statutes at
  a Louisiana Housing Council meeting held in Baton Rouge, LA. Approximately 75 executive directors and
  housing authority board members attended.



      ASAC Fernando Ramos and SA Robert Anderson provided an overview of HUD OIG's mission in
  relation to Louisiana's Road Home program and described homeowner assistance grant fraud for personnel
  from ICF International and KPMG, Road Home program contractors meeting in Baton Rouge, LA.
  Approximately 15 ICF International and KPMG employees attended.



      ASAC Fernando Ramos and Senior Forensic Auditor (SFA) Windell Durant participated as panelists and
  provided an overview of HUD OIG's response to Hurricanes Katrina and Rita at the North American
  Consumer Protection Investigators annual conference held in New Orleans, LA. Approximately 75 civil and
  criminal consumer protection investigators from across the country and Canada attended.



      ASAC Fernando Ramos and SFA Windell Durant provided an overview of the Road Home program and
  described the impact on FHA-insured properties in relation to OIG foreclosure initiatives and properties
  conveyed to the State of Louisiana at a HUD senior staff meeting held at the HUD Homeownership Center in
  Denver, CO. Approximately six HUD personnel attended.


  Disaster-Related OIG Hotline
     During this reporting period, the Hotline received five complaints and closed 25 complaints related to
  Hurricanes Katrina, Rita, Wilma, Gustav, and Ike and other major disasters.




Chapter 5: Hurricane Relief Oversight                                                                             101
 Inspections and Evaluations
 Housing Assistance Overpayments to Multifamily Property Owners after
 Hurricane Katrina
     In August 2005, HUD-subsidized multifamily Section 8 tenants vacated Louisiana properties that were
 severely damaged or destroyed by Hurricane Katrina. Although many of these vacated properties were
 uninhabitable, HUD and the Louisiana Housing Finance Agency continued to pay the property owners
 housing subsidies. In November 2005, HUD notified the New Orleans, LA, field office that HUD-subsidized
 multifamily property owners were only entitled to housing assistance payments for 1 month following the
 hurricane. The 1-month grace period ended in September 2005.

     HUD OIG conducted an inspection of the HUD housing assistance payments provided to Louisiana
 multifamily property owners after Hurricane Katrina. This inspection found that HUD and the Louisiana
 Housing Finance Agency overpaid more than $1.6 million in housing assistance to 27 multifamily property
 owners. Since HUD did not formally suspend housing assistance electronic fund transactions until November
 2005, most of these overpayments are attributable to October 2005 electronic fund transactions. As of July 24,
 2008, HUD and the Louisiana Housing Finance Agency had recovered $527,407 in overpayments from 7 of
 the 27 multifamily property owners, and HUD intends to send out collection letters to the remaining property
 owners who have yet to make any repayments. OIG recommended continued collection efforts and the
 pursuit of administrative sanctions against the multifamily property owners or management agents, if
 warranted. (I&E Report: IED 07 003)

 Reconstruction of Mississippi Gulf Coast Public Housing damaged by
 Hurricane Katrina
     As of August 2008, the State of
 Mississippi had approved up to $100
 million in HUD CDBG funds to
 rebuild 24 Gulf Coast public housing
 developments. Thirteen of these
 public housing developments are
 situated in floodplains and were
 devastated by the Hurricane Katrina
 storm surge and subsequent flooding.
 The $231 million estimated total
 construction costs for the 24 proposed
 developments will be funded through
 tax credit programs, loans, and other
 grants.

                                                   Architect’s Drawing of Buildings in East End Homes Project, Biloxi
                                                        Housing Authority, Biloxi, MS, which illustrates the use of the
                                                             requirement for housing authorities to elevate replacement
                                                                               housing to meet new FEMA standards.




102                                                                             Chapter 5: Hurricane Relief Oversight
      HUD OIG completed an evaluation of the Mississippi Gulf Coast public housing reconstruction. The
  objective of this evaluation was to determine both the status of recovery efforts and the risks involved with
  rebuilding on sites located in designated flood plain areas. The results of our evaluation found that MDA, the
  State agency responsible for construction regulation compliance in flood plain areas, followed the HUD
  floodplain management and eight-step environmental review processes during its project funding decisions.
  In addition, the approved projects require housing authorities to elevate replacement housing to meet the new
  FEMA standards. (I&E Report: IED 08 0003)




Chapter 5: Hurricane Relief Oversight                                                                         103
         Chapter 6
    Other Significant
Audits and Investigations/
       OIG Hotline
     In addition to the audits and investigations described in this chapter, the U.S. Department of Housing and
 Urban Development (HUD) Office of Inspector General (OIG), has conducted numerous outreach efforts
 (see chapter 7, page 130).


 Audits
               Strategic Initiative 4: Contribute to improving HUD’s execution and
              accountability of fiscal responsibilities as a relevant and problem-solving
                                      advisor to the Department
       Key program results            Questioned costs                      Funds put to better use
      Audit       8 audits               $1.4 million                                  ---
                 Page 106        - HUD's management of human resources
                 Page 107        - Review of HUD's information technology security program
                  Page 107       - OIG response to questions from the Office of Management and Budget
       Our                         under the Federal Information Security Management Act of 2002
      focus      Page 107        - Evaluation of HUD's security controls over databases
                 Page 108        - Review of controls over the removal of local and remote user access
                 Page 108        - Office of fair housing and equal opportunity



 HUD's Management of Human Resources
     HUD OIG reviewed HUD's management of human resources to determine the adequacy of HUD's
 staffing resources in meeting its program objectives and whether HUD's offices used HUD's Resource
 Estimation and Allocation Process (REAP) studies when they had the ability to hire.

     HUD lacked a valid basis for assessing its human resource needs and allocating staff within its program
 offices. Three of the five offices reviewed could not provide adequate documentation to support their
 assessment of human resource needs and allocation of staff among their headquarters and field office locations.
 As a result, HUD lacked assurance that its allocation of staff was based on supportable need and it accurately
 determined the human resources required to meet its performance goals under the Government Performance
 Results Act (GPRA).

     HUD's program offices used the REAP studies when they had the ability to hire; however, they lacked
 adequate documentation to support their hiring practices. In particular, five of the seven HUD program
 offices reviewed were unable to provide adequate documentation to support their hiring of staff. As a result,
 HUD lacked assurance that its program offices' hiring was appropriate.

    OIG recommended that HUD (1) implement a plan detailing how HUD's program offices will use REAP
 and the Total Estimation and Allocation Mechanism (TEAM) system to determine which program offices




106                                              Chapter 6: Other Significant Audits and Investigations/OIG Hotline
  need to be reassessed, (2) continue providing training, and (3) obtain feedback from the Office of Fair Housing
  and Equal Opportunity (FHEO) regarding the pilot of the TEAM system's allocation module. If the pilot is
  determined to be successful, HUD should take the necessary steps to implement the allocation module in its
  program offices. We also recommend that HUD implement adequate controls to ensure that its program
  offices comply with its internal hiring procedures. (Audit Report: 2008-CH-0003)

  Review of HUD's Information Technology Security Program (Reports Not
  Available to the Public)
      HUD OIG audited the Federal Housing Administration's (FHA) management of its information
  technology (IT) resources and compliance with HUD and other Federal information security requirements to
  determine whether FHA effectively managed security controls relating to its IT resources. This audit
  supported our financial statement audits of FHA and HUD as well as our annual Federal Information Security
  Management Act (FISMA) review. OIG has determined that the contents of this report would not be available
  for public disclosure; therefore, we have limited its distribution to selected HUD officials. (Audit Report:
  2008-DP-0004)



      HUD OIG reviewed HUD's IT security program to evaluate HUD's entity-wide compliance with FISMA
  requirements. Specifically, OIG evaluated the overall quality of HUD's certification and accreditation process
  for its systems, HUD program officials' and system owners' implementation of their assigned information
  security responsibilities, and whether HUD had developed security policies and implemented and monitored
  enterprise-wide controls. OIG determined that the contents of this report would not be appropriate for public
  disclosure; therefore, OIG limited its distribution to selected HUD officials. (Audit Report: 2008-DP-0006)

  OIG Response to Questions from the Office of Management and Budget
  under the Federal Information Security Management Act of 2002 (Report
  Not Available to the Public)
      HUD OIG performed an annual independent evaluation of HUD's information security program and
  practices mandated by FISMA. OIG has determined that the contents of this report would not be appropriate
  for public disclosure and has, therefore, limited its distribution to selected officials. (Audit Report:
  2008-DP-0802)

  Evaluation of HUD's Security Controls over Databases (Report Not
  Available to the Public)
      HUD OIG evaluated HUD's security controls over databases to determine whether the security
  implemented on HUD's network provides adequate controls to prevent abuse or unauthorized access to its
  information resources. OIG has determined that the contents of this report would not be appropriate for
  public disclosure and, therefore, has limited its distribution to selected HUD officials. (Audit Report:
  2008-DP-0007)




Chapter 6: Other Significant Audits and Investigations/OIG Hotline                                             107
 Review of Controls over the Removal of Local and Remote User Access
 (Report Not Available to the Public)
     HUD OIG audited HUD's processes and controls regarding the removal of the computer system access
 rights of retired employees. This audit was initiated based upon work performed during the fiscal year 2007
 review of information system controls in support of the annual financial statement audit. OIG determined
 that the contents of this report would not be appropriate for public disclosure; therefore, OIG limited its
 distribution to select HUD officials. (Audit Report: 2008-DP-0005)

 Office of Fair Housing and Equal Opportunity
     HUD OIG audited the HUD Office of Fair Housing and Equal Opportunity (FHEO) to determine
 whether FHEO complied with the requirements of 42 U.S.C. (United States Code) chapter 45, subpart I,
 section 3616a(d), entitled Fair Housing Initiatives Program, Education and Outreach, when it published the
 2007 Fair Housing Initiatives Program notice of funding availability.

     FHEO generally complied with the applicable requirements. However, it issued the 2007 Fair Housing
 Initiatives Program notice of funding availability with an error related to applicant eligibility, and it did not
 fully document the criteria used to determine eligibility of the applicant awarded the 2007 Education and
 Outreach Initiative national program media campaign. Additionally, FHEO lacked a policy regarding whether
 a portion of each fiscal year's Education and Outreach Initiative funds was to be used for a national program
 for Fair Housing Month activities.

     OIG recommended that FHEO (1) strengthen its internal control procedures regarding the development
 of future super notices of funding availability to ensure that notice language complies with statutory
 requirements, (2) obtain guidance on the meaning of a nonprofit organization representing groups of persons
 protected under the Fair Housing Act, and (3) develop policy on whether funds from each fiscal year's Fair
 Housing Initiatives Program appropriation are intended to be used for a national program for annual Fair
 Housing Month activities. (Audit Report: 2008-NY-0002)




108                                               Chapter 6: Other Significant Audits and Investigations/OIG Hotline
  Inspections and Evaluations
  Evaluation of the Fair Housing and Equal Opportunity Housing
  Discrimination Complaint Process and Compliance
      In October 2005, the U.S. Government Accountability Office (GAO) reported deficiencies in the HUD
  Office of Fair Housing and Equal Opportunity (FHEO) and its affiliated nonprofits, State and local
  governments administering fair housing laws under the Fair Housing Assistance program (FHAP). The GAO
  report cited deficiencies in the timeliness and processing of housing discrimination complaints, the sufficiency
  of documentation, and the integrity of data maintained in the Title VIII Automated Paperless Tracking Office
  System, also known as TEAPOTS (GAO-06-79).

       HUD OIG completed an evaluation that followed the GAO review and addressed similar program
  management issues. This evaluation randomly sampled nationwide FHEO and FHAP investigations for two
  periods: January through June 2006 and October through December 2007. Although several improvements
  were noted in relation to case file documentation, our evaluation found the same or similar processing
  deficiencies as noted in the GAO report. OIG recommended that FHEO conduct aggressive monitoring and
  testing for current case documentation compliance within the guidelines found in the Fair Housing Act and
  related handbooks and regulations. (I&E Report: IED07001)




Chapter 6: Other Significant Audits and Investigations/OIG Hotline                                              109
 Investigations
               Strategic Initiative 4: Contribute to improving HUD’s execution and
              accountability of fiscal responsibilities as a relevant and problem-solving
                                      advisor to the Department
      Key program         Cases                 $                Convictions/pleas/          Admin/civil
         results          closed            recovered                pretrials                 actions
      Investigations       26                $38,345                      4                       12


    The investigations discussed below were generated from leads provided by HUD program staff and
 conducted jointly with Federal, State, or local law enforcement agencies.

     Michelle Meek, a former HUD employee and treasurer for the American Federation of Government
 Employees (AFGE) Local Union 3435, was sentenced in U.S. District Court, Columbus, OH, to 5 years
 probation and ordered to perform 50 hours of community service and pay AFGE $4,845 in restitution for her
 earlier guilty plea to committing theft. Meek provided false accounting statements and embezzled AFGE
 Local Union 3435 funds.



     HUD housing specialist Toulu Thao entered into a 12-month deferred prosecution agreement with the
 U.S. Attorney's Office in Fresno, CA, and agreed to perform 200 hours of community service under the
 supervision of the U.S. Pretrial Services Office and comply with all Federal, State, and local laws. At the
 conclusion of the 12-month period, and if Thao is in full compliance with all obligations under this
 agreement, the U.S. Attorney's Office will seek dismissal of Thao's previous indictment for making false
 statements on his Office of Government Ethics Form 450.




110                                            Chapter 6: Other Significant Audits and Investigations/OIG Hotline
  OIG Hotline
      The HUD OIG Hotline is operational 5 days a week, Monday through Friday, from 10:00 a.m. to 4:30
  p.m. The Hotline is staffed by 10 full-time OIG employees, who take allegations of waste, fraud, abuse, or
  serious mismanagement in HUD or HUD-funded programs from HUD employees, contractors, and the
  public. The Hotline also coordinates reviews with internal audit and investigative units or with HUD program
  offices.

      During this reporting period, the Hotline received and processed 9,931 complaints: 77 percent received
  by telephone, 12 percent by mail, and 11 percent by e-mail. Every allegation received by the Hotline is logged
  into a database and tracked.

     Of the complaints received, 1,093 were related to the mission of OIG and were addressed as Hotline cases.
  Hotline cases are referred to OIG's Offices of Audit and Investigation or to HUD program offices for action
  and response. The following illustration shows the distribution of Hotline case referrals by percentage.

                            Chart 6.1: Hotline cases opened by program area
                                   Single-family          Other HUD
               OIG audit and          housing               offices
                investigation           4%                   3%
                    17%                                                                     Public and Indian
      Community                                                                                  housing
      planning and                                                                                60%
      development
          5%




       Multifamily
        housing
         11%




      The Hotline closed 1,662 cases this reporting period. The closed Hotline cases included 177 substantiated
  allegations. The substantiated allegations resulted in 15 administrative sanctions, including action taken against
  a nonprofit organization that failed to properly document HUD-funded expenditures. The Department also
  took 107 corrective actions that resulted in $123,784 in recoveries of losses and nearly $2.7 million in HUD
  funding that could be put to better use. The recoveries included repayments of overpaid rental subsidies.
  Some of the funds that could be put to better use were the result of cases in which tenants were terminated
  from public housing or multifamily housing programs for improperly reporting their incomes or family
  composition to qualify for rental assistance.




Chapter 6: Other Significant Audits and Investigations/OIG Hotline                                                111
                   Chart 6.2: Hotline dollar impact from program offices


                            $2,461,878


      $2,500,000

      $2,000,000

      $1,500,000

      $1,000,000
                                         $113,501                $233,260
       $500,000                                                                 $10,283


             $0
                          Public and Indian                           Multifamily
                               housing                                 housing

                                Recoveries          Funds put to better use



          Chart 6.3: Substantiated cases by type of complaint received by Hotline

                   Mismanagement               Owner/occupant violations
                        5%                               1%



                                                                                    Rental fraud and
                                                                                     improprieties
                                                                                         94%




112                                           Chapter 6: Other Significant Audits and Investigations/OIG Hotline
 Chapter 7
Outreach
 Efforts
      To foster cooperative, informative, and mutually beneficial relationships with agencies and organizations
 assisting the U.S. Department of Housing and Urban Development (HUD) in accomplishing its mission, the
 Office of Inspector General (OIG) participates in special outreach efforts. The outreach efforts described
 below complement routine coordination with Federal, State, and local law enforcement agencies; various
 congressional committees or subcommittees; and other OIGs. During outreach efforts, OIG personnel present
 information about HUD OIG's role and function, provide audit and investigative results, and discuss desired
 goals and objectives.

 Single-Family Housing Programs
     Special Agent in Charge (SAC) Phyllis Robinson and Special Agent (SA) Karen Gleich provided an
 overview of HUD OIG's mission and authority, described common mortgage fraud schemes and "red flag"
 indicators, and hosted a question and answer forum for members of the Ozark Gateway Women's Council of
 Realtors meeting in Joplin, MO. Approximately 50 real estate agents and mortgage and title company
 representatives attended.



     SAC Barry McLaughlin and Regional Inspector General for Audit (RIGA) Heath Wolfe provided an
 overview of HUD's role and responsibilities in the single-family housing program and described common
 audit findings and problems with home equity conversion mortgages at the American Association of
 Residential Mortgage Regulators annual conference in Minneapolis, MN. Approximately 180 association
 members attended.



     SAC Herschell Harvell, Jr., presented a
 plaque to Dallas Assistant District Attorney
 Alex Zocchi in Dallas, TX, in recognition
 of his continued support of the HUD OIG
 mission and his assistance with prosecuting
 mortgage fraud investigations.



     SAC James Todak and Assistant Special
 Agent in Charge (ASAC) Tony Meeks
 provided an overview of HUD OIG's
 mission and described Federal Housing
 Administration ( FHA)-insured mortgage
 issues and the FHASecure Initiative at an         From Left to Right: Herschell Harvell, Jr., Special Agent in Charge,
 International Association of Financial                Region 6; Robert Jones, Special Agent, Region 6; Dallas Assistant
 Crimes Investigators meeting held in           District Attorney Alex Zocchi, Chief of Special Crimes, Richard Zadina
 Los Angeles, CA. Approximately 60
 members attended.




114                                                                                         Chapter 7: Outreach Efforts
      SAC Barry McLaughlin and RIGA Heath Wolfe provided an overview of HUD's role and responsibilities
  in the single-family housing program and described common audit findings and problems with home equity
  conversion mortgages at the Association of Certified Fraud Specialists annual conference held in San
  Francisco, CA. Approximately 75 members attended.



     ASAC Juan Juarez provided an overview of the FHASecure and modernization programs at a Houston
  Mortgage Fraud Task Force meeting in Houston, TX. Approximately 30 Texas Real Estate Appraisal Board
  members and representatives from the U.S. Attorney's Office, the Harris County District Attorney's Office,
  and Federal and local law enforcement personnel attended.



     ASAC Brad Geary discussed current real estate and mortgage fraud trends and provided an overview of
  HUD's role in the current lending crisis at a white-collar crime seminar sponsored by the Western District of
  Michigan U.S. Attorney's Office in East Lansing, MI. More than 300 financial institution and Federal, State,
  and local law enforcement personnel attended.



     ASAC Wallace Merriman provided an overview of the FHASecure program and described HUD OIG's
  mission and mortgage fraud at an FHA lender training seminar hosted by the HUD Philadelphia
  Homeownership Center in Springfield, VA. Approximately 200 mortgage bankers, lenders, and underwriters
  from Virginia, Maryland, and Washington, DC, attended.



     ASAC Ray Espinosa hosted an Illinois Mortgage Bankers Association Risk Management Committee
  meeting in Chicago, IL. Topics discussed included FHA lending and appraisals, lender options for risk
  management, quality control and compliance procedures, and changes in the lending industry. Approximately
  16 Federal, State, and financial institution investigators and HUD program staff members attended.



      ASAC Cary Rubenstein and Senior Special Agent (SSA) Daniel Ellis presented an overview of HUD
  OIG's mission and described HUD's role in mortgage and bankruptcy fraud investigations at a bankruptcy
  fraud training seminar hosted by the U.S. Trustee's Office in Wilmington, DE. Approximately 30 assistant
  U.S. attorneys, U.S. Trustees, and bankruptcy fraud task force members attended.



      ASAC George Dobrovic and Assistant Regional Inspector General for Audit (ARIGA) Ron Farrell were
  panelists at a "HUD/FHA Ohio Partners Day 2008" conference held at Cleveland State University in
  Cleveland, OH. ASAC Dobrovic and ARIGA Farrell participated in panel discussions involving fraud, waste,
  and abuse in HUD programs; Inspector General initiatives; and the costs involved and tools available to fight
  fraud, including the HUD Enterprise Income Verification (EIV) system. Approximately 40 city council




Chapter 7: Outreach Efforts                                                                                  115
 members, State and local law enforcement officials, attorneys, mortgage and housing industry personnel, and
 HUD representatives attended.



     ASAC Wallace Merriman provided an overview of HUD OIG's investigative mission as it relates to
 predatory lending, property flipping, equity skimming, appraisal fraud, and identity theft at an "FHASecure"
 community outreach forum hosted by the Columbia Housing Finance Agency and the HUD District of
 Columbia field office in Washington, DC. Approximately 90 representatives from State and local
 governmental agencies; community planning and development grantees; and housing counseling, community
 housing development, and faith-based organizations attended.



     ASAC Brad Geary provided an overview of the current trends in rescue fraud and equity theft and
 described "red-flag" indicators and HUD's role in the current mortgage crisis at a mortgage and bankruptcy
 fraud training seminar sponsored by the U.S. Trustee's Office in Grand Rapids, MI. Approximately 25 U.S.
 Bankruptcy Court Chapter 7 Trustees attended.



     ASAC Wallace Merriman and SA Neil McMullen provided an overview of HUD OIG's mission and
 described predatory lending, property flipping, equity skimming, appraisal fraud, and fraud schemes involving
 the home equity conversion mortgage program for Baltimore Housing Coalition members meeting in
 Baltimore, MD. Approximately 40 members representing State and local government agencies and mortgage
 and financial institutions attended.



     ASAC Ray Espinosa and SA Jim Siwek provided a presentation, entitled "Latest Trends in Mortgage and
 Real Estate Fraud," and described property flipping, rescue and bankruptcy fraud, and HUD's role in the
 current lending crisis for bank and trust examiners attending an Illinois Department of Financial and
 Professional Regulations conference in Bloomington, IL. More than 130 bank and trust examiners and others
 attended.



     ASAC Cary Rubenstein and SA Christopher Prout provided an overview of HUD OIG's mission and the
 home equity conversion mortgage program and described current fraud schemes and prevention techniques at
 a meeting of the Lower Bucks County AARP in Middletown, PA. Approximately 40 AARP members
 attended.



     ASAC Wallace Merriman provided an overview of HUD OIG's mission and described predatory lending,
 property flipping, equity skimming, appraisal fraud, and home equity conversion mortgage fraud at meetings
 held with members of the Baltimore Homeownership Preservation Coalition and Maryland Homeownership




116                                                                                  Chapter 7: Outreach Efforts
  Preservation Task Force in Baltimore, MD. Approximately 20 State and local government agency
  representatives and mortgage and financial institution personnel attended.



      ASAC Brad Geary described the latest trends in equity theft, mortgage rescue fraud, and "red flag"
  indicators at a mortgage and bankruptcy fraud training seminar sponsored by the U.S. Trustee's Office in
  Minneapolis, MN. At the conclusion of his presentation, ASAC Geary hosted a question and answer forum
  for the approximately 25 U.S. Bankruptcy Court Trustees in attendance.



       ASAC Nadine Gurley described common mortgage fraud schemes as a panelist for a "Foreclosure Forum"
  hosted by Congressman John Lewis in Atlanta, GA. Additional panelists included representatives from HUD,
  the U.S. Attorney's Office, the Federal Reserve Bank, the Federal Trade Commission, the Georgia Real Estate
  Fraud Prevention Commission, and HUD-approved counseling agencies. Approximately 50 mortgage and
  real estate industry personnel attended.



       ASACs Brad Geary and Ray Espinosa provided an overview of the mortgage crisis and FHA's role in
  mortgage insurance, refinancing, and block grant funding for foreclosed properties and described law
  enforcement efforts in mortgage and housing schemes for Crime Analysts of Illinois members meeting at the
  Illinois Department of Financial and Professional Regulation in Chicago, IL. Approximately 25 intelligence
  analysts and Federal and local law enforcement personnel attended.



     ASAC Lisa Gore provided an overview of HUD OIG's mission and described efforts to address
  Government National Mortgage Association fraud trends and program flaws for members of the New York
  Mortgage Fraud Working Group meeting in New York City, NY. Approximately 20 U.S. Attorneys and
  Federal and State investigators attended.



      ASAC Juan Juarez provided an overview of HUD OIG's mission and jurisdiction and described mortgage
  fraud investigations for members of the South West Automated Clearing House Association meeting in
  Houston, TX. Approximately 40 association members, along with Federal, State, and local law enforcement
  personnel, attended.



      ASAC Brad Geary provided a presentation, entitled "How to Get Your Case Prosecuted," and described
  Federal and State mortgage fraud statutes, the referral process, report preparation, and overcoming prosecution
  obstacles at an Association of Certified Fraud Examiners meeting held in Chicago, IL. Approximately 75
  individuals attended.




Chapter 7: Outreach Efforts                                                                                    117
     ASAC Wallace Merriman provided an overview of HUD OIG's mission and described predatory lending,
 property flipping, equity skimming, appraisal fraud, and identity theft for Coalition for Homeownership
 Preservation members meeting in Prince Georges County, MD. Approximately 35 members representing
 State and local government agencies, mortgage and financial institutions, and nonprofit and community
 faith-based organizations attended.



     ASAC Brad Geary provided a presentation, entitled "Practice and Ethics," and described the latest trends
 in mortgage and real estate fraud schemes and HUD's role in the national foreclosure crisis at a Ticor Title
 Company meeting in Chicago, IL. More than 300 Ticor Title officials, attorneys, and employees attended.



     SA Karen Gleich provided an overview of mortgage fraud schemes, described HUD OIG's role in
 mortgage fraud investigations, and hosted a question and answer forum for First American Title Company
 personnel in Joplin, MO. Approximately 10 employees attended.



    SA Jim Siwek described the latest trends in foreclosure scams at a seminar, entitled "Bridging the Gap III,
 Foreclosure Crisis in Chicago's Communities," held in Chicago, IL, and sponsored by the Chicago Police
 Department and the Chicago Housing Authority. Approximately 30 nonprofit representatives and
 community leaders attended.



     SA James Carrieres provided an overview of mortgage fraud and described Arizona mortgage fraud pros-
 ecutions at a Las Vegas Chapter of the Appraisal Institute meeting in Las Vegas, NV. Approximately 25
 appraisers attended.



     SA Matthew Nutt provided an overview of HUD OIG, illustrated public corruption, and described
 fraudulent activities in the HUD FHA, real estate-owned, and rental assistance programs for Rotary Club
 members meeting in Plymouth, MI. Approximately 40 district court judges, attorneys, and business leaders
 attended.



     SA Jim Siwek provided a presentation, entitled "Latest Trends in Mortgage and Real Estate Fraud," and
 described property flipping, rescue and bankruptcy fraud, and HUD's role in the current lending crisis during
 a Financial Crimes seminar for Chicago Metropolitan Identity Fraud Task Force members meeting in Vernon
 Hills, IL. More than 55 Federal, State, and local law enforcement personnel, along with financial and retail
 representatives, attended.




118                                                                                   Chapter 7: Outreach Efforts
      SA James Carrieres provided a presentation, entitled "Arizona Mortgage Fraud," and described successful
  Arizona mortgage fraud investigations at an Arizona Trustee Association meeting held in Gold Canyon, AZ.
  Approximately 40 U.S. Trustees attended.

  Public Housing and Rental Assistance Programs
      Assistant Inspector General for Investigation (AIGI) John McCarty and SAC Rene Febles were guest speakers
  at the HUD Public Housing Director's national conference held in Nashville, TN. AIGI McCarty and SAC
  Febles spoke about the partnership between HUD and HUD OIG and working together to affect positive
  changes in HUD programs.



     SAC James Todak provided an overview of fraud, waste, and abuse and described HUD OIG's perspective
  on the "Project Safe Neighborhood" initiative in public housing developments at a Project Safe
  Neighborhood-Public Housing workshop hosted by the U.S. Attorney's Office in Las Vegas, NV.
  Approximately 350 Federal, State, and local law enforcement and other officials attended.



      RIGA Heath Wolfe and SAC Barry McLaughlin provided an overview of HUD OIG, the audit process,
  and common audit findings and fraud schemes in the Housing Choice Voucher and Home Investment
  Partnerships programs for Indiana Housing and Community Development Authority contractors and staff
  members meeting in Indianapolis, IN. Approximately 15 housing representatives attended.



      SAC Peter Emerzian, ASACs Michael Wixted and Diane DeChellis, and ARIGA Kevin Smullen provided
  an overview of HUD housing assistance fraud schemes and detection methods at a Massachusetts Association
  of Section 8 Administrators meeting in Dedham, MA. At the conclusion of their presentation, a question and
  answer forum was held for the approximately 100 Section 8 administrators and HUD personnel in attendance.



      SAC Rene Febles, ASAC Louis Mancini, and Supervisory Forensic Auditor Mark Klein provided an
  overview of HUD OIG's Rental Assistance, Fugitive Felon, and Sex Offender Initiatives at a meeting with
  New York State Department of Housing and Community Renewal representatives in New York City, NY.
  Approximately 50 personnel attended.



      SAC Phyllis Robinson and SAs Melissa McFadden and Karen Gleich described HUD OIG's mission and
  authority and provided presentations, entitled "Tenant Fraud," at three HUD-sponsored EIV seminars held in
  Kansas City, KS, and Lincoln, NE. At the conclusion of their presentations, SAC Robinson and SAs McFadden
  and Gleich hosted question and answer forums for approximately 231 HUD and housing industry personnel
  in attendance.




Chapter 7: Outreach Efforts                                                                                  119
     SAC Barry McLaughlin and RIGA Heath Wolfe described public housing fraud schemes and recent audits
 at an Illinois Association of Housing Authorities conference in Decatur, IL. More than 25 housing authority
 representatives attended.



    SAC Rene Febles provided an overview of HUD OIG's mission and described rental assistance fraud and
 public corruption within HUD programs at the New York State Division of Housing and Community
 Renewal annual conference held in Saratoga, NY. Approximately 75 individuals attended.



     SAC Peter Emerzian, ASAC Diane DeChellis, and SAs Jessica Piecuch and Alex Rosania assisted HUD
 personnel with EIV training sessions for Massachusetts and Maine National Association of Housing and
 Redevelopment Officials (NAHRO) members in Boston, MA. In addition, SAC Emerzian and ASAC DeChellis
 provided guidance for reporting EIV discrepancies to HUD OIG, and SAs Rosania and Piecuch answered
 questions relating to EIV fraud. More than 120 NAHRO members participated.



     RIGA Heath Wolfe provided an overview of the HUD OIG audit process and common audit findings in
 public housing authority nonprofit development activities at the annual Indiana NAHRO conference held in
 Lafayette, IN. Approximately 25 housing representatives attended.



     SACs Rene Febles and Joseph Clarke provided an overview of HUD OIG fraud referrals and investigations
 as panelists at the MidAtlantic NAHRO regional conference in Galloway Township, NJ. Approximately 50
 NAHRO members representing housing authorities in New Jersey, Pennsylvania, Maryland, and Delaware
 attended.



     SAC James Todak, ASAC Herschell Harvell, and SAs John Rodriguez and David Carter provided an
 overview of HUD OIG rental assistance fraud investigations at a Southern California NAHRO seminar in
 Los Angeles, CA. Approximately 40 NAHRO members attended.



     SAC Rene Febles provided an overview of HUD OIG's mission and described rental assistance fraud and
 public corruption within HUD programs at a New Jersey Association of Housing and Redevelopment
 Officials conference held in Atlantic City, NJ. Approximately 30 housing representatives attended.



     ARIGA Fred Smith provided an overview of HUD OIG and described current initiatives and fraud
 detection methods at the Kansas NAHRO conference held in Kansas City, KS. Approximately 40 housing
 representatives attended.




120                                                                                 Chapter 7: Outreach Efforts
      ASAC Gene Westerlind and SA Karen Gleich provided an overview of HUD OIG's mission and authority
  and described rental assistance fraud schemes and "red flag" indicators at a Missouri NAHRO conference held
  in Jefferson City, MO. At the conclusion of their presentation, a question and answer forum was held for the
  110 housing representatives in attendance.



     ASAC Michael Wilson provided an overview of HUD OIG's mission for the Arkansas Chapter of NAHRO
  meeting in Little Rock, AR. Approximately 100 housing officials attended the conference.



      ASACs Michael Wilson and Cortez Richardson provided an overview of HUD OIG's mission and
  described rental assistance, multifamily FHA insurance, and Community Development Block Grant (CDBG)
  investigations at the annual Texas NAHRO conference held in Fort Worth, TX. Approximately 25 NAHRO
  members attended.



      ASAC Timothy Mowery and SA Malinda Antonik presented an overview of HUD OIG's mission,
  investigations, and fraud prevention methods at a HUD 2008 Partners and Planning seminar held in Tampa,
  FL. Approximately 150 individuals representing public housing authorities, State and local governments, the
  mortgage industry, nonprofit organizations, and a congressional representative attended.



      ASAC Michael Wixted, ARIGA Kevin Smullen, and SA Brian Gosselin provided an overview of public
  housing fraud schemes and detection methods at a Vermont housing authority executive directors meeting
  held in Rutland, VT. At the conclusion of the presentation, a question and answer forum was held for
  approximately 20 Vermont public housing authority executive directors and HUD personnel in attendance.



      ASAC Kathleen Hatcher was the lead presenter during a workshop, entitled "The IG - Our Partner," at the
  Maryland Association of Housing and Redevelopment Agencies annual conference in Ocean City, MD. ASAC
  Hatcher described HUD OIG's mission and priorities, assisted housing fraud schemes and avenues to identify
  fraud, and the fraud referral and administrative and judicial processes. In addition, ASAC Hatcher hosted a
  question and answer forum for approximately 70 housing representatives in attendance.



      ASAC Tony Meeks provided a presentation, entitled "Preventing and Identifying Section 8 Fraud," at a
  housing authority colloquium held at the Hawaii Government Employees Association in Honolulu, HI. ASAC
  Meeks provided an overview of HUD OIG initiatives relating to rental assistance programs and described
  fraud indicators; criminal and civil statutes; administrative remedies; general fraud prevention measures; and
  investigations involving sex offenders, unreported income, and unauthorized tenants. Approximately 60




Chapter 7: Outreach Efforts                                                                                   121
 representatives from the housing authorities in the Hawaiian Islands, Guam, Saipan, American Samoa, and the
 Commonwealth of the Northern Mariana Islands attended.



     SA Anthony Troeger provided a presentation, entitled "Selling Honesty," at the North Carolina Program
 Integrity Investigators annual conference in Asheville, NC. In addition, SA Troeger presented an overview of
 HUD OIG, discussed program administration improvement, and described fraud detection methods.
 Following the conference, SA Troeger was the keynote speaker at the conference banquet. Approximately 140
 North Carolina Department of Social Services investigators attended.



     SA James Carrieres participated as a panelist and provided information on Native American fraud
 investigations at a Native American Indian Summit held in Scottsdale, AZ. Approximately 45 tribal
 representatives and Federal prosecutors attended.



      SAs Trevor Christensen and Michael White provided an overview of HUD OIG and described rental
 assistance fraud at the annual Tennessee Association of Housing and Redevelopment Agency conference held
 in Franklin, TN. Approximately 325 association representatives attended.



     SAs Edward Redmond and Stephen Tufts provided an overview of HUD OIG's mission and described
 current and future HUD OIG initiatives at the New England Regional Council of NAHRO conference held
 in Dixville Notch, NH. Approximately 133 participants representing 53 public housing agencies (PHA) from
 New Hampshire, Maine, and Vermont attended.



     SA Jeffrey Pittano provided an overview of HUD OIG's mission and role in rental assistance fraud
 investigations at a Maryland Association of Housing and Redevelopment Agency conference held in Crownsville,
 MD. More than 50 association members attended.



     SA Alexander Rosania provided an overview of HUD OIG's mission and priorities and described the
 HUD EIV system and rental assistance fraud for multifamily management agents, board members, and
 residents meeting at Mandela Homes Apartments, a HUD-subsidized multifamily housing development in
 Boston, MA. Approximately 50 individuals attended.



     SA Theron Hanes provided an overview of HUD OIG's mission and authority and described investigative
 referrals and prosecutions at the annual Mountain Plains NAHRO conference held in Helena, MT.
 Approximately 60 NAHRO members and others attended.




122                                                                                  Chapter 7: Outreach Efforts
     SAs Korey Brinkman and Ray Essman provided an overview of HUD OIG's mission and authority at a
  HUD EIV conference held in St. Louis, MO. Approximately 120 HUD and housing industry personnel from
  Missouri, Iowa, and Illinois attended.



     SA Alexander Rosania provided an overview of HUD OIG's mission and priorities and described HUD-
  subsidized multifamily housing fraud at a New England Affordable Housing Management Association
  meeting in Boston, MA. More than 50 multifamily property managers and executive directors attended.



      RIGA Heath Wolfe and SAC Barry McLaughlin gave presentations to the staff of the Peoria Housing
  Authority in Peoria, IL. SAC McLaughlin presented an overview of the Office of Investigation's (OI)
  operations and "red flag" indicators of fraud and provided information on OI's partnering with PHAs. RIGA
  Wolfe presented information on common audit findings/problems in PHAs' public housing and Public
  Housing Capital Fund programs and the need for PHAs to establish good internal controls. There were more
  than 60 individuals in attendance.



      ARIGA William Nixon, Senior Auditor Lynelle Kunst, and SA Kedric McKnightwere were asked by the
  North Texas Association of Housing Authorities in Dallas, TX, to sit on a panel to discuss reasonable
  accommodation. They answered questions from approximately 30 housing executives and HUD staff
  regarding reasonable accommodation and the recently issued fraud bulletin. Further, SA McKnight discussed
  OI's Fugitive Felon program and its impacts on housing as well as the collaboration with the National Center
  for Missing and Exploited Children.



      RIGA John Buck and ASAC Kathleen Hatcher were guest speakers at the National Leased Housing
  Association "Mastering the Housing Choice Voucher Program" conference held in Washington, DC. RIGA
  Buck and SAC Hatcher facilitated a presentation entitled "IG Audits and Investigations - What to Expect."
  ASAC Hatcher described HUD OIG's mission and priorities, specifically concerning assisted housing
  programs, fraud schemes, and techniques for housing authority staff to use to identify fraud during the
  application and recertification stages. RIGA Buck described Office of Audit functions and highlighted some
  recent audits conducted in Region 3. At the conclusion of the presentation, RIGA Buck and ASAC Hatcher
  participated in a question and answer session. Approximately 70 housing representatives from all over the
  United States were in attendance.

  Community Planning and Development
      SAC Peter Emerzian, RIGA John Dvorak, and ASACs Michael Wixted and Diane DeChellis described
  HUD OIG's role in detecting fraud in HUD-funded cmmunity planning and development (CPD) programs
  for National Community Development Association members meeting at Holy Cross College in Worcester,
  MA. At the conclusion of their presentation, a question and answer forum was held for approximately 150
  State and local delegates, nonprofit agency representatives, and HUD personnel in attendance.




Chapter 7: Outreach Efforts                                                                                 123
    SAC Rene Febles and ARIGA Joseph Vizer described how HUD OIG can work with community
 development organizations to prevent fraud, waste, and abuse at a monthly meeting of the New Jersey
 Community Development Organizations held in Elizabeth, NJ. The New Jersey CPD division director Kathy
 Naymola and 30 directors from New Jersey community development organizations attended.



     ARIGA Fred Smith and Senior Auditor Beth Archibald met with staff members from the Office of the
 Auditor for both the city and county of Denver, CO. ARIGA Smith and Senior Auditor Archibald provided
 information on determining risks and developing objectives for city and county performance audits of CPD
 programs.



    SAs Frank Aeillo and Dennis Madarang provided an overview of HUD OIG's mission and described
 housing and CPD programs for New Castle County Abatement Project members meeting in New Castle, DE.
 Approximately 20 State and local prosecutors, investigators, and law enforcement officers attended.



    SA Frank Aeillo provided an overview of HUD OIG's mission and described CDBG program fraud at a
 meeting hosted by the Delaware County Housing and Community Development Office in Media, PA.
 Approximately 40 representatives from nonprofit organizations and the Delaware County Housing and
 Community Development Office attended.

 Audit Outreach
     Assistant Inspector General for Audit (AIGA) James Heist provided a presentation, entitled "Challenges
 Facing the Accountability Community," at the 2008 Spring Mid-America Intergovernmental Audit Forum
 held in Kansas City, MO. AIGA Heist described succession planning, training, and technology challenges and
 solutions. In addition, AIGA Heist participated as a panelist and described HUD OIG audit results of
 manufactured housing foundations and community service and self-sufficiency requirements during a session
 that addressed significant audits. Approximately 85 Federal, State, and local government audit representatives
 and individuals from State societies of certified public accountants attended.



     ARIGA Ronald Farrell and Auditor Julie Piotrowski participated in the Raj Soin College of Business
 recruiting day held at Wright State University in Dayton, OH. ARIGA Farrell and Auditor Piotrowski
 described HUD OIG's mission and student volunteer positions with the HUD OIG Office of Audit.
 Approximately 40 students attended the presentation.



    ARIGA Kim Randall and Senior Auditor Ashley Eis participated in a career fair held at the University of
 Missouri in Kansas City, MO. ARIGA Randall and Senior Auditor Eis described HUD OIG's mission and




124                                                                                   Chapter 7: Outreach Efforts
  provided information relating to student volunteer and career positions with the HUD OIG Office of Audit.
  More than 40 students attended.



      ARIGA Kim Randall participated in a career fair held at Missouri State University in Springfield, MO.
  ARIGA Randall provided students with information about internships and careers with the HUD OIG Office
  of Audit.



      Computer Audit Specialist (CAS) Cliff Cole participated as a guest speaker in the Mid-America
  Intergovernmental Audit Forum's annual spring/summer conference in Kansas City, MO. The Forum is a
  consortium of Federal, State, and local audit executives from audit organizations in the States of Iowa, Kansas,
  Missouri, and Nebraska. CAS Cole provided an overview of HUD OIG's organizational structure and mission
  and a detailed discussion on OIG's progressive use of data mining techniques and computer-assisted analytics
  focused on geographic information systems and complex geospatial audit analyses. He applied this
  information to his recent experiences in assisting Region 5 auditors in identifying HUD-insured single-family
  properties located in designated flood zones.



       ARIGA Kevin Smullen and SAC Peter Emerzian made a presentation to the staff of the Vermont Housing
  Finance Agency in Burlington, VT, on HUD OIG's mission, role, and responsibility with regard to detecting
  and investigating fraud, waste, and mismanagement in programs administered by the Agency. They discussed
  HUD programs, including the CDBG, HOME Investment Partnerships, Section 8, multifamily, and FHA
  programs. Also discussed were Agency origination of FHA loans, FHA-insured multifamily developments to
  assist with the mortgage crisis in Vermont, and OIG's role in monitoring these programs.



      RIGA Heath Wolfe and ARIGA Ronald Farrell participated in the Office of Personnel Management's
  Federal Career Fair at Ohio State University in Columbus, OH. They spoke to students about HUD OIG's
  mission and the benefits of pursuing student volunteer and auditing positions with HUD OIG. Students were
  informed that OIG has student volunteer opportunities in its Chicago, IL, Detroit, MI, and Columbus, OH,
  offices. RIGA Wolfe and ARIGA Farrell accepted resumes from students interested in career and student
  volunteer positions with HUD OIG.

  Law Enforcement Outreach
      SAs Amy Trebino and Malinda Antonik staffed the HUD OIG exhibit booth and provided information
  relating to HUD OIG's mission and investigations at the Ninth Annual Women in Federal Law Enforcement
  Leadership conference held in Tampa, FL. Approximately 700 Federal law enforcement personnel and others
  attended.




Chapter 7: Outreach Efforts                                                                                     125
    SA Julien Kubesh described the latest trends in mortgage and real estate fraud, flipping and rescue fraud,
 and HUD's role in the national foreclosure crisis for the Hennepin County Crime Prevention Advisory
 Committee in Minneapolis, MN. More than 30 Hennepin County law enforcement representatives attended.



     SAs Neil McMullen and Jeffrey Lowery provided an overview of HUD OIG's mission and authority and
 described the HUD OIG Sex Offender Initiative for subcommittee members of the Alexandria Community
 Criminal Justice Board in Alexandria, VA. Approximately 12 representatives from the Commonwealth of
 Virginia Attorney's Office and State and local law enforcement personnel attended.



    Special agents from HUD OIG participated in a "National Marrow Donor Drive" at the University of
 Kansas Hospital in Kansas City, KS. Organized by SAs Amy Durso and Francis Novak, HUD OIG special
 agents were tested and registered in a national database for a potential match with Leukemia victims.



    SA Carissa Barnes and 11 team members from the Federal Bureau of Investigation participated in a
 181-mile relay race from Logan, UT, to Park City, UT. Proceeds from the relay race, known as the "Wasatch
 Back Ragnar Relay Race," were donated to Operation Kids, an organization that supports disadvantaged youth.




126
    Chapter 8
   Review of
Policy Directives
     Reviewing and making recommendations on legislation, regulations, and policy issues is a critical part of
 the Office of Inspector General's (OIG) responsibilities under the Inspector General Act. During this
 6-month reporting period, OIG reviewed 149 issuances. This chapter highlights some of OIG's prior
 comments on notices, comments for this reporting period, and other policy directives.

 Enacted Legislation Related to Single-Family Housing
     Due to the collapse of the subprime mortgage market and resulting increase in foreclosures, Congress and
 the President approved the Housing and Economic Recovery Act of 2008. The legislation contained two
 significant new programs for the U.S. Department of Housing and Urban Development (HUD): the
 Neighborhood Stabilization Program ($3.92 billion) and the Hope for Homeowners Program. The programs
 and their related rules create new challenges and risks to the Department and its partners. OIG plans to closely
 monitor proposed guidance and regulations and to work in cooperation with the Department on these new
 programs.

     In addition, the Housing and Economic Recovery Act of 2008 provided four items that OIG believes will
 reduce fraud and strengthen the Federal Housing Administration (FHA) single-family mortgage programs.
 Specifically,

      -   Section 2129 amended Title 18, Section 1014, to include FHA loans. Therefore, it is a criminal
          offense for a person to make a false statement on an FHA loan commitment, insurance agreement, or
          application for insurance or guarantee. The person may receive up to 30 years in jail and/or up to a $1
          million fine.
      -   Section 2113 prohibited seller-funded downpayment assistance. Seller-funded downpayment
          assistance has resulted in substantial losses to the FHA fund.
      -   Section 2113 increased the cash investment of the buyer. Therefore, buyers must have an equity
          investment in the FHA loan.

      -   The Act also placed a moratorium on FHA's proposed risk-based insurance premium structure, thus
          maintaining the current treatment of program participants.

 Proposed Rules
     OIG nonconcurred on a number of HUD proposed rules. Working cooperatively with the Department,
 OIG was able to reach agreement on these nonconcurrences, which in turn strengthened HUD's oversight
 role, resolved inconsistencies between the proposed rule and OIG recommendations, and put into place
 mechanisms to better assess risks for new programs. OIG continues to work cooperatively with HUD to
 resolve other outstanding nonconcurrences.




128                                                                           Chapter 8: Review of Policy Directives
 Chapter 9
  Audit
Resolution
     In the audit resolution process, Office of Inspector General (OIG) and U.S. Department of Housing and
 Urban Development (HUD) management agree upon the needed actions and timeframes for resolving audit
 recommendations. Through this process, OIG hopes to achieve measurable improvements in HUD programs
 and operations. The overall responsibility for assuring that the agreed-upon changes are implemented rests
 with HUD managers. This chapter describes significant management decisions with which OIG disagrees. It
 also contains a status report on HUD's implementation of the Federal Financial Management Improvement
 Act of 1996 (FFMIA). In addition to this chapter on audit resolution, see appendix 2, table B, "Significant
 Audit Reports Described in Previous Semiannual Reports in Which Final Action Had Not Been Completed as
 of September 30, 2008."

 Audit Reports Issued before Start of Period with No Management
 Decision as of September 30, 2008
 Office of Housing,Washington, DC
      Single-Family Mortgage Insurance Claims, Issued July 11, 2006. The Inspector General referred this issue to
 the Deputy Secretary on December 4, 2006, because agreement could not be reached with the Office of
 Housing. The three recommendations relate to the Office of Housing's not independently determining that
 mortgage loans insured under the Mutual Mortgage Insurance Fund met program requirements after paying
 billions in single-family insurance claims. During the period October 1, 2003, through June 3, 2005, HUD
 received and paid claims on loans for which the lender did not show that the borrower (1) was able to make the
 required monthly payments, (2) made the minimum investment in the property, and (3) was creditworthy.
 HUD paid the claims and did not subsequently review the loan files for compliance with the program
 requirements, fraud, and/or misrepresentations. HUD relied upon lender certifications that loans were
 eligible and contained all required supporting documents, a preendorsement review of the insurance
 applications for key documents, and risk-based compliance testing of recently insured loans. We estimate that
 final HUD costs for claims that HUD's files did not support as meeting program requirements during the
 period reviewed totaled $356 million on those claims for which all revenues and expenses were finalized.

     In his February 23, 2007, response, the Deputy Secretary stated support of OIG's objective and agreed
 with the overall conclusions reached. The Deputy Secretary directed the Office of Housing to immediately
 begin implementing procedures in conjunction with and acceptable to OIG to effect the recommendations.
 However, the Office of Housing did not submit its plan to implement the Deputy Secretary's directive until
 March 30, 2007. Even then, the plan was unacceptable. Then on June 11, 2007, the Office of Housing
 submitted an additional proposal, which was also rejected by OIG. OIG met again with Office of Housing
 officials on September 30, 2008, and an agreement was reached on proposed actions by the Office of Housing
 that satisfied two of the three outstanding recommendations, 1A and 1C. However, recommendation 1B
 remains open until the Office of Housing seeks recovery of or provides adequate documentation in support for
 claims paid on 39 of the loans from OIG's audit sample that did not meet FHA eligibility requirements.
 (Report No. 2006-SE-0001).




130                                                                                    Chapter 9: Audit Resolution
 Significantly Revised Management Decisions
    Section 5(a)(11) of the Inspector General Act, as amended, requires that OIG report information
 concerning the reasons for any significantly revised management decisions made during the reporting period.
 During the current reporting period, there were significantly revised management decisions on two audits.

 Domicile Property Management, Inc. - San Antonio,TX
     Issue Date: November 19, 2004. In violation of the properties' regulatory agreements, Domicile Property
 Management diverted property income totaling more than $771,000 to pay its own expenses and paid nearly
 $1.5 million from property accounts without documentation to show that the payments were for necessary
 and reasonable operating costs. Further, Domicile did not abide by the 1995 settlement agreement for a
 previous HUD claim involving project overcharges during 1992 and 1993. Under that agreement, Domicile
 paid more than $272,000 but did not report and pay an additional $49,000 for self-funded health insurance.
 Because of Domicile's current diversions and failure to pay the previous settlement obligation, it deprived the
 properties of operating funds, thereby reducing HUD's security interests and increasing HUD's risks.

     We recommended that HUD, through the Office of Regional Counsel and the United States Attorney's
 Office, require Domicile and Mr. John T. Condit, owner of Domicile, to repay nearly $2.3 million and pay
 audit costs of more than $352,000. We also recommended that HUD take administrative action against
 Domicile and Mr. Condit.

     On October 24, 2004, the United States Attorney's Office filed a civil complaint against Mr. Condit,
 alleging false claims and equity skimming seeking the above amounts.

     In a separate matter, Washington Mutual Bank filed suit in a Federal district court on August 29, 2001, for
 the repayment of debts owed by the Condit family. Washington Mutual Bank received a judgment against the
 Condit family on February 27, 2002, and the court appointed a receiver for the Condit family assets on April
 10, 2003. The receiver took control of Mr. Condit's assets on July 24, 2003.

     Mr. Condit filed for bankruptcy protection on December 24, 2003, listing no appreciable assets. After
 extensive discussions among all parties, including the United States Attorney, HUD, OIG, the receiver, and
 Mr. Condit, an agreement was reached on February 13, 2006. Mr. Condit agreed to a 10-year
 voluntary exclusion. The receiver agreed to the Government's unsecured nonpriority claim against Mr. Condit's
 assets held by the receiver. The Government agreed to drop the civil false claim and equity skimming
 complaint.

    Following various communications between HUD and OIG, on March 13, 2008, HUD requested that
 OIG write off the disallowed costs due to the above events. On April 23, 2008, disallowed costs of more than
 $2.6 million were written off, and the audit was closed. (Audit Report: 2005-FW-1002)

 United States Veterans Initiative, Inc. - Inglewood, CA
     Issue Date: September 27, 2004. HUD OIG conducted an audit, which disclosed that contrary to Federal
 regulations and grant requirements, United States Veterans Initiative, Inc., was unable to support that it met
 cash matching funds requirements for any of the more than $7.2 million in Supportive Housing Program
 (SHP) grant funds expended during the audit period. U.S. Veterans Initiative also spent more than $633,000



Chapter 9: Audit Resolution                                                                                   131
 in SHP funds for ineligible and unsupported salaries and other expenses. In addition, it did not administer its
 SHP grants in accordance with requirements because it failed to (1) develop an adequate financial
 management system, (2) comply with procurement and contract administration requirements, (3) establish
 and implement indirect cost rates as required, and (4) close out expired grants.

     We recommended that HUD require U.S. Veterans Initiative and/or its continuums, Los Angeles
 Homeless Services Authority and the City of Long Beach, to (1) repay HUD from nonfederal funds for nearly
 $6.6 million in SHP grant expenditures that did not have the required matching funds unless it can provide
 the supporting documentation, (2) comply with Federal requirements in carrying out its SHP grant activities,
 (3) reimburse the SHP grants and/or repay HUD from nonfederal funds for the more than $633,000 in
 ineligible and unsupported expenses, (4) revise U.S. Veterans Initiative's financial management system,
 (5) competitively procure the services in the business services agreement, (6) develop and/or update the
 indirect cost rates, and (7) submit financial closeout reports for expired grants.

     On April 6, 2005, OIG reached management decisions on all of the findings with the Office of
 Community Planning and Development (CPD). With regard to finding 1, in September 2006, CPD stated
 that it had sent letters to the U.S. Departments of Labor and Veterans Affairs and also to AmeriCorps asking
 for legal opinions regarding whether their funds could be used to match CPD's SHP. This action was
 necessary, as the Comptroller General has ruled that in order for a Federal agency's funds to be used as a match,
 its statutes must explicitly permit it. CPD had not received definitive responses from the agencies.
 Nevertheless, it determined that a decision on any possible repayment due to the unauthorized use of matching
 funds could no longer be prolonged. CPD determined that the noncompliance resulted from ambiguities in
 the program regulations and applicable Office of Management and Budget (OMB) circulars. At that time,
 CPD concluded that it would not seek repayment from U.S. Veterans Initiative. Instead, it plans to request
 approval from the U.S. Department of Justice to write off any debt associated with the confusion over match
 requirements. In addition, CPD plans to revise its regulations to clearly reflect the Comptroller General's
 opinions.

     On April 23, 2008, CPD proposed a revised course of corrective action. It stated that it would take two
 final steps. The first was to issue a letter to U.S. Veterans Initiative requiring it to secure and provide to CPD
 written documentation from each Federal source used as match for its SHP grants, stating whether that agency
 prohibits the use of its program funds as match for SHP grants. CPD had already sent the letter to U.S.
 Veterans Initiative on April 7, 2008. At OIG's request, it agreed to also inform any Federal agency that states
 that its funds are a prohibited match source that it is incumbent upon that agency, not HUD, to pursue
 collection activities as appropriate. The second requirement was that CPD would commit to issuing a
 regulation pertaining to cash match. The regulation should state that homeless assistance grantees are
 responsible to use only allowable sources of Federal funds as cash match. This regulation would put grantees
 on notice to use only allowable cash match sources. If HUD becomes aware of any Federal program that is
 prohibited by the cognizant agency as a cash match source, HUD will specifically cite that program in the next
 annual notice of funding availability for the continuum of care homeless assistance programs competition.
 Based on this commitment to issue a regulation, the audit recommendations were closed, and the unsupported
 costs were written off.

    With regard to the second finding, U.S. Veterans Initiative has established a repayment agreement with
 HUD for more than $363,000 and is currently repaying the disallowed expenses. The final payment should be
 made by April 15, 2013. The recommendations for finding 3 have been closed. (Audit Report:
 2004-LA-1008)



132                                                                                      Chapter 9: Audit Resolution
 Significant Management Decision with Which OIG Disagrees
    There are no reports issued before the beginning of the reporting period for which a management decision
 had not been made by the end of the period.

 Federal Financial Management Improvement Act of 1996
     In fiscal year 2008, HUD did not fully comply with FFMIA. Specifically, HUD's financial management
 systems did not substantially comply with Federal financial management system requirements.

    FFMIA requires that HUD implement a remediation plan that will bring financial systems into compli-
 ance with Federal financial management system requirements within 3 years or obtain OMB concurrence if
 more time is needed.

    FFMIA requires OIG to report in its Semiannual Reports to the Congress instances and reasons when an
 agency has not met the intermediate target dates established in its mediation plan required by FFMIA. In April
 1998, HUD determined that 38 of its systems were not in substantial compliance with FFMIA. At the end of
 2008, the Department reported that 2 of its 42 financial management systems were not in substantial
 compliance with FFMIA. These two systems are the HUD Procurement System and Small Purchase System.




Chapter 9: Audit Resolution                                                                                  133
  Appendix 1
Audit Reports
   Issued
 Internal Reports
 22 Audit Reports
 Administration (1 Report)
 2008-CH-0003          HUD Needs to Improve Its Existing Procedures and Controls Regarding Its
                       Management of Human Capital, 09/30/2008.
 Chief Information Officer (3 Reports)
 2008-DP-0005          Review of Controls over the Removal of Local and Remote User Access, 07/21/2008.
 2008-DP-0006          Review of HUD's Information Technology Security Program, 07/23/2008.
 2008-DP-0007          Evaluation of HUD's Security Controls over Databases, 09/11/2008.
 Community Planning and Development (2 Reports)
 2008-BO-0002          Maintenance of Effort Requirements Are Needed to Ensure Intended Use of CDBG
                       Program Funds, 05/21/2008.
 2008-FW-0001          HUD's CDBG Set-Aside for Colonias Was Not Used for Its Intended Purposes,
                       07/29/2008. Questioned: $8,448,000; Unsupported: $8,448,000; Better
                       Use: $2,816,000.
 Fair Housing and Equal Opportunity (1 Report)
 2008-NY-0002          Weaknesses in the Office of Fair Housing and Equal Opportunity's 2007 Award
                       Process for the Fair Housing Initiative Program, National-Based Media Campaign,
                       08/27/2008.
 Housing (8 Reports)
 2008-CH-0001          HUD Did Not Always Ensure That FHA Lenders Complied with Federal
                       Requirements Regarding Home Equity Conversion Mortgages, 09/29/2008.
 2008-CH-0002          HUD Did Not Always Ensure That FHA Lenders Complied with Federal
                       Requirements When Submitting Loans for New Construction Properties Located
                       in FEMA's Designated Special Flood Hazard Areas, 09/29/2008. Questioned: $432,058;
                       Unsupported: $432,058; Better Use: $260,670.
 2008-DP-0004          Review of Selected FHA Major Applications' Information Security Controls,
                       06/12/2008.
 2008-KC-0004          HUD's Office of Single Family Housing Could Improve the Reliability of Its Process
                       for Reporting Performance Measure Results, 06/24/2008.
 2008-KC-0005          HUD's Office of Multifamily Housing Generally Met Requirements While
                       Administering the Opt-Out Process for Section 8 Projects, 07/15/2008.
 2008-KC-0006          HUD's Office of Single Family Housing Had Not Fully Implemented an Internal
                       Control Structure in Accordance with Requirements, Washington, DC, 09/08/2008.
 2008-KC-0007          HUD Inappropriately Authorized the Use of Residual Receipts in Lieu of Reserve for
                       Replacement or Operating Funds, 09/29/2008. Questioned: $3,203,135.
 2008-LA-0003          Implementation Weaknesses Existed in All Major Phases of the FHA Appraiser Review
                       Process, 09/04/2008.


136                                                                          Appendix 1: Audit Reports Issued
 Public and Indian Housing (4 Reports)
 2008-AT-0002                 The Miami-Dade Housing Agency Did Not Maintain Adequate Controls over Its Capital
                              Fund Program, 04/24/2008. Questioned: $13,912,124; Unsupported: $13,912,124.
 2008-AT-0003                 HUD Lacked Adequate Controls over the Physical Condition of Section 8 Voucher
                              Program Housing Stock, 05/14/2008.
 2008-AT-0004                 The Miami-Dade Housing Agency Did Not Maintain Adequate Controls over Capital
                              Fund Program Drawdowns, Miami, FL, 09/17/2008. Questioned: $730,137;
                              Unsupported: $668,014; Better Use: $257,694.
 2008-KC-0003                 EIV Users Did Not Always Take Advantage of HUD's Training and Guidance,
                              04/14/2008.

 Audit-Related Memorandums1
 Chief Information Officer (1 Report)
 2008-DP-0802                 OIG Response to Questions from the OMB under the FISMA, 09/30/2008.
 Public and Indian Housing (2 Reports)
 2008-AT-0802                 Corrective Action Verification, Opelika Housing Authority, Public Housing Programs,
                              Audit Report 2004-AT-1011, 05/12/2008. Questioned: $57,900.
 2008-AT-0803                 Corrective Action Verification, Housing Authority of the City of Cuthbert, GA, Public
                              Housing Programs, Audit Report 2004-AT-1001, 09/30/2008. Questioned: $283,914.




 External Reports
 68 Audit Reports
 Community Planning and Development (19 Reports)
 2008-AO-1003                 The Mississippi Development Authority's Homeowners Assistance Program Contract
                              Included Ineligible Provisions, Jackson, MS, 04/25/2008. Questioned: $3,907,378;
                              Better Use: $243,210.
 2008-AO-1005                 State of Louisiana, Road Home Program, Did Not Ensure That All Additional
                              Compensation Grant Applicants Were Eligible, Baton Rouge, LA, 08/07/2008.
                              Questioned: $263,959; Unsupported: $118,885.
 2008-AT-1008                 The Municipality of Carolina Needs to Improve Procurement of Its Housing
                              Rehabilitation Activities, Carolina, PR, 06/06/2008. Questioned: $81,143;
                              Unsupported: $81,143.



 1
   The memorandum format is used to communicate the results of reviews not performed in accordance with
 generally accepted government audit standards, to close out assignments with no findings and recommendations,
 to respond to requests for information, to report on the results of a survey, to report results, or to report the results
 of civil actions or settlements.



Appendix 1: Audit Reports Issued                                                                                             137
 2008-AT-1009   The City of Augusta’s Controls over Its HOME Program Were Inadequate, Augusta,
                GA, 06/09/2008. Questioned: $566,697; Unsupported: $196,657; Better
                Use: $477,373.
 2008-AT-1011   The City of Durham Did Not Comply with HOME Investment Partnerships
                Requirements, Durham, NC, 08/07/2008. Questioned: $113,103; Unsupported:
                $99,831; Better Use: $258,392.
 2008-AT-1012   The City of Jacksonville Lacked Adequate Controls over Its HOME Program,
                Jacksonville, FL, 09/05/2008. Questioned: $2,780,433; Unsupported: $500,000.
 2008-AT-1015   The City of Durham Did Not Comply with All Federal Procurement Requirements,
                Durham, NC, 09/24/2008. Questioned: $790,364; Unsupported: $790,364.
 2008-CH-1004   The City of Muncie Lacked Adequate Controls over Its HOME Investment
                Partnerships Program, Muncie, IN, 04/07/2008. Questioned: $221,652; Unsupported:
                $215,575; Better Use: $1,120,325.
 2008-CH-1009   Cook County Lacked Adequate Controls over Its HOME Investment Partnerships
                Program Income and Administrative Costs, Chicago, IL, 06/07/2008. Questioned:
                $63,852; Unsupported: $55,527; Better Use: $5,852,258.
 2008-CH-1010   The City of Cincinnati Lacked Adequate Controls over Its System Reporting and Rental
                Rehabilitation Projects for Its HOME Investment Partnerships Program, Cincinnati,
                OH, 06/11/2008. Questioned: $1,990,846; Unsupported: $590,458; Better Use:
                $792,283.
 2008-CH-1014   The City of Cincinnati Did Not Adequately Manage Its HOME Investment
                Partnerships Program, Cincinnati, OH, 09/26/2008. Questioned: $4,600,968;
                Unsupported: $1,822,102; Better Use: $12,146.
 2008-CH-1015   The City of Dayton Lacked Adequate Controls Regarding Staff Salaries Paid from Its
                CDBG Program, Dayton, OH, 09/26/2008. Questioned: $556,455; Unsupported:
                $556,455.
 2008-DE-1003   The State of Colorado Did Not Comply with CDBG Program Requirements, Denver,
                CO, 09/23/2008. Questioned: $4,635,464; Unsupported: $2,887,423.
 2008-FW-1012   The City of Tulsa Allowed Its Largest Subrecipient to Expend $1.5 Million in
                Unsupported CDBG Funding, Tulsa, OK, 08/04/2008. Questioned: $1,506,582;
                Unsupported: $1,391,367; Better Use: $8,982,150.
 2008-KC-1007   The City of St. Louis Used HOME Program Funds to Provide Excessive Development
                Subsidies, St. Louis, MO, 09/30/2008.
 2008-LA-1016   The City of Los Angeles Housing Department Did Not Comply with HOME
                Affordability Monitoring and Inspection Requirements for Its HOME-Assisted Rental
                Housing, Los Angeles, CA, 09/18/2008. Questioned: $38,102,707; Unsupported:
                $38,102,707; Better Use: $226,483.
 2008-NY-1006   The City of Troy Did Not Always Administer Its CDBG Program in Accordance with
                HUD Requirements, Troy, NY, 05/21/2008. Questioned: $1,418,088; Unsupported:
                $1,232,000; Better Use: $288,874.




138                                                                    Appendix 1: Audit Reports Issued
 2008-NY-1007            The County of Essex Did Not Always Administer Its CDBG Program in Accordance
                         with HUD Requirements, Verona, NJ, 05/29/2008. Questioned: $2,567,327;
                         Unsupported: $517,125; Better Use: $3,678,823.
 2008-PH-1008            The State of Maryland Did Not Always Administer Its HOME-Assisted Single-Family
                         Owner-Occupied Rehabilitation Program in Accordance with Federal Regulations,
                         Crownsville, MD, 04/30/2008. Questioned: $2,319,124; Unsupported: $2,276,834;
                         Better Use: $74,648.
 Government National Mortgage Association (1 Report)
 2008-AT-1014            Doral Bank Needs to Improve Controls over Its Mortgage-Backed Securities Program,
                         San Juan, PR, 09/22/2008. Questioned: $291,094.
 Housing (15 Reports)
 2008-AT-1010            Meridian Lending, Inc., Did Not Follow HUD Requirements in Originating Two
                         Insured Loans, Monroe, GA, 07/25/2008. Questioned: $34,172; Better Use: $50,720.
 2008-AT-1013            Bethany Housing, Inc., Did Not Conduct Proper Oversight of Project Operations
                         Resulting in Financial Harm to the Project, South Pasadena, FL, 09/18/2008.
                         Questioned: $106,686; Unsupported: $12,994.
 2008-BO-1007            Countrywide Bank, Milford and Madison, CT, Did Not Comply with Certain HUD
                         Requirements in Administering Its FHA Insured Loan Programs, 07/24/2008.
                         Questioned: $5,767.
 2008-DE-1004            First National Bank Did Not Follow HUD Requirements in Originating and
                         Underwriting Insured Loans and Did Not Have a Quality Control Plan, Gillette, WY,
                         09/24/2008.
 2008-FW-1010            Senior Reverse Mortgage Services Generally Complied with HUD Regulations but
                         Could Improve, Bedford, TX, 07/14/2008.
 2008-FW-1013            Wells Fargo Mortgage Loans Generally Complied with Reverse Mortgage
                         Requirements, San Antonio, TX, 09/25/2008. Questioned: $239,750; Unsupported:
                         $5,000.
 2008-KC-1004            Peoples Bank Did Not Follow HUD's Requirements When Underwriting Nine FHA
                         Loans and Implementing Its Quality Control Program, Overland Park, KS,
                         08/20/2008. Questioned: $41,938; Better Use: $353,304.
 2008-KC-1005            James B. Nutter Did Not Meet HUD's or Its Own Quality Control Requirements
                         Regarding the Number of Loans to Review, Kansas City, MO, 09/03/2008.
 2008-KC-1006            Heartland Funding Corporation Violated the Real Estate Settlement Procedures Act
                         and Did Not Fully Comply with HUD's Underwriting, Quality Control, or Employee
                         Compensation Requirements, Springfield, MO, 09/08/2008. Questioned: $138,170;
                         Better Use: $885,291.
 2008-LA-1013            First Magnus Financial Corporation Violated the Real Estate Settlement Procedures
                         Act When Paying Incentives to Brokers for Generating FHA Mortgages, Tucson, AZ,
                         07/14/2008.




Appendix 1: Audit Reports Issued                                                                         139
 2008-LA-1014         First Magnus Financial Corporation Violated the Real Estate Settlement Procedures
                      Act When Paying Builders and Real Estate Companies Marketing Fees and
                      Noncompetition Fees in Exchange for FHA Mortgage Business, Tucson, AZ,
                      08/01/2008.
 2008-NY-1005         Mortgage Access Corporation Did Not Always Comply with HUD/FHA Loan
                      Origination Requirements, Morris Plains, NJ, 05/12/2008. Questioned: $93,500; Better
                      Use: $480,897.
 2008-NY-1010         Wells Fargo Bank NA, Rochester, NY, Branch Office, Did Not Always Comply with
                      HUD/FHA Loan Origination Requirements, 08/26/2008. Questioned: $50,297;
                      Better Use: $514,134.
 2008-PH-1011         Wells Fargo Home Mortgage Did Not Always Comply with HUD Requirements in
                      the Origination of FHA-Insured Single-Family Loans, Newark, DE, 07/31/2008.
                      Better Use: $318,596.
 2008-SE-1004         A Plus Mortgage, Inc., Overcharged Borrowers and Allowed Independent Contractors
                      and Unapproved Branches to Originate Loans, Tukwila, WA, 05/07/2008. Questioned:
                      $185,146.
 Public and Indian Housing (32 Reports)
 2008-AT-1007         The Municipality of Caguas Needs to Improve Controls over Its Section 8 Program,
                      Caguas, PR, 05/30/2008. Questioned: $15,043; Unsupported: $1,957; Better Use:
                      $7,792.
 2008-BO-1006         Woonsocket Housing Authority Housing Choice Voucher Program and Public
                      Housing Program Deficiencies Resulted in Cost Exceptions Totaling $904,494,
                      Woonsocket, RI, 05/14/2008. Questioned: $663,413; Unsupported: $660,805;
                      Better Use: $241,081.
 2008-BO-1008         The State of Connecticut Department of Social Services Significantly Underleased Its
                      Housing Choice Voucher Program and Did Not Always Comply with Its Annual
                      Contributions Contracts and HUD Regulations, Hartford, CT, 09/04/2008.
                      Questioned: $1,643,809; Unsupported: $1,629,369; Better Use: $1,033,400.
 2008-CH-1005         The Peoria Housing Authority Did Not Effectively Administer Its Section 8 Housing
                      Choice Voucher Program, Peoria, IL, 04/10/2008. Questioned: $256,962; Unsupported:
                      $72,235; Better Use: $296,822.
 2008-CH-1006         The Indianapolis Housing Agency Did Not Effectively Operate Its Section 8 Housing
                      Choice Voucher Program, Indianapolis, IN, 04/15/2008. Questioned: $878,328;
                      Unsupported: $587,022; Better Use: $9,967,963.
 2008-CH-1007         The Housing Authority of the City of Fort Wayne Needs to Improve Its Section 8
                      Housing Choice Voucher Program Administration, Fort Wayne, IN, 04/18/2008.
                      Questioned: $1,405,669; Unsupported: $1,269,955; Better Use: $4,143,788.
 2008-CH-1008         The Lansing Housing Commission Failed to Follow HUD's Requirements for Its
                      Nonprofit Development Activities, Lansing, MI, 04/30/2008. Questioned: $753,842;
                      Better Use: $2,096,824.




140                                                                          Appendix 1: Audit Reports Issued
 2008-CH-1011            The Portage Metropolitan Housing Authority Needs to Improve Its Section 8 Housing
                         Choice Voucher Program Administration, Ravenna, OH, 06/30/2008. Questioned:
                         $142,360; Unsupported: $51,490; Better Use: $609,504.
 2008-CH-1012            The Cincinnati Metropolitan Housing Authority Did Not Effectively Operate Its
                         Section 8 Housing Quality Standards Inspection Program, Cincinnati, OH,
                         09/23/2008. Questioned: $35,594; Better Use: $5,870,016.
 2008-CH-1013            The Highland Park Housing Commission Lacked Adequate Controls over Unit
                         Conditions and Maintenance Program, Highland Park, MI, 09/24/2008. Questioned:
                         $75,626; Better Use: $399,120.
 2008-CH-1016            The Springfield Housing Authority Did Not Always Ensure That Section 8 Units Met
                         HUD's Housing Quality Standards, Springfield, IL, 09/29/2008. Questioned: $59,770;
                         Better Use: $591,815.
 2008-CH-1017            The Chicago Housing Authority Needs to Improve Its Controls over Housing
                         Assistance and Utility Allowance Payments, Chicago, IL, 09/30/2008. Questioned:
                         $276,983; Unsupported: $163,794; Better Use: $7,141.
 2008-FW-1009            The Shreveport Housing Authority Made Excessive Housing Assistance Payments in
                         Its Section 8 Housing Choice Voucher Program, Shreveport, LA, 05/08/2008.
                         Questioned: $18,517; Better Use: $155,674.
 2008-FW-1011            The Dallas Housing Authority Mismanaged Its Housing Choice Voucher Program,
                         Dallas, TX, 07/31/2008. Questioned: $19,584,256; Unsupported: $19,330,423.
 2008-KC-1003            The Des Moines Municipal Housing Agency Did Not Always Assign Proper Voucher
                         Sizes or Accurately Calculate Overpayments from Unreported Income in Its Section 8
                         Housing Choice Voucher Program, Des Moines, IA, 04/22/2008. Questioned: $99,347;
                         Better Use: $206,064.
 2008-LA-1009            The Housing Authority of the City of Eloy Did Not Have Adequate Internal Controls
                         to Safeguard Assets and Ensure Compliance with HUD's Requirements, Eloy, AZ,
                         05/05/2008. Better Use: $755,365.
 2008-LA-1010            The Housing Authority of the City of San Buenaventura Did Not Manage HUD
                         Program Funds in Accordance with HUD Requirements, San Buenaventura, CA,
                         05/28/2008. Questioned: $496,137; Better Use: $243,352.
 2008-LA-1011            The City of Phoenix Housing Department's Controls over Section 8 Tenant Eligibility
                         and Rent Determinations Were Not Adequate, Phoenix, AZ, 06/17/2008. Questioned:
                         $384,085; Unsupported: $371,469; Better Use: $540,427.
 2008-LA-1012            The Housing Authority of the City of Calexico Did Not Comply with Public Housing
                         Program Rules and Regulations, Calexico, CA, 07/01/2008. Questioned: $1,446,319;
                         Unsupported: $840,586; Better Use: $1,210,852.
 2008-LA-1015            The Housing Authority of the City of Los Angeles Could Not Show That It Used
                         HUD Program Funds in Accordance with HUD Requirements, Los Angeles, CA,
                         08/21/2008. Questioned: $27,801,379.
 2008-NY-1008            Tuckahoe Housing Authority Had Weaknesses in the Administration of Its Low-Rent
                         Housing and Nonprofit Entity Activities, Tuckahoe, NY, 06/19/2008. Questioned:
                         $262,557; Unsupported: $182,547.



Appendix 1: Audit Reports Issued                                                                           141
 2008-NY-1009                 Union County Had Weaknesses in Its Housing Choice Voucher Program, Elizabeth,
                              NJ, 06/30/2008. Questioned: $105,338; Unsupported: $83,476; Better Use: $762,000.
 2008-PH-1006                 The Richmond Redevelopment and Housing Authority Did Not Effectively Operate
                              Its Housing Choice Voucher Program, Richmond, VA, 04/15/2008. Questioned:
                              $430,441; Unsupported: $346,432; Better Use: $3,361,534.
 2008-PH-1007                 The Harrisburg Housing Authority Did Not Ensure That Its Section 8 Housing Choice
                              Voucher Program Units Met Housing Quality Standards, Harrisburg, PA, 04/15/2008.
                              Questioned: $44,909; Better Use: $884,917.
 2008-PH-1009                 The Housing Authority of the City of Allentown Did Not Ensure That Its Section 8
                              Housing Choice Voucher Program Units Met Housing Quality Standards, Allentown,
                              PA, 07/14/2008. Questioned: $88,820; Better Use: $1,278,005.
 2008-PH-1010                 The District of Columbia Housing Authority Did Not Implement Effective Controls
                              for Its Leased Housing under Its MTW Program, Washington, DC, 07/30/2008.
                              Questioned: $410,046; Unsupported: $51,258; Better Use: $435,140.
 2008-PH-1012                 The Delaware County Housing Authority Did Not Adequately Administer Its
                              Housing Assistance Payments, Woodlyn, PA, 08/15/2008. Questioned: $85,584;
                              Unsupported: $26,596; Better Use: $929,688.
 2008-PH-1013                 The Housing Authority of Baltimore City Did Not Ensure That Its Program Units Met
                              Housing Quality Standards under Its MTW Program, Baltimore, MD, 09/19/2008.
                              Questioned: $47,862; Better Use: $3,457,428.
 2008-PH-1014                 The Housing Authority of the City of Pittsburgh Did Not Adequately Administer Its
                              Housing Assistance Payments for Leased Housing, Pittsburgh, PA, 09/30/2008.
                              Questioned: $75,461; Unsupported: $58,470; Better Use: $1,708.
 2008-SE-1003                 Salish and Kootenai Housing Authority Did Not Properly Recognize and Account for
                              Program Income from 1937 Act Housing Projects, Pablo, MT, 04/28/2008. Better
                              Use: $184,226.
 2008-SE-1005                 Renton Housing Authority Overpaid Rental Assistance and Did Not Have Sufficient
                              Controls over Rent Reasonableness, Renton, WA, 06/03/2008. Questioned: $11,024.
 2008-SE-1006                 The Richland Housing Authority Did Not Adequately Account for Housing Choice
                              Voucher Funds, Richland, WA, 07/07/2008. Questioned: $57,574; Unsupported:
                              $15,391.

 Audit-Related Memorandums1
 General Counsel (1 Report)
 2008-LA-1801                 Actions under PFCRA, First Source Financial USA, Henderson, NV, 09/03/2008.
                              Questioned: $1,405,201.



 1
   The memorandum format is used to communicate the results of reviews not performed in accordance with
 generallyaccepted government audit standards, to close out assignments with no findings and recommendations,
 to respond to requests for information, to report on the results of a survey, to report results, or to report the results
 of civil actions or settlements.



142                                                                                                 Appendix 1: Audit Reports Issued
Appendix 2
 Tables
                                             Table A
                         Audit reports issued prior to start of period
                    with no management decision at September 30, 2008
                   * Significant audit reports described in previous semiannual reports

  Report number                  Reason for lack of                     Issue date/target
  and title                      management decision                    for management decision
  *2006-SE-0001 Single           See chapter 9, page 130                07/11/2006
  Family Mortgage
  Insurance Claims




144                                                                                       Appendix 2: Tables
                                                 Table B
              Significant audit reports in which final action had not been completed
                              within 12 months after the date of the
                                     Inspector General’s report
  Report             Report title                               Issue       Decision       Final
  number                                                        date         date         action
 1997-AT-1003        Municipality of Mayaguez, CDBG and       07/01/1997   10/29/1997   06/30/2009
                     Section 108 Loan Guarantee Assistance
                     Programs, Mayaguez, PR

 2002-AT-1002        Housing Authority of the City of         07/03/2002   10/31/2002   04/30/2010
                     Tupelo, Housing Programs Operations,
                     Tupelo, MS

 2002-KC-0002        Nationwide Survey of HUD's Office of     07/31/2002   11/22/2002   12/31/2008
                     Housing Section 232 Nursing Home
                     Program

 2002-PH-1005        Philadelphia Regional Alliance of        09/30/2002   03/31/2003   11/03/2008
                     HUD Tenants, Outreach and Training
                     Assistance Grant and Intermediary
                     Technical Assistance Grant,
                     Philadelphia PA

 2003-SE-1002        Tenants Union, Outreach and Training     12/02/2002   03/31/2003   11/03/2008
                     Assistance Grant and Intermediary
                     Training Assistance Grant, Seattle, WA

 2004-PH-0001        Procedures for Filing Uniform            11/26/2003   04/14/2004   05/31/2009
                     Commercial Code Continuation
                     Statements

 2004-BO-1004        Danbury Housing Authority, Capital       12/05/2003   04/05/2004   12/01/2008
                     Fund Program, Boston, MA

 2004-PH-1003        The Congress of National Black           02/19/2004   06/18/2004   11/15/2008
                     Churches, Incorporated, Housing
                     Counseling Program, Washington, DC

 2004-DP-0002        Application Control Review of the        02/25/2004   07/14/2004   02/28/2009
                     Tenant Rental Assistance Certification
                     System

 2004-PH-1008        Safe Haven Outreach Ministry,            06/03/2004   08/31/2004   10/31/2008
                     Incorporated, Washington, DC




Appendix 2: Tables                                                                                   145
  Report        Report title                             Issue       Decision         Final
  number                                                 date         date           action
 2004-CH-1803   Somerset Point Nursing Home,           08/09/2004   08/09/2004    07/31/2009
                Multifamily Equity Skimming,
                Shaker Heights, OH

 2004-PH-1012   Mortgage America Bankers, LLC,         09/10/2004   01/06/2005       Note 1
                Nonsupervised Loan Correspondent,
                Kensington, MD

 2004-FW-1009   Mays Property Management,Inc.,         09/17/2004   02/23/2005    10/01/2008
                Multifamily Management Agent,
                Little Rock, AR

 2005-AT-1004   Housing Authority of the City of       11/19/2004   03/15/2005    03/15/2015
                Durham, NC

 2005-CH-1003   Royal Oak Township Housing             11/29/2004   03/29/2005    10/31/2008
                Commission, Public Housing
                Program, Ferndale, MI

 2005-AT-1013   Corporacion Para el Fomento            09/15/2005   01/11/2006    11/30/2008
                Economico de la Ciudad Capital
                Did Not Administer Its Independent
                Capital Fund in Accordance with
                HUD Requirements, San Juan,
                PR

 2005-CH-1017   Flint Housing Commission, Section 8    09/23/2005   01/20/2006    01/20/2016
                Housing Program, Flint, MI

 2005-CH-1020   Housing Authority of the City of       09/29/2005   01/25/2006    12/31/2052
                Gary, Section 8 Housing Program,
                Gary, IN

 2006-CH-0001   Real Estate Assessment Center's        11/30/2005   01/10/2006    11/30/2008
                Physical Condition Assessment
                Was Compromised

 2006-AT-1001   Miami-Dade Housing Agency Did          12/21/2005   05/31/2006    01/01/2009
                Not Ensure Section 8 Assisted Units
                Met Housing Quality Standards,
                Miami, FL

 2006-AT-1004   The Housing Authority of the City      01/13/2006   04/25/2006    06/30/2010
                of Prichard Did Not Ensure Section 8
                Subsidy Payments Were for Eligible
                Units, Tenants, and Landlords,
                Prichard, AL




146                                                                              Appendix 2: Tables
  Report             Report title                            Issue       Decision       Final
  number                                                     date         date         action
 2006-SE-1001        Idaho Housing and Finance             01/26/2006   05/23/2006   12/31/2008
                     Association Did Not Monitor
                     Subsidized Multifamily Projects in
                     Accordance with Regulations or Its
                     Annual Contributions Contract
                     with HUD, Boise, ID

 2006-NY-1003        The Housing Authority of the City     02/14/2006   08/17/2006   01/01/2015
                     of Newark's Controls over Bond
                     Financing Activities, Obtaining
                     Supporting Documentation, and
                     Legal Settlements Require
                     Improvement, Newark, NJ

 2006-LA-1009        Fontana Native American Indian        03/03/2006   03/17/2006   03/15/2009
                     Center Did Not Adequately
                     Administer Its Supportive Housing
                     Program Grant, Fontana, CA

 2006-LA-1010        The Owner and Agent of Holiday        03/03/2006   06/23/2006   01/01/2013
                     Apartments, LA PRO 30, and Two
                     Worlds II Mismanaged Project
                     Finances and Operations, Los
                     Angeles, CA

 2006-LA-1011        Sundial Care Center Used $659,746     05/18/2006   09/14/2006   01/20/2009
                     in Project Funds for Ineligible and
                     Undocumented Costs and Was Unable
                     to Account for Revenue Totaling
                     $407,454, Modesto, CA

 2006-PH-0002        HUD Improperly Admitted the           05/31/2006   10/24/2006   01/01/2009
                     Housing Authority of Baltimore
                     City into the MTW Demonstration
                     Program, Baltimore, MD

 2006-NY-0001        HUD's Controls over the Reporting,    06/08/2006   01/08/2007   01/31/2009
                     Oversight, and Monitoring of the
                     Housing Counseling Assistance
                     Program Were Not Adequate

 2006-KC-1011        The Owner of Wellston Townhouses      06/29/2006   09/06/2006   10/28/2008
                     in St. Louis County Violated Its
                     Regulatory Agreement, Wellston, MO

 2006-KC-1012        The Owner of HDC Retirement           06/29/2006   08/31/2006   10/30/2008
                     Village in St. Louis Violated Its
                     Regulatory Agreement, St. Louis, MO



Appendix 2: Tables                                                                                147
  Report        Report title                              Issue       Decision         Final
  number                                                  date         date           action
 2006-BO-1009   The Rhode Island Housing and            07/06/2006   10/24/2006    12/01/2009
                Mortgage Finance Corporation
                Incorrectly Made More Than $1.8
                Million in Section 8 Subsidy Payments
                and Released More Than $900,000
                from Restricted Residual Receipts
                Accounts, Providence, RI

 2006-BO-0001   HUD Incorrectly Approved $42            07/11/2006   10/13/2006    10/01/2008
                Million in Operating Subsidies for
                Phase-Down for Demolition
                Add-On Funding

 2006-CH-0002   PIH Is Taking Action to Oversee the     07/13/2006   07/13/2006    12/31/2009
                Section 202 Mandatory Conversion
                Program,Washington, DC

 2006-CH-1013   The Ann Arbor Housing                   07/21/2006   11/15/2006    12/31/2016
                Commission's Administration of Its
                Section 8 Housing Choice Voucher
                Program Needs to Be Improved, Ann
                Arbor, MI

 2006-AT-1016   The Municipality of Humacao Did         07/28/2006   11/17/2006    01/30/2009
                Not Administer Its CDBG in
                Accordance with HUD
                Requirements, Humacao, PR

 2006-CH-1014   National City Mortgage Company,         07/31/2006   01/31/2007    09/08/2009
                Nonsupervised Lender, Did Not
                Comply with HUD's Requirements
                Regarding Underwriting of Loans
                and Quality Control Reviews,
                Miamisburg, OH

 2006-SE-0002   The Office of Single Family             08/16/2006   03/30/2007       Note 1
                Housing Expanded Late
                Endorsement Eligibility without
                Studying Associated Risks

 2006-KC-1013   The Columbus Housing Authority          08/30/2006   10/17/2006    11/30/2012
                Improperly Expended and
                Encumbered Its Public Housing
                Funds, Columbus, NE

 2006-DP-0005   Review of HUD's Information             08/31/2006   11/17/2006    12/15/2008
                Technology Contingency Planning
                and Preparedness



148                                                                               Appendix 2: Tables
  Report             Report title                              Issue       Decision       Final
  number                                                       date         date         action
 2006-AT-1019        The Municipality of Toa Baja Did        09/06/2006   12/11/2006   12/31/2008
                     Not Administer Its Section 108 Loan
                     Guarantee Assistance Program in
                     Accordance with HUD Requirements,
                     Toa Baja, PR

 2006-DP-0802        Assessment of HUD's Compliance          09/21/2006   11/24/2006   10/01/2009
                     with OMB Memorandum
                     M-06-16, "Protection of Sensitive
                     Agency Information"

 2006-CH-1018        Saginaw Housing Commission              09/28/2006   01/19/2007   12/31/2021
                     Improperly Used Public Housing
                     Funds to Purchase Property,
                     Saginaw, MI

 2007-AT-1002        Pine State Mortgage Company Did         11/03/2006   03/02/2007   12/31/2008
                     Not Always Comply with FHA
                     Underwriting and Quality Control
                     Requirements, Atlanta, GA

 2007-LA-0001        Tax Credit Project Owners Are           11/08/2006   07/05/2007   10/01/2010
                     Allowed to Charge Higher Rents for
                     Tenant-Based Section 8 Voucher
                     Households Than Nonvoucher
                     Households

 2007-PH-1002        The Montgomery County Housing           12/13/2006   04/12/2007   02/06/2009
                     Authority Improperly Used HUD
                     Funds to Purchase, Renovate, and
                     Maintain Its Main Office,
                     Norristown, PA

 2007-DP-0002        Review of HUD's Information             01/18/2007   05/25/2007     Note 1
                     Technology Services Contracts

 2007-CH-1002        Benton Harbor Housing Commission        01/25/2007   05/25/2007   05/13/2009
                     Did Not Effectively Manage Its Public
                     Housing Program and Has Not Used
                     Special Purpose Grant Funds It
                     Received More Than Nine Years
                     Ago, Benton Harbor, MI

 2007-DP-0003        Review of HUD's Procurement             01/25/2007   05/25/2007   09/30/2010
                     Systems




Appendix 2: Tables                                                                                  149
  Report        Report title                             Issue       Decision         Final
  number                                                 date         date           action
 2007-KC-0002   HUD Can Improve Its Use of             01/29/2007   01/29/2007    01/31/2011
                Residual Receipts to Reduce
                Housing Assistance Payments

 2007-CH-1003   The Housing Authority of the City      02/13/2007   06/11/2007    12/31/2016
                of Evansville Needs to Improve Its
                Section 8 Housing Choice Voucher
                Program Administration,
                Evansville, IN

 2007-LA-1005   Oakland Housing Authority Did          02/14/2007   06/14/2007    10/31/2008
                Not Comply with Procurement
                and Contracting Requirements,
                Oakland, CA

 2007-DP-0004   FY 2006 Review of Information          02/22/2007   06/21/2007    12/30/2008
                Systems Controls in Support of
                the Financial Statements Audit

 2007-AT-1004   The Wilmington Housing Authority       03/09/2007   06/25/2007    06/28/2010
                Needs to Improve Internal Controls
                over Its Program, Wilmington, NC

 2007-BO-1003   The Office of Community                03/21/2007   07/19/2007    01/16/2009
                Development, City of Chicopee,
                Did Not Properly Award and
                Administer CDBG and HOME
                Funds Used for its Housing
                Activities, Chicopee, MA

 2007-DP-0005   Review of HUD's Information            04/05/2007   08/03/2007    11/30/2008
                Technology Security Program

 2007-LA-1008   The Navajo Housing Authority           04/09/2007   08/02/2007       Note 1
                Should Discontinue Its Use of
                Subgrantees for Development Projects
                or Implement Additional Program
                Controls, Window Rock, AZ

 2007-AT-1007   The Municipality of Toa Baja Needs     04/11/2007   07/16/2007    05/30/2009
                to Improve Its CDBG Program
                Administration, Toa Baja, PR

 2007-KC-0003   HUD Did Not Recapture Excess           04/30/2007   08/27/2007    01/31/2009
                Funds from Assigned Bond-Financed
                Projects




150                                                                              Appendix 2: Tables
  Report             Report title                            Issue       Decision       Final
  number                                                     date         date         action
 2007-BO-0002        HUD Did Not Process Multifamily       05/21/2007   09/07/2007   10/15/2009
                     Accelerated Processing Applications
                     within Established Processing Goals
                     and the Multifamily Accelerated
                     Processing Guide Is Outdated

 2007-LA-1011        Suburban Mortgage Company Did         05/29/2007   12/31/2007   12/31/2008
                     Not Comply with HUD
                     Requirements in the Origination
                     of FHA-Insured Single-Family
                     Mortgages, Phoenix, AZ

 2007-LA-1012        Central City Lutheran Mission         06/04/2007   09/21/2007     Note 1
                     Did Not Properly Administer Its
                     Supportive Housing Program
                     Grants, San Bernardino, CA

 2007-SE-0001        HUD Did Not Ensure That               06/07/2007   10/05/2007   10/31/2008
                     Payments to Contract
                     Administrators Were for Work
                     Performed or That Interest Was
                     Earned on Advances and Recovered

 2007-NY-1008        The City of Newark Did Not Always     06/22/2007   10/17/2007   10/17/2008
                     Administer Its CDBG Program in
                     Accordance with HUD Requirements,
                     Newark, NJ

 2007-FW-1011        Capmark Finance, Inc.,                07/02/2007   10/23/2007   10/29/2008
                     Misrepresented Asbury Square
                     Apartments' Financial and Physical
                     Condition When Underwriting the
                     $9.098 Million Loan, Tulsa, OK

 2007-FW-1012        Fallbrook Apartments' Owner           07/06/2007   10/10/2007   12/31/2008
                     and/or Management Agent Made
                     Unauthorized Distributions of the
                     Project's Funds, Houston, TX

 2007-CH-1009        The Boyne City Housing                07/17/2007   11/06/2007   10/31/2017
                     Commission Failed to Follow
                     HUD's Requirements for Its
                     Nonprofit Development Activities,
                     Boyne City, MI




Appendix 2: Tables                                                                                151
  Report        Report title                             Issue        Decision         Final
  number                                                 date          date           action
 2007-CH-1010   The Madison County Housing             07/20/2007    11/16/2007    11/14/2008
                Authority Did Not Effectively
                Administer Its Section 8 Housing
                Choice Voucher Program,
                Collinsville, IL

 2007-CH-1011   The Indianapolis Housing Agency        07/23/2007    11/19/2007    11/18/2008
                Lacked Adequate Controls over
                Expenses Charged to Its Section 8
                Program, Indianapolis, IN

 2007-LA-1014   The Housing Authority of the           07/27/2007    11/23/2007    11/24/2017
                County of San Mateo Did Not Use
                HUD Program Funds in Accordance
                with HUD Requirements, San
                Mateo, CA

 2007-CH-1012   The Plymouth Housing Commission        08/03/2007    11/23/2007    11/30/2008
                Needs to Improve Its Section 8
                Housing Choice Voucher Program
                Administration, Plymouth, MI

 2007-AT-1010   The Cathedral Foundation of             08/14/2007   12/03/2007    12/31/2008
                Jacksonville Used More Than $2.65
                Million in Project Funds for Questioned
                Costs, Jacksonville, FL

 2007-PH-1011   The Housing Commission of Anne         08/14/2007    12/11/2007    11/03/2008
                Arundel County Did Not Always
                Operate Its Housing Choice Voucher
                Program in Accordance with Federal
                Requirements, Glen Burnie, MD

 2007-NY-1011   The Hoboken Housing Authority          08/17/2007    12/11/2007    10/31/2008
                Requires Improved Controls over
                Its Capital Fund Program and Cash
                Disbursement Process, Hoboken, NJ

 2007-PH-0002   HUD's Oversight of Contractors'        08/17/2007    12/12/2007    12/31/2008
                Marketing of Its Real Estate-Owned
                Properties

 2007-DP-0006   Review of HUD's Personal Identity      08/28/2007    12/20/2007    04/30/2009
                Verification and Privacy Program




152                                                                               Appendix 2: Tables
  Report             Report title                               Issue       Decision       Final
  number                                                        date         date         action
 2007-NY-1012        The City of Passaic's Community          09/12/2007   12/17/2007   12/12/2008
                     Development Department Has
                     Weaknesses in Its HOME Investment
                     Partnerships Program, Passaic, NJ

 2007-AT-0001        HUD Needs to Improve Controls            09/19/2007   09/19/2007   09/30/2009
                     over Its Contract Administration
                     Processes

 2007-DP-0007        Vulnerability Assessment of HUD's        09/19/2007   01/28/2008   12/15/2008
                     Computer Network

 2007-LA-1016        A Community of Friends Did Not           09/21/2007   01/18/2008   01/17/2009
                     Always Administer Its Cash Match
                     in Compliance with HUD
                     Requirements, Los Angeles, CA

 2007-CH-1014        The Peoria Housing Authority Did         09/24/2007   01/14/2008   11/14/2008
                     Not Effectively Administer Its Section
                     8 Housing Choice Voucher Program,
                     Peoria, IL

 2007-KC-0004        More Than 80 Percent of Recently         09/24/2007   03/28/2008   11/30/2008
                     Insured Title II Manufactured
                     Housing Loans Are on Homes
                     with Substandard Foundations

 2007-KC-0801        Lenders Submitted Title II               09/24/2007   03/11/2008   03/07/2009
                     Manufactured Housing Loans for
                     Endorsement without the Required
                     Foundation Certifications

 2007-AT-1011        The Wilmington Housing Authority         09/26/2007   01/24/2008   01/01/2011
                     Did Not Follow HUD Requirements
                     for Its Nonprofit Development
                     Activities, Wilmington, NC

 2007-CH-1015        Cook County Lacked Adequate              09/26/2007   01/24/2008   10/30/2008
                     Controls over Its HOME Investment
                     Partnerships Program, Chicago, IL

 2007-PH-1013        The Harrisburg Housing Authority         09/27/2007   11/28/2007   11/26/2008
                     Did Not Properly Administer Its
                     Low-Rent Public Housing Program,
                     Harrisburg, PA




Appendix 2: Tables                                                                                   153
  Report        Report title                            Issue       Decision         Final
  number                                                date         date           action
 2007-CH-1016   The Plymouth Housing Commission       09/28/2007   01/24/2008    01/24/2009
                Failed to Adequately Administer Its
                Section 8 Housing Choice Voucher
                Program, Plymouth, MI

 2007-FW-0001   Overpayments in the Housing           09/28/2007   01/24/2008    12/31/2008
                Choice Voucher Program Occurred
                When Public Housing Agencies
                Subsidized Rental Units with More
                Bedrooms Than Authorized

 2007-CH-1017   The City of Cincinnati Lacked         09/30/2007   01/28/2008    10/15/2008
                Adequate Controls over Its HOME
                Investment Partnerships Program,
                Cincinnati, OH

 2007-CH-1018   The City of Milwaukee Needs to        09/30/2007   03/20/2008    10/30/2009
                Improve Existing Controls over Its
                HOME Program Regarding Housing
                Conditions and Contracting,
                Milwaukee, WI

 2007-SE-1004   The Tacoma Consortium Did Not         09/30/2007   01/25/2008    12/31/2008
                Properly Administer Its HOME
                Investment Partnerships Grants,
                Tacoma, WA




154                                                                             Appendix 2: Tables
                   Significant audit reports issued within the past 12 months
        that were described in previous semiannual reports in which final action had not
                                been completed as of 09/30/2008

  Report             Report title                              Issue       Decision       Final
  number                                                       date         date         action
 2008-DP-0001        Review of Unisys Performance and        10/19/2007   02/08/2008   01/30/2009
                     Security Controls

 2008-NY-0801        CDBG Disaster Recovery Assistance       10/23/2007   04/03/2008   10/10/2008
                     Funds Lower Manhattan Development
                     Corporation

 2008-FW-1001        The Housing Authorities of the City of 10/26/2007    02/22/2008   05/01/2009
                     Konawa, City of Langston, City of Pauls
                     Valley, City of Wynnewood, Town
                     of Cheyenne, and Caddo Electric
                     Cooperative Improperly Awarded Their
                     Management Contracts and Did Not
                     Manage Certain Operations or
                     Administer Funds Properly, Ada, OK

 2008-SE-1001        Accounting for Program Income from      10/30/2007   07/23/2008   03/31/2009
                     NAHASDA-Assisted 1937 Act Housing
                     Projects at Warm Springs Housing
                     Authority, Warm Springs, OR

 2008-DP-0002        Review of FHA Controls over Its         10/31/2007   02/26/2008   12/05/2008
                     Information Technology Resources

 2008-LA-0001        The Los Angeles Multifamily Hub Did     11/05/2007   03/03/2008   03/02/2009
                     Not Properly Monitor Its Performance-
                     Based Contract Administrator,
                     Los Angeles LOMOD

 2008-BO-1001        The City of Chicopee Did Not Properly 11/07/2007     09/24/2008   02/15/2009
                     Administer More Than $4.3 Million in
                     CDBG Funds, Chicopee, MA

 2008-AT-1001        The Municipality of Ponce Needs to      11/08/2007   01/16/2008   12/31/2008
                     Improve Controls over Its Section 8
                     Program, Ponce, PR

 2008-FO-0003        Additional Details to Supplement Our    11/14/2007   05/14/2008   12/31/2008
                     Report on HUD's FY 2007and 2006
                     Financial Statements

 2008-AT-1002        The Municipality of Canovanas Needs     11/15/2007   03/07/2008   11/14/2008
                     to Improve Administration of Its
                     CDBG Program, Canovanas, PR



Appendix 2: Tables                                                                                  155
  Report        Report title                                Issue       Decision         Final
  number                                                    date         date           action
 2008-CH-1001   The Housing Authority of the City of      11/19/2007   03/10/2008    01/23/2023
                Michigan City Failed to Follow Federal
                Requirements for Its Nonprofit
                Development Activities, Michigan City,
                IN

 2008-DE-1001   The Housing Authority of the City of      11/27/2007   01/10/2008    01/31/2009
                Colorado Springs Improperly Managed
                Contracts and Improperly Maintained
                Its Section 8 Waiting List, Colorado
                Springs, CO

 2008-FW-1002   The Shreveport Housing Authority Did      11/28/2007   03/27/2008    03/01/2009
                Not Ensure That Section 8 Units Met
                Housing Quality Standards, Shreveport,
                LA

 2008-AO-0001   HUD Had a Less Than 1 Percent Error       12/04/2007   04/01/2008    12/31/2009
                Rate in Housing Ineligible Participants
                for Katrina Disaster Housing Assistance
                Program and Disaster Voucher Program
                Disaster Housing Assistance

 2008-FW-1003   The Dallas Housing Authority              12/05/2007   03/19/2008    03/31/2011
                Mismanaged Its Portable Vouchers,
                Dallas, TX

 2008-NY-1002   Richard A. Hutchens and Associates,  12/05/2007        03/05/2008    11/14/2008
                Management Agent, Used Project Funds
                for Ineligible and/or Unsupported
                Costs, Buffalo, NY

 2008-FW-1004   Community Development Corporation 12/18/2007           04/16/2008    03/09/2009
                of Brownsville Did Not Use Its Housing
                Counseling Grants for the Intended
                Purpose, Brownsville, TX

 2008-LA-1003   Home for Life Foundation Did Not          12/18/2007   02/26/2008    02/22/2009
                Properly Administer Its Supportive
                Housing Program Grants, Los Angeles,
                CA

 2008-NY-0001   HUD's Monitoring Controls and             12/31/2007   03/27/2008    06/30/2009
                Procedures Regarding the CDBG
                Program Were Not Adequate




156                                                                                 Appendix 2: Tables
  Report             Report title                                 Issue       Decision       Final
  number                                                          date         date         action
 2008-FW-1005        The Housing Authority of the City of       01/07/2008   04/24/2008   03/25/2009
                     McKinney Inappropriately Advanced
                     Funds and Transferred Real Estate to Its
                     Not-for-Profit Affiliate, McKinney, TX

 2008-AT-1004        The City of West Palm Beach Did Not        01/09/2008   05/05/2008   01/09/2009
                     Properly Administer Its CDBG
                     Program, West Palm Beach, FL

 2008-CH-1002        The Akron Metropolitan Housing             01/09/2008   03/12/2008   12/31/2008
                     Authority Lacked Adequate Controls
                     over Its 5(h) Homeownership Proceeds,
                     Akron, OH

 2008-AT-0001        The Atlanta PIH Did Not Ensure That        01/10/2008   01/10/2008   12/31/2008
                     the Housing Authority of DeKalb
                     County Accurately Implemented Its
                     Memorandum of Agreement

 2008-AT-1005        The City of Fort Lauderdale Did Not        01/11/2008   05/05/2008   01/11/2009
                     Properly Administer Its CDBG
                     Program, Fort Lauderdale, FL

 2008-KC-0001        HUD's Quality Assurance Division           01/14/2008   06/05/2008   12/31/2008
                     Did Not Always Resolve Materially
                     Deficient or Potentially Fraudulent
                     Loans Consistently

 2008-LA-1004        The City of Los Angeles Housing            01/15/2008   05/14/2008   05/14/2009
                     Department Did Not Adequately
                     Monitor HOME Program-Assisted
                     Rehabilitation Construction, Los
                     Angeles, CA

 2008-NY-1003        The City of New York's Department of       01/23/2008   05/21/2008   12/01/2008
                     Housing Preservation and Development
                     Had Administrative Weaknesses in Its
                     HOME Program, New York, NY

 2008-AO-1002        State of Louisiana, Road Home              01/30/2008   05/12/2008   11/30/2008
                     Program, Funded 418 Grants Coded
                     Ineligible or Lacking an Eligibility
                     Determination, Baton Rouge, LA

 2008-LA-1006        Phoenix Apartments Did Not Use       02/04/2008         05/28/2008   05/28/2009
                     Project Funds in Accordance with HUD
                     Requirements, Concord, CA




Appendix 2: Tables                                                                                     157
  Report        Report title                               Issue       Decision         Final
  number                                                   date         date           action
 2008-LA-1007   The Housing Authority of the County      02/08/2008   09/24/2008    09/24/2009
                of Los Angeles Did Not Adequately
                Administer Its Section 8 Voucher
                Program, Los Angeles, CA

 2008-KC-1001   The Douglas County Housing               02/11/2008   05/28/2008    03/31/2017
                Authority Improperly Encumbered and
                Spent Its Public Housing Funds,
                Omaha, NE

 2008-CH-1003   The Highland Park Housing                02/15/2008   03/19/2008    04/01/2009
                Commission Did Not Effectively
                Administer Its Public Housing and
                Capital Fund Programs, Highland Park,
                MI

 2008-KC-1002   The Schuyler Housing Authority           02/20/2008   06/11/2008    02/28/2018
                Improperly Used Public Housing Funds
                to Support a Non-HUD Assisted Living
                Program, Schuyler, NE

 2008-SE-1002   Oneida Housing Authority Did Not        02/20/2008    06/10/2008    03/31/2009
                Properly Recognize and Use Program
                Income from Native American Housing
                Assistance and Self-Determination
                Act-Assisted 1937 Act Housing Projects,
                Oneida, WI

 2008-DP-0003   FY 2007 Review of Information Systems 03/04/2008      06/26/2008    12/30/2008
                Controls in Support of the Financial
                Statements Audit

 2008-LA-0002   HUD Did Not Have Adequate Internal       03/04/2008   06/17/2008    10/31/2008
                Controls over Its FHA Appraiser Roster

 2008-LA-1008   The Housing Authority of the County      03/06/2008   05/08/2008    05/08/2009
                of San Joaquin Did Not Administer
                Capital Funds in Accordance with
                HUD Requirements, Stockton, CA

 2008-AT-1006   Fulton County Lacked Adequate            03/07/2008   06/13/2008    06/01/2009
                Controls over Its HOME Program,
                Atlanta, GA

 2008-DE-1002   The Housing Authority of the City of     03/18/2008   03/18/2008    11/30/2010
                Brighton Did Not Maintain Proper
                Inventory Records and Improperly
                Awarded Contracts, Brighton, CO



158                                                                                Appendix 2: Tables
  Report             Report title                               Issue         Decision          Final
  number                                                        date           date            action
 2008-FW-1006        Dallas Housing Authority Management      03/20/2008     07/07/2008     12/15/2009
                     Failed to Implement Internal Controls
                     over Its Housing Choice Voucher
                     Program, Dallas, TX

 2008-FW-1008        The Owner of Century Mission Oaks        03/21/2008     06/26/2008     07/11/2009
                     Violated Its Regulatory Agreement with
                     HUD, San Antonio, TX

 2008-KC-0002        HUD Did Not Ensure That Housing        03/24/2008       07/22/2008     10/01/2011
                     Authorities Properly Administered the
                     Community Service and Self-Sufficiency
                     Requirement

 2008-AO-0801        Review of Duplication of Participants    03/28/2008     08/01/2008     08/01/2009
                     Benefits under HUD's Katrina Disaster
                     Housing Assistance Program and
                     Disaster Voucher Program

 2008-PH-1005        Elders Place, Incorporated, Did Not      03/28/2008     07/23/2008     07/10/2009
                     Administer Project Operating Funds in
                     Accordance with HUD Requirements,
                     Philadelphia, PA




 Audits excluded                                               Notes
 46 audits under repayment plans                               1 Management did not meet the target date.
                                                               Target date is under 1 year old.
 32 audits under formal judicial review,
 investigation, or legislative solution




Appendix 2: Tables                                                                                       159
                                                        Table C
                           Inspector General-issued reports with questioned and
                                unsupported costs at September 30, 2008
                                                          (thousands)

     Audit reports                                                       Number of          Questioned   Unsupported
                                                                        audit reports         costs         costs
     A1 For which no management decision had been made                        28              125,644       76,787
        by the commencement of the reporting period
     A2 For which litigation, legislation, or investigation was                8               21,423       14,768
        pending at the commencement of the reporting
        period
     A3 For which additional costs were added to reports in                    -                3,288         813
        beginning inventory
     A4 For which costs were added to noncost reports                          0                  0            0
     B1 Which were issued during the reporting period                         66              153,802      100,656
     B2 Which were reopened during the reporting period                        0                  0            0
                                                   Subtotals (A+B)           102              304,157      193,024
      C For which a management decision was made during                       561             193,609      100,822
        the reporting period
         (1) Dollar value of disallowed costs:
            - Due HUD                                                         142              24,400        8,690
            - Due program participants                                        48              160,584       85,577
         (2) Dollar value of costs not disallowed                             133               8,625        6,555
      D For which management decision had been made not                        6               14,317       11,524
        to determine costs until completion of litigation,
        legislation, or investigation
      E For which no management decision had been made                       40               96,231       80,678
        by the end of the reporting period                                  <96>4            <95,897>4    <80,671>4




 1
   38 audit reports also contain recommendations with funds be put to better use.
 2
   7 audit reports also contain recommendations with funds due program participants.
 3
   12 audit reports also contain recommendations with funds agreed to by management.
 4
   The figures in brackets represent data at the recommendation level as compared to the report level.
   See explanations of tables C and D.




160                                                                                                      Appendix 2: Tables
                                                        Table D
                         Inspector General-issued reports with recommendations
                          that funds be put to better use at September 30, 2008
                                                          (thousands)

     Audit reports                                                                   Number of            Dollar
                                                                                    audit reports         value
     A1 For which no management decision had been made by the                             21             1,401,634
        commencement of the reporting period
     A2 For which litigation, legislation, or investigation was                            8              87,487
        pending at the commencement of the reporting period
     A3 For which additional costs were added to reports in                                -               7,779
        beginning inventory
     A4 For which costs were added to noncost reports                                      0                0
     B1 Which were issued during the reporting period                                     48              67,616
     B2 Which were reopened during the reporting period                                    0                0
                                                            Subtotals (A+B)               77             1,564,516
      C For which a management decision was made during the                              451             1,297,490
        reporting period
          (1) Dollar value of disallowed costs:
                 - Due HUD                                                                82             940,972
                 - Due program participants                                               35              33,243
          (2) Dollar value of costs not disallowed                                        73             323,275
      D For which management decision had been made not to                                 4              15,863
        determine costs until completion of litigation, legislation,
        or investigation
      E For which no management decision had been made by the                            28               251,163
        end of the reporting period                                                     <45>4            <36,736>4




 1
   38 audit reports also contain recommendations with questioned costs.
 2
   1 audit report also contains recommendations with funds due program participants.
 3
   4 audit reports also contain recommendations with funds agreed to by management.
 4
   The figures in brackets represent data at the recommendation level as compared to the report level.
   See explanations of tables C and D.




Appendix 2: Tables                                                                                                   161
 Explanations of tables C and D
     The Inspector General Act Amendments of 1988 require Inspectors General and agency heads to report
 cost data on management decisions and final actions on audit reports. The current method of reporting at the
 "report" level rather than at the individual audit "recommendation" level results in misleading reporting of
 cost data. Under the Act, an audit "report" does not have a management decision or final action until all
 questioned cost items or other recommendations have a management decision or final action. Under these
 circumstances, the use of the "report" based rather than the "recommendation" based method of reporting
 distorts the actual agency efforts to resolve and complete action on audit recommendations. For example,
 certain cost items or recommendations could have a management decision and repayment (final action) in a
 short period of time. Other cost items or nonmonetary recommendation issues in the same audit report may
 be more complex, requiring a longer period of time for management's decision or final action. Although
 management may have taken timely action on all but one of many recommendations in an audit report, the
 current "all or nothing" reporting format does not take recognition of their efforts.

     The closing inventory for items with no management decision on tables C and D (line E) reflects figures at
 the report level as well as the recommendation level.




162                                                                                            Appendix 2: Tables
Appendix 3
 Index
  State                  Page numbers

  Alaska                 82
  Alabama                44
  Arkansas               121
  Arizona                14, 17, 20, 35, 41, 48, 119, 122
  California             18, 20, 22, 24, 30, 41, 42, 54, 55, 56, 57, 67, 76, 82, 98, 99, 100, 110,
                         114, 115, 120, 131
  Colorado               18, 19, 20, 21, 24, 74, 101, 124
  Connecticut            13, 33, 47, 66, 86
  District of Columbia   36, 55, 100, 116, 123, 130
  Delaware               12, 115, 124
  Florida                17, 19, 24, 39, 40, 46, 48, 52, 53, 54, 56, 57, 59, 63, 67, 70, 78, 85, 121,
                         125
  Georgia                13, 43, 79, 117
  Hawaii                 121
  Iowa                   38, 69
  Idaho                  84
  Illinois               17, 25, 37, 38, 51, 54, 55, 57, 59, 76, 100, 115, 116, 117, 118, 120, 123
  Indiana                23, 30, 31, 47, 49, 57, 78, 119, 120
  Kansas                 12, 21, 58, 59, 82, 119, 120, 126
  Louisiana              26, 38, 49, 67, 84, 93, 94, 95, 96, 98, 99, 100, 101
  Maine                  58
  Maryland               25, 32, 53, 68, 116, 117, 118, 121, 122
  Massachusetts          25, 50, 67, 68, 119, 120, 122, 123
  Michigan               22, 24, 25, 40, 42, 115, 116, 118
  Minneapolis            14, 70, 99, 114, 117, 126
  Mississippi            66, 83, 95, 96, 97, 99, 102
  Missouri               11, 15, 25, 57, 58, 59, 60, 69, 80, 114, 118, 121, 123, 124, 125
  Montana                44, 122
  Nebraska               49, 119
  Nevada                 53, 118, 119
  New Hampshire          122
  New Jersey             11, 17, 21, 22, 23, 36, 48, 50, 60, 74, 84, 85, 86, 120, 124
  New York               12, 23, 26, 43, 49, 50, 51, 52, 53, 59, 66, 68, 69, 74, 82, 84, 117, 119,
                         120




164                                                                                     Appendix 3: Index
  State             Page numbers

   North Carolina   46, 49, 54, 57, 79, 122
   Ohio             31, 36, 56, 75, 77, 110, 115, 124, 125
   Oklahoma         73
   Pennsylvania     19, 33, 34, 39, 60, 66, 69, 83, 116, 124
   Puerto Rico      15, 75
   Rhode Island     35, 51
   South Dakota     47, 59
   Tennessee        20, 119, 122
   Texas            15, 18, 21, 22, 30, 49, 83, 98, 114, 115, 117, 121, 123, 131
   Utah             24, 59, 126
   Virginia         21, 22, 26, 32, 53, 82, 115, 126
   Washington       12
   Wyoming          14




Appendix 3: Index                                                                  165
    HUD OIG
   Operations
Telephone Listing
 Office of Audit
 Headquarters Office of Audit, Washington, DC                202-708-0364
 Region 1                    Boston, MA                      617-994-8380
                             Hartford, CT                    860-240-4800


 Region2                     New York, NY                    212-264-4174
                             Albany, NY                      518-464-4200
                             Buffalo, NY                     716-551-5755
                             Newark, NJ                      973-622-7900
 Region 3                    Philadelphia, PA                215-656-0500
                             Baltimore, MD                   410-962-2520
                             Pittsburgh, PA                  412-644-6372
                             Richmond, VA                    804-771-2100
 Region 4                    Atlanta, GA                     404-331-3369
                             Miami, FL                       305-536-5387
                             Greensboro, NC                  336-547-4001
                             Jacksonville, FL                904-232-1226
                             Knoxville, TN                   865-545-4369
                             San Juan, PR                    787-766-5202
 Region 5                    Chicago, IL                     312-353-7832
                             Columbus, OH                    614-469-5745
                             Detroit, MI                     313-226-6190
 Region 6                    Fort Worth, TX                  817-978-9309
                             Houston, TX                     713-718-3199
                             Oklahoma City, OK               405-609-8606
                             San Antonio, TX                 210-475-6898
 Regions 7/8                 Kansas City, KS                 913-551-5870
                             St. Louis, MO                   314-539-6339
                             Denver, CO                      303-672-5452
 Regions 9/10                Los Angeles, CA                 213-894-8016
                             Phoenix, AZ                     602-379-7250
                             San Francisco, CA               415-489-6400
                             Seattle, WA                     206-220-5360
 Gulf Coast Region           New Orleans, LA                 504-671-3715
                             Jackson, MS                     601-965-4700




168                                              HUD OIG Operations Telephone Listing
 Office of Investigation
 Headquarters Office of Investigation, Washington, DC             202-708-0390
 Region 1                              Boston, MA                 617-994-8450
                                       Hartford, CT               860-240-4800
                                       Manchester, NH             603-666-7988
 Region 2                              New York, NY               212-264-8062
                                       Buffalo, NY                716-551-5755
                                       Newark, NJ                 973-776-7347
 Region 3                              Philadelphia, PA           215-656-0500
                                       Baltimore, MD              410-962-4502
                                       Pittsburgh, PA             412-644-6598
                                       Richmond, VA               804-771-2100
 Region 4                              Atlanta, GA                404-331-3359
                                       Miami, FL                  305-536-3087
                                       Greensboro, NC             336-547-4000
                                       Knoxville, TN              865-545-4000
                                       San Juan, PR               787-766-5868
                                       Tampa, FL                  813-228-2026
 Region 5                              Chicago, IL                312-353-4196
                                       Cleveland, OH              216-522-4421
                                       Columbus, OH               614-469-6677
                                       Detroit, MI                313-226-6280
                                       Indianapolis, IN           317-226-5427
                                       Minneapolis-St. Paul, MN   612-370-3130
 Region 6                              Arlington, TX              817-978-5440
                                       Houston, TX                713-718-3196
                                       Oklahoma City, OK          405-609-8601
                                       San Antonio, TX            210-475-6819
 Region 7/8                            Kansas City, KS            913-551-5866
                                       St. Louis, MO              314-539-6559
                                       Denver, CO                 303-672-5350
                                       Billings, MT               406-247-4080
                                       Salt Lake City, UT         801-524-6090
 Region 9/10                           Los Angeles, CA            213-894-0219
                                       San Francisco, CA          415-489-6683
                                       Phoenix, AZ                602-379-7255
                                       Sacramento, CA             916-930-5691
                                       Las Vegas, NV              702-366-2144
                                       Seattle, WA                206-220-5380




HUD OIG Operations Telephone Listing                                             169
 Gulf Coast Region   New Orleans, LA               504-671-3701
                     Arlington, TX                 817-978-5440
                     Baton Rouge, LA               225-334-4913
                     Hattiesburg, MS               601-299-4279
                     Houston, TX                   713-718-3196
                     Jackson, MS                   601-965-5772
                     Washington, DC                202-708-0390




170                                    HUD OIG Operations Telephone Listing
   Report fraud, waste, and mismanagement in HUD
              programs and operations by

      Calling the OIG Hotline: 1-800-347-3735

        Faxing the OIG Hotline: 202-708-4829

          Sending written information to:
   Department of Housing and Urban Development
          Inspector General Hotline (GFI)
                 451 7th Street, SW
              Washington, DC 20410

    E-mailing the OIG Hotline: hotline@hudoig.gov

Internet:http://www.hud.gov/complaints/fraud_waste.cfm

            All information is confidential,
           and you may remain anonymous.
This Semiannual Report to Congress is dedicated to the brave men and
women of the armed forces. We especially honor those who have been
wounded and pay tribute to those who have paid the ultimate price to
defend our country.




Semiannual Report to Congress
April 1, 2008, through September 30, 2008

www.hud.gov/offices/oig

No. 60    HUD-2008-10-OIG
